<html>
<title> - DISTRICT OF COLUMBIA APPROPRIATIONS FOR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
              DISTRICT OF COLUMBIA APPROPRIATIONS FOR 2004

                              ----------                              

                                          Wednesday, April 9, 2003.

             COURT SERVICES AND OFFENDER SUPERVISION AGENCY

                               WITNESSES

PAUL QUANDER, DIRECTOR, COURT SERVICES AND OFFENDER SUPERVISION AGENCY

                            Opening Remarks

    Mr. Frelinghuysen. The meeting will come to order. Good 
morning, everybody. I would like to thank Chairman Bonilla for 
the use of his hearing room. Our host is Henry Bonilla of 
Texas, who is the Chairman of the Agriculture subcommittee on 
Appropriations, and this is his room. Since the District of 
Columbia subcommittee doesn't have its own, we have to rely on 
the graciousness of Mr. Bonilla and others, and we appreciate 
his generosity.
    Let me welcome everyone to the first hearing of the 
District of Columbia Appropriations subcommittee for the fiscal 
year 2004 budget cycle. I know many of you probably had doubts 
as to whether or not we were ever going to hold this hearing. 
To Mr. Quander and others, who waited for us to set a date, we 
appreciate your understanding, and here we are.
    Before we start, I want to extend a special welcome to the 
newest members of the subcommittee. On the majority side, we 
have Doctor Dave Weldon from Florida, and John Culberson, who 
may be with us, from Texas. Both parties are sort of caucusing. 
We hope that all members will be here. Both Dave and John are 
also new members of the Appropriations Committee.
    On the minority side, we have Ed Pastor from Arizona and 
Bud Cramer from Alabama. Bud, good to be with you on the 
committee. Also joining me today is Chaka Fattah, the Ranking 
Minority Member of the subcommittee. This is Chaka's third year 
as the ranking member. I look forward to his valuable 
contribution to this year's bill and to his advice. And we look 
forward very much to working together.
    At the outset, I wanted to say my predecessor, Joe 
Knollenberg, had a goal of working together with all of the 
stakeholders and with all of the Committee members to develop a 
mutual agenda and not to impose one. My intention to continue 
that very positive approach. I look forward to working with 
each and every member to do just that.
    We are receiving testimony today on the fiscal year 2004 
budget request from the Court Services and Offender Supervision 
Agency, or CSOSA, as they are commonly known.
    Briefly, for those who may not be familiar with CSOSA, it 
was established by the National Capital Revitalization and Self 
Government Improvement Act of 1997, most commonly known as the 
Revitalization Act.
    This Act relieved the District of Columbia of certain State 
level financial responsibilities, and restructured a number of 
criminal justice functions. CSOSA was created and assumed the 
functions of supervision of offenders either on probation, 
parole or supervised release, supervision of pretrial 
defendants, and the defense of indigent individuals.
    While the appropriation for this agency is comprised of 
three components, the Community Supervision Program, the 
Pretrial Services Agency, and the Public Defender Service, we 
have two of those components here today. The Public Defender 
Service will be with us next week with the D.C. Courts and 
Defender Services.
    I believe that public safety, and I am sure all members of 
the committee agree, is one of the keys to the revitalization 
of the District. With all that is happening in the world today, 
the public safety focus is on homeland security and threats of 
acts of terrorism. But we can't lose sight of the threat to our 
safety that comes from acts of crime.
    With 70 percent of convicted offenders serving all or part 
of their sentence in the community, and about 13 percent of the 
Metropolitan Police Department's monthly arrests coming from 
offenders under your supervision, CSOSA plays a vital role in 
the safety of the District's residents, employees and many 
visitors.
    Mr. Quander, I look forward to hearing your testimony, but 
first I am happy to yield to Mr. Fattah for any opening remarks 
he cares to make.
    Mr. Fattah.

                      Mr. Fattah's Opening Remarks

    Mr. Fattah. Thank you, Mr. Chairman. I will defer opening 
remarks, but I do want to just take a second and welcome you to 
the Committee and the Chairmanship. We have made, I think, a 
great deal of progress over the last couple of years in having 
a bipartisan effort to respond to the needs of the District. 
And I am convinced that, even though this is our first hearing 
and we have had many conversations about the affairs of the 
District, I am convinced that through your leadership, 
additional progress will be made, and that the people in the 
institutions here in the District will be well served through 
your stewardship of the committee.
    My contention has always been that we should not be 
expecting the District to solve problems that have not been 
solved anywhere else in the country, but that we should hold 
them to the higher standards of efficiency in local government, 
as is the case anywhere else.
    I am reminded of that in reading the Philadelphia Inquirer 
this morning, in which a study found that in our State parole 
agency, they have somehow lost track of some 1,500 parolees, 
and a host of other at least alleged problems by the State 
auditor. And these are challenging issues.
    I think that you will find that the leadership here in the 
District and from the testimony this morning, that a lot has 
been done and a lot is being done to deal with the lives of ex-
offenders and how to make sure that recidivism is reduced here 
in the District. So I look forward to the testimony and 
appreciate you taking the helm of the committee. And I look 
forward to working with you.
    Thank you.
    Mr. Frelinghuysen. Thank you very much for your remarks.
    Today we will hear testimony from Paul Quander, the 
Director of CSOSA, and I might add the first Presidentially-
appointed director. I also understand, Mr. Quander, you may 
have people with you that are not at the table that might be 
called upon to answer questions. We welcome all of you here 
this morning. We will insert your entire statement in the 
record and ask that you highlight your statement to the 
committee. Please proceed.

                    Mr. Quander's Opening Statement

    Mr. Quander. Thank you and good morning, Mr. Chairman and 
members of the committee. Thank you for the opportunity to 
appear before you today in support of the fiscal year 2004 
budget request of the Court Services and Offender Supervision 
Agency for the District of Columbia, or CSOSA.
    As you know, CSOSA includes the Pretrial Services Agency, 
which provides supervision for pretrial defendants. The 
community supervision program supervises convicted offenders on 
probation, parole or supervised release.
    Our fiscal year 2004 request reflects our desire to 
continue implementing the initiatives we have previously 
presented to you. We strive to allocate resources strategically 
and effectively so that we can achieve the greatest possible 
benefit to public safety.
    At any given time, CSP supervises approximately 15,000 
offenders and PSA supervises or monitors approximately 8,000 
defendants.
    In both populations, our highest priority must be to close 
the revolving door that leads too many people through repeated 
incarcerations and periods of supervision. Through 
accountability, intermediate sanctions, treatment, education, 
and employment, we are striving to decrease that percentage 
every year by reducing rearrests and recidivism.
    Among our population, in the 6 years since CSOSA's 
establishment as a trusteeship, and the 3 years since 
certification as an independent Federal agency, we have 
achieved a number of significant milestones. With fiscal year 
2003 and fiscal year 2004 resources, we expect to meet our 
target caseload of 50 general supervision offenders per 
community supervision officer.
    We have opened six field units to locate our officers in 
areas of the city with high concentrations of offenders, 
including our newest office at 25 K Street Northwest. Since 
fiscal year 2000, we have increased by 116 percent the number 
of offenders drug tested every month. We have placed over 3,500 
defendants and offenders in contract treatment in fiscal year 
2002.
    Our multidenominational faith community partnership 
embraces more than 25 member institutions, and our volunteer 
mentor program has matched more than 80 returning offenders 
with individuals who are committed to helping them stay out of 
prison.
    For fiscal year 2004, CSOSA requests direct budget 
authority of $166,525,000 and 1,357 full-time equivalent 
positions. Of this amount, $103,904,000 is for the Community 
Supervision Program, or CSP; $37,411,000 is for the Pretrial 
Service Agency; and $25,210,000 is for the Public Defender 
Service. The District of Columbia Public Defender Service 
transmits its budget request with CSOSA's.
    CSOSA fiscal year 2004 budget request represents an 8 
percent increase over 2003 funding. Most of that increase is 
attributable to adjustments to base that will enable the 
Community Supervision Program to fully fund community 
supervision officer positions to be filled in fiscal year 2003.
    These positions are essential to achieving our targeted 
caseload ratio. The Community Supervision Program increase also 
includes funding for the Reentry and Sanctions Center Program, 
which is based on our Current Assessment and Orientation 
Center, or AOC.
    In 2002, CSOSA received 13 million and an authorization for 
89 positions to expand the Assessment and Orientation Center 
located at Karrick Hall on the grounds of D.C. General 
Hospital. In September of 2002, CSOSA signed a 10-year lease 
with the District of Columbia for the continued use of Karrick 
Hall. The planning work is completed, but the renovation has 
been delayed pending approvals required by the District 
Government.
    The Assessment and Orientation Center provides us with a 
residential placement for high-risk defendants and offenders 
with extensive criminal histories and severe substance abuse 
problems. Among offenders who complete the program, rearrests 
decreased by 74 percent in the year following completion.
    Since its inception, almost 900 defendants and offenders 
have benefitted from this program. This program is targeted 
directly at the 30 percent of our population who are most 
likely to recidivate. So we believe it is essential to 
achieving our public safety mission.
    We request $3,104,000 to expand the Assessment and 
Orientation Center to a full-fledged reentry and sanction 
center, bringing one additional unit on line for a total of 39 
beds.
    The Pretrial Services Agency also has one new initiative 
focusing on enhanced supervision. Since the District of 
Columbia Department of Corrections closure of Community 
Correctional Center number 4 in 2002, additional defendants are 
being released to the community and must be monitored by 
Pretrial Services officers. The impact of this has been 
considerable.
    To mitigate the stress this has placed on their general 
supervision staff, the Pretrial Services Agency requests 
$224,000 to provide vendor management of the agency's 
electronic monitoring program.
    Thank you again for the opportunity to appear before you 
today. And I will be happy to answer any questions that you may 
have.
    Mr. Frelinghuysen. Thank you, Mr. Quander.
    [The prepared statement of Mr. Quander appears on pages 21 
through 76.]

                           AGENCY PERFORMANCE

    Mr. Frelinghuysen. If there is no objection, we will 
operate under the 5-minute rule for questioning. All Members 
will have an opportunity to ask questions in a timely manner. 
After all Members have had a chance to ask questions, time 
permitting, we will have a second round.
    There are, if you look in front of you on the witness 
table, boxes which are timers. Since we are on the 5-minute 
rule, we will give you fair warning.
    I will go first with a few questions, then I will recognize 
Mr. Fattah, and then we will go in order of those who came into 
the hearing.
    Mr. Quander, I am going to start off with a few general 
questions. The mission of your agency is to increase public 
safety, prevent crime, reduce recidivism and support the fair 
administration of justice.
    How would you rate the job your agency is doing in each of 
those areas?
    Mr. Quander. As a relatively new agency, I think we are 
doing a very good job of satisfying those requirements. When we 
talk about public safety, we talk about something that affects 
all of us. And I think the way that we have approached it as an 
agency, is to use the research that is available and the best 
practices that are available throughout the country. And we 
have joined that into a strategy to address public safety and 
recidivism.
    What we try to do is to make sure that the individuals that 
we are responsible for are accountable, number 1. That we know 
where they are, we know what they are doing. That if there are 
any transgressions, any violation of the rules, that there are 
sanctions that are immediately applied. So that if there is 
conduct that is not going--conduct that is not appropriate, 
then there are immediate sanctions.
    And, as a result of that, we believe that we have better 
control over the offender population and the defendant 
population. And, as a result, with the substance abuse testing 
and treatment that is provided, we think that we are on the 
right track, and we believe that we will be having a 
significant reduction in the number of rearrests and 
recidivists.
    Mr. Frelinghuysen. How do you actually measure? What sort 
of tools do you have available to you? Do you compare 
yourselves to other jurisdictions?
    I know you have working relationships with a lot of other 
Federal agencies, but I just wonder how you actually measure 
issues that relate to public safety and recidivism? How do you 
actually measure how well you are doing?
    Mr. Quander. There are a number of tools that we are using. 
As a new agency, one of the newest tools that came on line in 
January of last year is our management information system that 
we call SMART. And SMART will allow us to actually track the 
number of offenders and defendants that are in our system; the 
treatment, recidivism rate, rearrest rate, things of that 
nature.
    So it is a new system, and we don't have a lot of data in 
the system right now, but in the not too distant future, we 
will be able to bring you data that shows you where we are.
    Until that happens, we do compare rearrest rates with other 
jurisdictions. We take a look at the rearrest rates in the 
Metropolitan Police Department. We know on average that our 
offenders that we supervise roughly scale out about 13 percent 
of all of the individuals that are arrested in the District of 
Columbia by the Metropolitan Police Department. That is just 
the rearrest numbers.
    When you look at the numbers of individuals whose cases 
have been dismissed, or no-papered, the number that are 
actually convicted is around 4 percent. So 4 percent of that 
number are offenders who actually have new arrests which have 
resulted in convictions, which is a significant improvement in 
what it was in the past before we came into existence. And the 
strategy that we have initiated is starting to take hold.

                               CASELOADS

    Mr. Frelinghuysen. Talk for a minute about some of your 
statistics. At any given time--is this accurate--the Community 
Supervision Program, which includes probation and parole, 
supervises, is it 15,000?
    Mr. Quander. It is 15,000 on that side.
    Mr. Frelinghuysen. And the Pretrial Services Agency?
    Mr. Quander. It is approximately 8,000, yes. Now, that 
number also--we are also responsible for civil protection 
orders. We also have a smaller number, but increasing number of 
supervised release people. So it is probation, parole, 
supervised release, and the pretrial side.
    One of the--the figures that we like to cite is that 70 
percent of offenders who are convicted of crimes in the 
District of Columbia serve a portion of their sentence in the 
community. So that is a significant number.
    And we are responsible for the supervision. Part of the 
strategy that we have employed is to place our offices in the 
community in which our offenders live, which gives us better 
access to them. The defendants have access to the people that 
they need to see, the services that we are providing, including 
the learning labs and some of the substance abuse treatments.
    So we are trying to make it as user friendly as we possibly 
can. But at the same time, it allows the community to have 
access to us so that they can tell us where the problem issues 
are.

                           DOMESTIC VIOLENCE

    Mr. Frelinghuysen. One last question, and then I will turn 
to Mr. Fattah. Under the title Civil Protection, are we talking 
about spousal abuse, domestic situations?
    Mr. Quander. Yes.
    Mr. Frelinghuysen. Are you responsible for a certain 
population? Obviously we are keenly interested in making sure 
that people aren't victimized again. I mean the cases of 
domestic abuse are particularly horrific involving children and 
spouses. I just wondered whether you have a handle on that 
aspect?
    Mr. Quander. We do. We have a unit, a branch that is 
devoted to domestic violence. And we characterize them a little 
different than our general supervision.
    Their caseloads are lower. They have a mandate to deal with 
the domestic violence issue. There is treatment as far as anger 
management, other types of treatment that deal with the issue 
of domestic violence. There is a 22-week treatment program that 
anyone that is convicted, or we believe that can benefit from 
this training is offered.
    Mr. Frelinghuysen. I am all for treatment. That is what you 
are all about. I think you are doing a pretty good job. I just 
want to make sure that as we give treatment, we have a good 
idea as to whether some of the people who have been abused are 
afforded the protection.
    In other words, we are for the treatment so we minimize 
future abuse. But, the other side of the equation is, we 
obviously have to separate, and I am not a lawyer, but there 
are ways that we try to separate, through a variety of court 
orders. I just wonder whether that side of the equation, to 
your mind, is working as well as it should?
    Mr. Quander. It is working. And it is improving. One of the 
things that we are looking at is essentially a global 
positioning system. We are going to use it in our sex offense 
branch and in domestic violence.
    So if there is a court order that says that husband, you 
have to stay away from a particular location, we don't have to 
argue in court whether or not he was there or not. Once we put 
that bracelet on an individual, it will show automatically 
whether he went into a particular radius. There is no dispute. 
We can go right back into court and the court, if we present 
sufficient evidence, will hold him in contempt or use some 
other sanction as appropriate.
    So we are using the technologies that are available, plus 
our enhanced supervision to make sure that we adhere to the 
rules, that we give good treatment, and that people know that 
we are serious about maintaining order, that we have to cut out 
domestic violence, because it is a gateway to other crimes and 
other assaults. So that is why it is important for us to flip 
it as quickly as we can.
    Mr. Frelinghuysen. Thank you.
    Mr. Fattah.

                           USE OF TECHNOLOGY

    Mr. Fattah. Thank you very much. I know that the global 
positioning system and the bracelet issue is not your only use 
of technology in terms of supervision. Maybe you want to share 
with the Committee the way you utilize technology in terms of 
the general population that you supervise.
    Mr. Quander. One of the other uses that we have is through 
the electronic monitoring program. And that allows us to 
essentially place curfews on individuals. It allows us to track 
individuals, and we also use it as a sanction. I was in court 
recently in a probation revocation hearing where a judge was 
actually complimenting one of the CSOs, probation and parole 
officers, because she had used electronic monitoring and other 
means as a sanction to sort of bring someone back into the 
fold, because the probation officer had filed a request for a 
revocation because the individual was back violating the 
conditions.
    But, because of the graduated sanctions, including 
electronic monitoring, we were able to get the individual's 
attention. Sometimes that is what you need to do, let them know 
that we are serious. And he came back in. So it works very 
well.
    The Pretrial Services Agency uses it extensively, and as I 
mentioned in my opening remarks, because of the closure of 
Center Number 4, they have had to rely upon it even more. So 
with the global positioning satellite that we will have up and 
running this fiscal year, and the electronic monitoring that we 
are doing, plus the drug testing that we are doing as well, we 
are using whatever electronic and technological advances there 
are so that we can protect the public.

                            SUBSTANCE ABUSE

    Mr. Fattah. Well, let me just make the Committee aware that 
I think the recidivism rate, the rearrest and conviction rate 
here in the District is lower than I think you would find in 
any major city in the country. You have done an extraordinary 
job in that regard.
    The National Institute of Justice has done a survey, and 
showed that at least in my home town, Philadelphia, that a vast 
majority of crime was driven through drug-related issues. The 
use of drugs, being addicted to drugs, the need to get money 
for drugs, whether it was breaking in cars or homes or, I mean, 
just the vast majority of crime that affected people on a day-
to-day level.
    The National Institute said that in Philadelphia it was 
approaching 90 percent. What percent of the population that you 
are supervising have had drug issues in their background or in 
their present circumstances?
    Mr. Quander. Our information reveals that it is 
approximately 70 to 75 percent of the individuals that we 
supervise have a substance abuse history.
    Mr. Fattah. That would include the 15,000 offender 
population, and those who are in your pretrial program?
    Mr. Quander. Yes. Actually I think the numbers are 70 
percent for the offender population, probation and parole; and 
75 percent of the pretrial or the defendant population.
    Mr. Fattah. And I assume that, it runs the gamut, from 
cocaine to other types of drugs. But the treatment initiatives 
that you have embarked on, their success ratio 1 year after, 
which I guess is the normal measurement, what are you testing 
and what are the reviews showing?
    Mr. Quander. Actually, a study was done by an organization 
with the University of Maryland in May of 2002 that indicated 
that individuals who have gone through the Assessment and 
Orientation Center, there was a 74 percent reduction in the 
arrest rate 1 year after completing the program, which is a 
phenomenal number. It really has an impact.
    The key to that is the individuals going into that program 
are the core 30 percent of the population, which have--has a 
substantial history of criminal involvement and substance 
abuse. That is that core group that is committing most of the 
crime. And what we have done is--the research has indicated we 
should target that population, provide them with the services, 
and then the aftercare component, that is where we get the real 
biggest bang for the buck, by targeting in on that population. 
And that is what we have done.
    That is where we have seen the most increase.

                         FAITH-BASED INITIATIVE

    Mr. Fattah. You won an award for a $2 million faith-based 
initiative here in the District through the Department of 
Justice?
    Mr. Quander. Yes.
    Mr. Fattah. Can you just talk a little bit about the work 
that is being done with the various denominations and their 
interaction with your population, your offender population?
    Mr. Quander. Yes. The District government was awarded $2 
million. And we have taken the lead in putting together a 
program that allows us to tap into the faith-based community 
that is here in the District of Columbia. And as a result of 
that, we have been able to sign up 25 member faith institutions 
which cross the gamut as far as religious institutions.
    And we were able to match, at least right now, at least 80 
offenders with mentors and churches. As you know, religious 
institutions have a wealth of programs. There are clothing 
ministries, their job ministry, there are all sorts of 
ministries. And we have been able to tap into that. And as a 
result, it has allowed us to give additional support and 
accountability to the offenders.
    The offenders have more of a connection with the community. 
And the thinking is, the more connection that you have, the 
more support that you have, the more mentors that you have, the 
less likely you are to go out and commit a new crime. And it is 
new. We just celebrated our first anniversary. We don't have a 
lot of data yet, but we do have anecdotal data which indicates 
that it is working. We are increasing the number of faith 
institutions that want to participate. And there is a pretty 
serious series of training to participate in the program.
    Mr. Fattah. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Fattah.
    Dr. Weldon.

                           PRISON FELLOWSHIP

    Dr. Weldon. Thank you, Mr. Chairman. And let me join with 
Mr. Fattah in welcoming you to the chair. And as I said, I am 
looking forward to working with you.
    I consider Washington, D.C. to be America's city. And even 
though my District is down in Florida, I certainly want to be 
able to do what I can to try to make Washington, D.C. a model 
city in all areas. And this certainly, the work that you do is 
very, very important.
    I want to just know, down the line of questioning regarding 
the faith-based thing. I understand Chuck Colson operates--the 
former Nixon administration official--a ministry called Prison 
Fellowship. Is he involved at all with some of the work that 
you are doing through the faith-based initiative? I know that 
he has a program called Angel Tree, where around Christmas time 
they try to get people to buy gifts for people who are 
incarcerated. And they come to my church in Florida every 
Christmas time. Are they involved at all?
    Mr. Quander. They are not involved in the formal program 
that we have with the faith initiative. But we do have an 
affiliation, as far as with the Angel Tree program. But not 
with the actual mentoring program that we have.

                         CHURCH OF SCIENTOLOGY

    Dr. Weldon. I was looking at some of your material. And I 
noticed the Church of Scientology is one of the churches 
involved. I have seen press reports over the years about civil 
actions that that church has been involved with in terms of the 
IRS going after their tax deduction status, and some parents of 
young people who have been involved with the church claiming it 
was cult-like.
    What has your experience been with them in terms of the 
work that you are doing?
    Mr. Quander. Let me try to answer the question this way, if 
I can. When member institutions indicate that they want to 
participate with us, there is a screening process, and then 
there is a training regimen that is undertaken. It covers a 
period of time that the individuals have to go through to show 
their commitment and to learn what it is that is involved, as 
far as mentoring and dealing with the offender population.
    We have quality assurance staff on board that actually will 
monitor and make sure that all of the rules and the regulations 
that we have established are being complied with. That is being 
done as far as the Church of Scientology, or the Baptists, or 
the Episcopals or the Archdiocese of Washington, D.C.
    Dr. Weldon. So your experience has been good so far with 
them?
    Mr. Quander. Yes.

                             CASELOAD RATIO

    Dr. Weldon. You mentioned in your testimony your target 
caseload per worker is 50 offenders, I think in the parole 
program; is that right?
    Mr. Quander. Right. On the probation and parole side, it is 
50 to 1 in our general population.
    Dr. Weldon. Is that a national standard that is 
recommended?
    Mr. Quander. It is a goal that is there. Not many 
jurisdictions are achieving that goal.
    Dr. Weldon. How would you compare Washington in that 
regard? Would you consider your work to be better than----
    Mr. Quander. We are better than most.
    Dr. Weldon [continuing]. Most jurisdictions?
    Mr. Quander. There was a recent article, I think in a paper 
that I read out of Annapolis, Maryland, that was dealing with 
the issue of parole, supervision and probation. And I believe 
their caseloads were in the area of 111 to 1.
    So we are right now at 56 to 1. We think with the 
appropriation in 2003, we will be at 50 to 1 for the general 
population, which allows us to do a lot of the things that we 
are doing.
    When we have an individual, for example, who is on maximum 
supervision, that individual has to be seen eight times by his 
CSO.
    Dr. Weldon. Per month?
    Mr. Quander. Per month; four times in the office, four 
times in the community. So we are out making sure we are doing 
the home visits and we are going to places of employment, we 
are talking to family members. Because oftentimes, family 
members, if you can establish that bond, will pick up the phone 
and say, hey, you need to get Paul in, because Paul is sliding 
down the slope. So we can get people in and we can try to work 
with them.
    Our goal is to try to keep people in the community as long 
as we can do it safely. But if not, we will violate them or ask 
that they be violated.
    Dr. Weldon. I would assume that that is very critical in 
terms of the recidivism issues that we are talking about?
    Mr. Quander. It is key.
    Dr. Weldon. And basically, public safety, maintaining 
public safety?
    Mr. Quander. Absolutely.
    Dr. Weldon. Well, thank you very much, Mr. Quander. I 
appreciate the work that you do for the city, and I yield back, 
Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Dr. Weldon. Mr. Culberson 
from Texas, a new Member of the Committee. Thank you very much 
for being here.
    Mr. Culberson. Thank you, Mr. Chairman. I have another 
committee meeting going on. I don't have any questions at this 
time. Thank you.

                                TRAINING

    Mr. Frelinghuysen. Well, I have quite a few questions. I 
spent 11 years in county government, so it is also good to know 
that New Jersey and Pennsylvania are joined at the hip here. I 
have an appreciation for the type of work probation officers 
and parole officers do.
    Can you tell me a little bit about what you do for those 
individuals in terms of their training? Some of the individuals 
you are working with here are at times extremely dangerous. 
Even though they have been released to the community, they 
obviously have been involved in criminal acts. I just wonder 
what you are doing relative to the training aspect, 
appreciating the fact that--to follow up on many of these 
individuals, it does involve the Metropolitan Police 
Department.
    But I would like to know more about the training and how 
you equip the men and women who have these specific roles to 
follow relative to probation and parole.
    Mr. Quander. We have a training academy that all of our 
CSOs have to participate in and successfully complete and 
graduate.
    That training academy covers a 7-week period of instruction 
on supervision and control and monitoring. Everything from how 
do you talk to an individual, how do you investigate and ask 
questions, all of the way to how do you pull information out so 
that you can get the information that you need to sort of 
develop a treatment plan.
    How do you know when an individual is being less than 
honest with you, or family members are being less than honest 
with you? As I indicated, we require our workers to go out to 
the homes and to visit, right to the door, to see what the home 
life is like, so we can have the best information so that we 
can provide it to the court or to the U.S. Parole Commission.
    Our officers are not armed. What we do sometimes is we go 
in teams. Sometimes we go with members of the Metropolitan 
Police Department. And we use the skills that we have. 
Fortunately, since I have been in place, and I think throughout 
the history of the Agency, we have not suffered any violent 
attacks against our employees. We are fortunate. We are 
vigilant.
    I do go out with the CSOs. We pick them randomly just so 
that I can get a feel and an unvarnished view of exactly what 
they do day in and day out so that I can have an appreciation 
for that. The staff also has access to a safety committee. They 
also have access to me and the top members of our staff so that 
they can raise with us any issues of security that they may 
have.
    But, sometimes they are the best judge of what is out there 
and what is best for their safety.
    Mr. Frelinghuysen. Thank you. I see Mr. Doolittle has 
joined me. Let me also recognize Eleanor Holmes Norton, a 
fantastic representative, Congresswoman from the District of 
Columbia. Thank you for being here with us today.
    Mr. Doolittle.
    Mr. Doolittle. Thank you, Mr. Chairman. I apologize for 
arriving late. At this point, I don't have questions. But I 
look forward to listening to the testimony that comes.
    Mr. Frelinghuysen. Mr. Fattah, do you have any further 
questions?

                        OFFENDER RELEASE PROCESS

    Mr. Fattah. Thank you, Mr. Chairman. Let me just ask one. 
Hypothetically I am an offender. I am being released from 
incarceration. Can you walk the Committee through how the 
Agency is engaged from the outset with an offender?
    Mr. Quander. Certainly. If you are an offender who is being 
released from incarceration, you are being released from the 
Bureau of Prisons, and we have a relationship with the Bureau 
of Prisons. The Bureau of Prisons essentially releases 
approximately 50 percent of the population into a halfway 
house.
    If you go that route, through a halfway house, you will be 
placed in the halfway house. We have staff members located in 
all of the halfway houses that we supply, which actually helps 
with the transition. Actually, even before you get to the 
halfway house, we receive the paperwork. We start developing a 
plan. Our goal is to make sure, and we see that the evidence 
shows that that first 30 to 90 days is key to an individual's 
successful completion of supervision or probation of any type.
    So what we try to do is concentrate in that first 30 days 
where you are going to be staying. Are there any substance 
abuse issues? Are there employment issues that we need to 
resolve? Family stability is going to be key.
    So we have staff in place at the halfway houses, as soon as 
you get out, that are working on that transition. Once you have 
left the halfway house, then it is automatic. You move into 
general supervision where your probation or parole officer 
knows you are coming. We have the case plan. There is an 
assessment that is already done. We know your risk level and we 
know what needs you have as far as that assessment, whether 
substance abuse.
    If you are reading on the 6th grade level, we need to get 
you in a literacy program. If English is not your first 
language, if are you not fluent in English, we need to get you 
in a program so you can learn the language so that your chances 
for employment and stability increase. So those things are 
done.
    On the other side, that other 50 percent that does not come 
through the halfway house because of Bureau of Prisons policy 
or their regulations, those individuals come directly into the 
community. And we have a much more difficult time in getting 
them assessed and placed quickly. We do it. But it is a little 
more work on our part.
    They don't have the benefit of going through the halfway 
house. And the halfway house is key. Because it just provides a 
place where we can do all of the work we need to do in one 
location, where we have better control over the individual, 
because we can control when that individual comes and when that 
individual goes. And the community is better protected.
    Mr. Fattah. What if I am in a pretrial circumstance and, 
for whatever reason, the Court has decided that there should be 
some supervision. So this 8,000 group that you have got who 
have not been adjudicated yet?
    Mr. Quander. I think the average length of stay on that 
pretrial status is about 170 days. And the Pretrial Services 
Agency has again a graduated hierarchy for what type of 
supervision is needed.
    If you are an offender in which the court thinks you need 
the maximum amount of supervision, then they have a special 
unit that provides that type of supervision with a lower 
caseload, which may mean electronic monitoring, which will be 
phone calls to ensure that you are where you should be.
    And other sorts of monitoring tools to make sure that you 
are exactly where you are. So they provide the same type or a 
similar type of strategy to approaching supervision and making 
sure that individuals are where they are and not out committing 
crimes.
    Mr. Fattah. Thank you, Mr. Chairman.

                              PARTNERSHIPS

    Mr. Frelinghuysen. Much of the success of your agency 
depends on your relations with the Federal Bureau of Prisons, 
the U.S. Parole Commission, and the D.C. Courts. Do you have 
partnerships with those agencies?
    Mr. Quander. We do.
    Mr. Frelinghuysen. How would you judge those partnerships?
    Mr. Quander. Most of the partnerships are very good.
    Mr. Frelinghuysen. Are they committing enough of their own 
resources towards the goals that you have, the responsibilities 
that you have?
    Mr. Quander. The answer--if I can start with metropolitan.
    Mr. Frelinghuysen. You are successful. I think the 
Committee would like to find out to what degree they are 
helping to make you successful, because we have ways to help, 
so we are interested in knowing this.
    Mr. Quander. To a large degree, we are very successful. And 
a lot of that success is dependent on the partners and the 
partnerships that we have. As I indicated, 50 percent of the 
offenders returning to the District come through halfway 
houses.
    I think we can be more successful if a greater portion went 
through a halfway house. We can provide services in a more 
concise and meaningful way if they came through that halfway 
house.
    As far as the Metropolitan Police Department, we have a 
very good relationship with them.
    Mr. Frelinghuysen. But it is only the 50 percent that goes 
through halfway houses, is that correct?
    Mr. Quander. Yes.
    Mr. Frelinghuysen. What happens to the other 50 percent? Is 
there something that is preventing them from utilizing it other 
than the lack of halfway houses? Is there something going on 
with the Bureau of Prisons?
    Mr. Quander. There are certain policies.

                       BUREAU OF PRISONS POLICIES

    Mr. Frelinghuysen. Maybe you could talk about those 
policies for a moment which are not assisting your objectives. 
Are there some policies that are hindering your work?
    Mr. Quander. There are some policies and practices that the 
Bureau has in place that they must follow that deal with the 
individuals who are being placed in the community.
    For example, if an individual has a history of abscondence 
or escape from a halfway house, they have been in a halfway 
house before, they have absconded, I believe it is the Bureau's 
policy not to place that individual back in a halfway house.
    There are certain classifications of offenders, for 
example, sex offenders, that the Bureau either, because of 
policy or either because of community concerns or contracts 
that they have with the various communities, are hesitant to 
place certain types of offenders in the halfway houses.
    So there are a number of constraints. The Bureau of Prisons 
would be more appropriate, I would think, to respond, because 
they know their policies, they know what governs and what 
drives them.
    And I essentially know the results that we are faced with. 
We have a good cooperative relationship, and we are continuing 
to work with it. But, as I indicated, I think it would enhance 
our ability to do the job that we have to do if there were a 
greater number of individuals returning to the District that 
went through a halfway house.
    Mr. Frelinghuysen. Mr. Doolittle, any comments or 
questions?
    Mr. Doolittle. Well, just to clarify then for my 
understanding. Apparently there are certain classes of 
individuals who commit those forceful sex felonies that are 
just held in prison, they are not released on parole or through 
a halfway house; is that right?
    Mr. Quander. It is my understanding that the vast majority 
do not go through a halfway house. It is that type of offender 
that I would like to have in a halfway house for that 
transitional period.
    Mr. Doolittle. When they eventually come out of prison, you 
mean?
    Mr. Quander. They are coming out. I want that ability to 
have that time slot that I can work with them so that they can 
know the rules, so that they know the regulations, so that they 
know what we are doing. It is important for individuals to know 
that we have a partnership with the Metropolitan Police 
Department, that we come in and knock on your door, that we 
check on your place of employment.
    What I want to do is make sure that people know what is out 
there so they won't do it. If they don't know, sometimes they 
think that they can slide off. We want to make sure that we 
have everyone clearly notified as to what the rules and 
regulations are and that we are here to support them.
    But, at the same time, we are going to be very vigilant and 
we are going to hold them accountable.
    Mr. Doolittle. We have registration for all sex offenders, 
I believe they are registered in California. It is a lifetime 
registration requirement. Does D.C. have something like that?
    Mr. Quander. Yes. There is a sex offender registry that we 
maintain, and that we are up and running on.
    Mr. Doolittle. Good. Thank you.

                             HALFWAY HOUSES

    Mr. Frelinghuysen. I just need a little bit of a 
clarification here. So people are getting out and some are 
lucky enough to go to a halfway house. I would like to know 
where they are. I assume like in many cities and states, there 
are not enough. Are some located in this city and some outside 
in other jurisdictions? But you are basically saying that there 
are a lot of people going back into the community that don't 
check into any halfway houses. Is that what you are saying?
    Mr. Quander. Yes.
    Mr. Frelinghuysen. Well, that would be disturbing, 
especially if the make-up of those individuals--as Mr. 
Doolittle stated in his remarks--did certain crimes that are 
particularly heinous.
    So I need to know whether that is accurate. Is it that they 
are returning to the community without checking in to a halfway 
house? I'll go to Mr. Fattah.
    Mr. Fattah. Let me try to clarify this for the Committee's 
benefit, and we can maybe talk at some point about it from a 
policy standpoint. You have got a number of issues. One is, 
when you go to put a halfway house in Mr. Doolittle's 
neighborhood, he and his civic association community say we 
don't want it.
    Then the people from the administration sit down with the 
community and say this is going to work and so forth and so on. 
The community says okay, you can do it, but no sex offenders. 
And so you get a commitment. You have a halfway house. You got 
a deal with the neighborhood. And so your halfway house is 
running. You have got community support.
    So part of the difficulty in putting certain individuals 
into the halfway house is the kind of not-in-my-neighborhood 
syndrome, in terms of location of halfway houses. The halfway 
house program works well for parole purposes, because it gives 
them a chance to work with these offenders as they are 
reentering the community.
    And the 50 percent that don't go to the halfway house, it 
is--in making the connection with your parole officer, it gets 
to be more difficult because they don't have you for a period 
of time in which they can interact with you. It would seem to 
me that there still should be some larger group of the 
population that would not offend neighbors' sensibilities in 
terms of being able to be located in halfway houses. There may 
be other ways, including having some of your employees at the 
prison location prior to release, having an interface with 
these inmates so that there is some connection. So there may be 
some other ways around it, but I don't think that you want to 
lose support in the communities for halfway houses by forcibly 
putting in a population that the community would be highly 
suspect of.
    Mr. Frelinghuysen. I agree with you. I know back in my home 
state, the last thing that people want is a sex offender in the 
neighborhoods, much less any type of a halfway house, even if 
it is for young juveniles, men and women.
    I think Mr. Fattah has made some excellent points. There 
are so many points along the road here with the Bureau of 
Prisons where in fact, the involvement of your people could be 
more beneficial. Is there some reluctance on the part of some 
bureaucrat? Is there some policy that stands in the way of 
helping you achieve your mission?
    I think you are doing a darn good job. We are all on the 
same side here. We want to help you.
    Mr. Quander. Let me respond this way: We are doing some 
things now that extend beyond what is normally done in 
probation and parole. Now, we do have relationships with the 
Bureau of Prisons where we don't wait until the individual 
comes. We actually sometimes will go down to the various 
facilities.
    There is a facility in North Carolina, Rivers, that is a 
contract Bureau of Facility in which there are about a thousand 
men who are D.C. Offenders. We are going down there next week 
to establish a faith-based program, and to continue our works 
in our traditional intervention program.
    So we are not waiting until they actually get to a halfway 
house, or they don't come to the halfway house at all, we are 
actually going to the institution so we can start verifying 
that information. We will get those family contacts, we tell 
them where they need to report so we can gather them.
    The Bureau of Prisons, their policies essentially exclude, 
for the most part, from going into halfway houses, individuals 
who have committed arson, sex offenses, murders and other 
serious violent crimes and escapes.
    And we are working with them so that we can hopefully get 
some of those individuals into the appropriate community 
placement, because that is the population that we need to work 
with. We need--we are asking for 120 days. That would be 
optimum for us to work with individuals, get them up and going 
so that we can provide the type of assistance that we need to 
enhance the public safety.
    Mr. Frelinghuysen. Mr. Doolittle, do you want to add 
anything to that discussion?
    Mr. Doolittle. Maybe just to ask for information. How many 
halfway houses are there within the District of Columbia?
    Mr. Quander. There are seven halfway houses that are 
operated by the Bureau of Prisons. The Bureau of Prisons is 
responsible for operating all of the halfway houses, we don't.
    Mr. Doolittle. So anything that is a halfway house is 
operated by them?
    Mr. Quander. Yes. But we have staff to help and assist with 
the transition.
    Mr. Doolittle. Well, I know, it is a problem that in the 
City of Sacramento it was revealed that they had 90 halfway 
houses in the downtown area. It is hard to believe. But that 
was a source of a lot of extra criminal problems associated 
with that. And one of the reasons you know the neighborhoods 
obviously don't want these is the--the fear of crime being 
associated with them.
    And if you are going to--it is obviously a social problem 
that needs to be addressed. We have, for those violent sex 
offenders, we have figured out the law in such a way they 
essentially serve almost a life sentence, which removes a lot 
of them from the streets.
    And I don't know--I guess it is that way here, isn't it 
pretty much? How does that work?
    Mr. Quander. No. There are different offenses and different 
ranges of sentencing.
    Mr. Doolittle. Is it D.C.'s own law or is it the Federal 
law that governs?
    Mr. Quander. District of Columbia law.

                          SENTENCING STRUCTURE

    Mr. Doolittle. Do you, for example on forcible sex 
felonies, allow for concurrent sentencing?
    Mr. Quander. There are concurrent sentences. That is an 
appropriate sentence. And it is handed out. But I believe the 
pattern more likely than not is for consecutive sentences if 
there are multiple counts. But it is up to the discretion of 
the sentencing authorities, the Superior Court judge.
    Mr. Doolittle. But they have tended to take a tougher line?
    Mr. Quander. It is hard for me to say. And I don't have any 
data in front of me.
    Mr. Doolittle. One of things you might just take a look at 
is California's experience. We passed a law mandating full 
separate and consecutive terms for multiple offenses for 
enforceable sex offenders. And we found that I think the 
general statistics are quite high for crimes being committed by 
recidivists.
    But for enforceable sex felonies like two-thirds of 
forcible sex felonies are committed by recidivists. So if you 
can isolate that group and lock them away forever, you will see 
a dramatic reduction.
    Mr. Quander. Well, there is, under the sentencing structure 
for first degree sex offenses, it can be up to life, and 
actually can be up to life without the possibility of parole. 
So the sentences have--there is a sufficient sanction that is 
there. And the court, in appropriate cases, will apply that 
sanction.
    Mr. Doolittle. Well, it is not truly a life sentence. Well, 
maybe it is. We have changed the law since three strikes you 
are out and all of that. But the idea was that, you know, if 
you have committed three or four rapes, for example, that is 
going to be 6 plus 6 plus 6 plus 6 and you have served now 
almost all of it, it is now served in prison, it used to be 
there, was so much time off for good time. But, they have 
really tightened up on that. We really have seen some positive 
results, I think, because of those kinds of laws.
    So I was curious to see how it worked here. It sounds like 
here they are at least tougher, even if you don't ban 
concurrent sentencing.
    Mr. Quander. The sentencing has changed in that they have 
gone to a truth in sentencing, whereby instead of sentencings 
being like a third, 3 to 9, or 12, now you are actually serving 
at least 85 percent of your sentence.
    Mr. Doolittle. I think that is a positive development, 
especially for these violent crimes that tend to be committed 
by repeat offenders. Thank you.

                          RE-ENTRY APPROACHES

    Mr. Fattah. I appreciate the comments of my colleagues. Sex 
offenders are a very small part of this overall population that 
you are dealing with. I don't want us to miss the point. You 
have got thousands of offenders who are going to reenter these 
neighborhoods. The question is, what is the best transition, 
and how to keep them from reoffending.
    California, as my colleague has mentioned, has got a number 
of innovative approaches. One is in the city of Oakland, where 
when offenders are being released from prison, they had--the 
department that you run there--arranges an individual meeting 
with the offender, the mayor, the police commissioner, and a 
number of other providers of services in Oakland. They are 
given what I guess most of us would refer to as the carrot and 
stick approach, in which they are offered assistance in terms 
of job training, job placement, and all kinds of other 
assistance. And they are also informed by their parole officer 
that the police department is going to be paying particular 
attention to them.
    It is actually a very innovative approach. It doesn't have 
a long time line on it in terms of data, but it has been 
running for, I guess, a year or so now. You might want to 
inquire as to your counterpart there as to how that is going.
    Mr. Quander. Actually we are doing that now. We have a mass 
orientation whereby anyone that is released on probation or 
parole, we gather them together. We either meet at a church or 
at a metropolitan police district. We attend, members of the 
Metropolitan Police Department, the U.S. Attorney's Office has 
joined us recently. It is the same approach. We go over the 
regulations. We tell them what they can expect and how we are 
going to be coming and we are going to be checking on them. We 
are going to be vigilant.
    Mr. Fattah. I am not sure how you get better numbers than 
you have just mentioned. It is just something that is of note. 
And, you know, may have some utility. I am glad that you are 
following through on it, because I think face to face 
communication is always helpful with people.
    Mr. Chairman, I am concluded.

                             HALFWAY HOUSES

    Mr. Frelinghuysen. All right. I will conclude in a minute 
or two. I just wanted a little bit of clarification. There was 
a recent shutdown of a halfway house in the city, right?
    Mr. Quander. That is correct.
    Mr. Frelinghuysen. To some extent, this is why you are 
asking for $224,000 for additional electronic monitoring.
    Would you be good enough to provide the Committee with the 
information on where we stand relative to halfway houses, 
either in the District or outside the District?
    Mr. Quander. Yes.
    [The information appears on page 27.]

                              PARTNERSHIPS

    Mr. Frelinghuysen. I would also like to know more about 
partnerships, and this will be in some of the questions we will 
submit to you, which we hope you can respond to. Mr. Fattah has 
a lot of experience in this area, and his knowledge is 
invaluable. We are going to work together to see whether 
Federal policies, whether the Federal jurisdictions and 
agencies are doing all that they should be for you.
    Can you just assure the Committee that the District 
agencies--all the District agencies--are working together to 
your satisfaction?
    Mr. Quander. They are. As I indicated, the Metropolitan 
Police Department is a partner with us. Their patrol officers, 
their lieutenants, I have met with each of the assistant 
directors for the different branches. We are working on things 
whereby their officers and their lieutenants will be in our 
buildings. We are going to be in some of their buildings so 
that we have better access to the offender population.
    When we do these mass orientations, we tell the offenders 
that in fact the Metropolitan Police Department, they have 
their photograph, they have their nicknames, they have all of 
that information, not that we can harass, but just so that 
everyone knows where we are. It is a level playing field.
    So we have that leadership. We also have that partnership 
as far as our Assessment and Orientation Center at Karrick 
Hall, which we have been slowly trying to get that on board. We 
are ready to go. Congress has authorized us to use that 
facility. You have appropriated it.

                        KARRICK HALL RENOVATIONS

    Mr. Frelinghuysen. Through Mr. Knollenberg's good work, you 
got $13 million. Is that renovation work presently in progress?
    Mr. Quander. We are waiting on the District government to 
complete. I am not--we are waiting on the District government 
to fulfill some of its obligations. So we are not----
    Mr. Frelinghuysen. Still waiting on a few permits?
    Mr. Quander. I am not sure exactly what. But we are not 
where we are supposed to be just yet.
    Mr. Frelinghuysen. All right.
    Mr. Doolittle.

                             HALFWAY HOUSES

    Mr. Doolittle. One last clarification. What is the average 
size, would you say, of the population of the halfway houses?
    Mr. Quander. It varies. There is one large halfway house, 
Hope Village. And their numbers can go probably as high as 400, 
maybe even more than that. Then there are some smaller halfway 
houses, some that cater especially to the female population, 
which is maybe 19.
    So it varies. It runs the gamut. In the larger halfway 
houses, we have a significant amount of staff. In the smaller 
halfway houses, we may have a staff of one or two that are 
present to deal with some of the issues that are there.
    Mr. Doolittle. Thanks.
    Mr. Fattah. Mr. Chairman, I just thank you for conducting 
this hearing. And we will follow up on a number of those 
issues. And I am encouraged that the District will be finishing 
up the issues related to Karrick Hall and we will be able to go 
forward there. Thank you.
    Mr. Frelinghuysen. Agreed. I think we will submit some 
questions, if you can get back to us on a timely basis.
    Mr. Quander. Certainly will.
    Mr. Frelinghuysen. This concludes this hearing. Thank you 
very much.
    Mr. Quander. Thank you.
    [GRAPHIC] [TIFF OMITTED] T7731A.001
    
    [GRAPHIC] [TIFF OMITTED] T7731A.002
    
    [GRAPHIC] [TIFF OMITTED] T7731A.003
    
    [GRAPHIC] [TIFF OMITTED] T7731A.004
    
    [GRAPHIC] [TIFF OMITTED] T7731A.005
    
    [GRAPHIC] [TIFF OMITTED] T7731A.006
    
    [GRAPHIC] [TIFF OMITTED] T7731A.007
    
    [GRAPHIC] [TIFF OMITTED] T7731A.008
    
    [GRAPHIC] [TIFF OMITTED] T7731A.009
    
    [GRAPHIC] [TIFF OMITTED] T7731A.010
    
    [GRAPHIC] [TIFF OMITTED] T7731A.011
    
    [GRAPHIC] [TIFF OMITTED] T7731A.012
    
    [GRAPHIC] [TIFF OMITTED] T7731A.013
    
    [GRAPHIC] [TIFF OMITTED] T7731A.014
    
    [GRAPHIC] [TIFF OMITTED] T7731A.015
    
    [GRAPHIC] [TIFF OMITTED] T7731A.016
    
    [GRAPHIC] [TIFF OMITTED] T7731A.017
    
    [GRAPHIC] [TIFF OMITTED] T7731A.018
    
    [GRAPHIC] [TIFF OMITTED] T7731A.019
    
    [GRAPHIC] [TIFF OMITTED] T7731A.020
    
    [GRAPHIC] [TIFF OMITTED] T7731A.021
    
    [GRAPHIC] [TIFF OMITTED] T7731A.022
    
    [GRAPHIC] [TIFF OMITTED] T7731A.023
    
    [GRAPHIC] [TIFF OMITTED] T7731A.024
    
    [GRAPHIC] [TIFF OMITTED] T7731A.025
    
    [GRAPHIC] [TIFF OMITTED] T7731A.026
    
    [GRAPHIC] [TIFF OMITTED] T7731A.027
    
    [GRAPHIC] [TIFF OMITTED] T7731A.028
    
    [GRAPHIC] [TIFF OMITTED] T7731A.029
    
    [GRAPHIC] [TIFF OMITTED] T7731A.030
    
    [GRAPHIC] [TIFF OMITTED] T7731A.031
    
    [GRAPHIC] [TIFF OMITTED] T7731A.032
    
    [GRAPHIC] [TIFF OMITTED] T7731A.033
    
    [GRAPHIC] [TIFF OMITTED] T7731A.034
    
    [GRAPHIC] [TIFF OMITTED] T7731A.035
    
    [GRAPHIC] [TIFF OMITTED] T7731A.036
    
    [GRAPHIC] [TIFF OMITTED] T7731A.037
    
    [GRAPHIC] [TIFF OMITTED] T7731A.038
    
    [GRAPHIC] [TIFF OMITTED] T7731A.039
    
    [GRAPHIC] [TIFF OMITTED] T7731A.040
    
    [GRAPHIC] [TIFF OMITTED] T7731A.041
    
    [GRAPHIC] [TIFF OMITTED] T7731A.042
    
    [GRAPHIC] [TIFF OMITTED] T7731A.043
    
    [GRAPHIC] [TIFF OMITTED] T7731A.044
    
    [GRAPHIC] [TIFF OMITTED] T7731A.045
    
    [GRAPHIC] [TIFF OMITTED] T7731A.046
    
    [GRAPHIC] [TIFF OMITTED] T7731A.047
    
    [GRAPHIC] [TIFF OMITTED] T7731A.048
    
    [GRAPHIC] [TIFF OMITTED] T7731A.049
    
    [GRAPHIC] [TIFF OMITTED] T7731A.050
    
    [GRAPHIC] [TIFF OMITTED] T7731A.051
    
    [GRAPHIC] [TIFF OMITTED] T7731A.052
    
    [GRAPHIC] [TIFF OMITTED] T7731A.053
    
    [GRAPHIC] [TIFF OMITTED] T7731A.054
    
    [GRAPHIC] [TIFF OMITTED] T7731A.055
    
    [GRAPHIC] [TIFF OMITTED] T7731A.056
    
                                         Wednesday, April 30, 2003.

  DISTRICT OF COLUMBIA COURTS, DEFENDER SERVICES, AND PUBLIC DEFENDER 
                  SERVICE FOR THE DISTRICT OF COLUMBIA

                               WITNESSES

ANNICE M. WAGNER, CHAIRPERSON, JOINT COMMITTEE ON JUDICIAL 
    ADMINISTRATION AND CHIEF JUDGE, DISTRICT OF COLUMBIA COURT OF 
    APPEALS
RUFUS G. KING, III, CHIEF JUDGE, SUPREIOR COURT OF THE DISTRICT OF 
    COLUMBIA
LEE F. SATTERFIELD, PRESIDING JUDGE, FAMILY COURT, SUPERIOR COURT OF 
    THE DISTRICT OF COLUMBIA
RONALD S. SULLIVAN, JR., DIRECTOR, PUBLIC DEFENDER SERVICE FOR THE 
    DISTRICT OF COLUMBIA

                            Opening Remarks

    Mr. Frelinghuysen [presiding]. The meeting will come to 
order.
    Before I begin, I want to thank our host who is not here, 
Chairman Henry Bonilla of Texas, for us allowing us to use his 
hearing room. This is the Agriculture subcommittee hearing 
room.
    I would like to welcome everybody here this afternoon. 
Joining me, to my left, is Chaka Fattah, the Ranking Minority 
Member of this subcommittee. We would anticipate that other 
members will be joining us as the time allows, but it is great 
to have the Ranking Minority Member here who has a wealth of 
experience, who has also been very helpful to me as we have 
conducted some public hearings, as well as some private 
briefings.
    We are receiving testimony today on the fiscal year 2004 
budget request for the District of Columbia Courts, Defender 
Services, and Public Defender Service for the District. Through 
the National Capital Revitalization Self-Government Improvement 
Act of 1997, the Federal government assumed financial 
responsibility of certain state-level functions, including the 
District court system and defender services. While the 
appropriation for Public Defender Services is provided through 
the Court Services and Offender Supervision Agency, they are 
here today testifying alongside the D.C. Courts because of the 
nature of their work.
    We look forward to opening statements and learning more 
about what each of you do and how you work together to better 
serve the citizens of this city. I know all members of 
Congress, certainly members of this committee have a keen 
interest about your work. So it is a special pleasure to 
welcome you here today and to be updated on what you are doing.
    I yield, if I may, to Mr. Fattah for any opening comments 
he may have.

                      Mr. Fattah's Opening Remarks

    Mr. Fattah. Thank you, Mr. Chairman, for convening this 
hearing. Moreover, thank you for the spirit in which you have 
embraced and engaged your new assignment. We have spent, I 
think, a considerable amount of time looking at some of the 
issues related to the District. I think even though progress 
has been made in the past under Chairman Knollenberg, I sense 
even more progress on behalf of the District's residents 
through your their leadership. I just want to thank you for the 
spirit in which these hearings and meetings have been taking 
place around District affairs.
    I have met with many of the panelists in years past and I 
have spent long hours reviewing some of these issues. Since 
this is the first time this year to see them, and I want to 
welcome them.
    And I would yield back my time.

                         Witness Introductions

    Mr. Frelinghuysen. Thank you very much.
    Today, we will hear testimony from Chief Judge Annice 
Wagner, Chairperson of the Joint Committee on Judicial 
Administration and Chief Judge of the District of Columbia 
Court of Appeals; Rufus King, Chief Judge of the Superior Court 
of the District of Columbia; and Ronald Sullivan, Director of 
the Public Defender Service for the District.
    Also at the table is Lee Satterfield, Presiding Judge of 
the District's Family Court. Judge Satterfield will not be 
presenting an opening statement, but he will be available to 
answer any questions that might be related to the Family Court. 
We hope that we will have an opportunity to hear from you as 
well.
    I understand there may be others here today that may be 
called upon to answer questions, but they are not seated at the 
table; some of those individuals behind you. We welcome all of 
you here this afternoon.
    Your entire statements will be entered in the record. So, I 
ask if you would be kind enough to highlight your statement for 
the committee.
    We will start with Chief Judge Wagner. Please proceed.

               Acknowledgement of Blondell Reynolds Brown

    Mr. Fattah. Mr. Chairman, before we proceed, I just want to 
acknowledge the presence of a local councilperson from my 
district in Philadelphia, Blondell Reynolds Brown, who is to 
spend some time here this afternoon. And I do want to 
acknowledge her presence. Thank you.
    Mr. Frelinghuysen. Thank you for being here.

                 Chief Judge Wagner's Opening Statement

    Judge Wagner. Good afternoon, Mr. Chairman, and Congressman 
Fattah.
    Thank you for inviting us to come to discuss the fiscal 
year 2004 budget request for the District of Columbia Courts. I 
am here as chairperson of the Joint Committee on Judicial 
Administration and chief judge of the D.C. Court of Appeals.
    With me is Chief Judge Rufus King III, who is the chief 
judge of the Superior Court, and Ms. Anne Wicks, our executive 
officer, is sitting behind me. She is the secretary of our 
joint committee as well. And of course, you have indicated 
Judge Satterfield.
    Unquestionably, we live in an environment that is new. We 
are facing new challenges to our nation, our nation's capital 
and to our court system. Whatever challenges we face, the fair 
and effective administration of justice remains crucial to our 
way of life in this country. The District of Columbia courts 
are committed to meeting these new challenges. We have been 
steadfast in our mission, which is to administer justice 
fairly, promptly and effectively.
    At the same time, we have been enhancing our security 
systems and emergency preparedness activities in order to 
protect all of the people who come into our court buildings on 
a daily basis and to ensure continuity of operations in this 
new environment.
    The courts are also committed to continue fiscal prudence 
and sound fiscal management. And we appreciate the support of 
this subcommittee that it has given us in making possible the 
achievements of our goals for this community.
    To support our mission and strategic goals in fiscal year 
2004, the D.C. courts are requesting approximately $200 million 
for court operations and capital improvements, and $44.7 
million for the defender services account.
    The breakdown of the operating budget for the court, the 
court system and the Court of Appeals is in your materials. 
There is something I should say at the outset, and that is that 
since we submitted the budget, there has been a change in our 
capital budget request. As you know, our capital requirements 
are significant because they include funding for projects that 
are critical to maintaining functional and safe courthouse 
facilities.
    The courts have been meeting with General Services 
Administration, which is the agency that is serving as program 
and project managers for the court's construction and 
renovation projects. As with any complex construction project, 
we are informed that approaches are refined as design and 
acquisition and construction plans change.
    Two points should be emphasized: that these changes, first 
of all, do not in any way delay the plans for the expansion of 
the Moultrie Building, the re-adaptation of the old courthouse 
for use by the D.C. Court of Appeals or the Family Court plans, 
which will be discussed later.
    These changes merely shift the timing of the capital needs 
requirements. The shift in timing of funding requirements has 
had no impact on the construction time line, and all capital 
projects remain on schedule at this time.
    We have revised our capital request for fiscal year 2004 to 
$52,889,000. The request we feel is fiscally responsible and is 
in recognition of the realities of the situation.
    Let me just highlight a few of our other budget priorities. 
Perhaps before I leave capital, I should say that we have a 
master space plan that will guide our direction for the next 
several years. This plan has been developed with the assistance 
of expert designers, urban planners, architects and engineers 
who understand court needs and they have assessed a shortfall 
in our space requirements, which is about, at this time, 48,000 
square feet for operations. But there is anticipated shortfall 
over the next decade of 134,000 square feet.
    Our master plan has four key components: renovation of the 
old courthouse for use by the jurisdiction's court of last 
resort, the D.C. Court of Appeals. This will free space in the 
Moultrie Building, which can then be made available for trial 
court operations as well as the Family Court. It also includes 
construction and an addition to the Moultrie Courthouse, a 
major portion of which will be developed as a separately 
accessible Family Court facility, and the future occupation of 
Building C, which is adjacent to the old courthouse.
    You know the historical significance of this building, and 
I need not mention it, and the architectural significance. It 
is a historic treasure that was commenced construction in 1831. 
It can be readapted, it can be used today for the functions for 
which it was originally intended.
    There are many other budget priorities, and I will mention 
them briefly. They are in my testimony. We, of course, must 
enhance public security. We have over 10,000 people in the 
Moultrie Building on a daily basis, according to reports, and 
in order to address the security issues, we are requesting some 
$6.5 million for that.
    Information technology is important, and a key component 
out of any court system, to achieve the court's goal of a case 
management system that provides accurate, reliable case data 
across every operating area, and of making available 
appropriate data for the judiciary, and also information for 
the District's child welfare and criminal justice communities, 
the court requests $4,163,347 in operating funds for the IT 
infrastructure.
    We are requesting $615,000 for strategic planning. We have 
undertaken a strategic plan that has been adopted by the court 
that will guide our direction for the next five years. We are 
working very hard to improve operations everywhere throughout 
the courthouse.
    And trial records in a court of record are key. If you do 
not have accurate trial records, you cannot have a good court 
of record. And so, we are asking for a sum to invest in court 
records, in equipment and digital recording capabilities that 
will address this.
    Also, we want to continue our strengthening of defender 
services, which is operated, really, in recent years, with--I 
do not want to say really more money than we needed, but it is 
money that carries over from year to year. And we are fast-
reaching the point where we need to get new money into that 
pot. And so, we are asking also for an increase for attorneys 
from the rate of $65 per hour to $90 per hour.
    Other than that, Mr. Chairman and Congressman Fattah, I 
will submit on the papers.
    I want to just say that our courts do enjoy a national 
reputation for excellence, and we are proud of our record in 
that regard. And adequate funding is necessary to continue in 
this vein.
    [The prepared statement of Chief Judge Wagner appears on 
pages 102 through 107.]
    Mr. Frelinghuysen. Thank you, Chief Judge.
    And the chair recognizes and welcomes Representative 
Cramer.
    Thank you for being with us.
    Judge King.

                  Chief Judge King's Opening Statement

    Judge King. Good afternoon, Chairman Frelinghuysen, 
Congressman Fattah, Congressman Cramer. I appreciate the 
opportunity to join Chief Judge Wagner in presenting the D.C. 
courts' 2004 budget request to the subcommittee and to review 
some of the Superior Court's accomplishments over the past 
year.
    At the outset let me thank all of the committee as a whole 
for your generosity with your time, and especially the time you 
took, Mr. Chairman, to visit the D.C. courts, as well as the 
committee's consideration in the necessary funding for a number 
of shared objectives. It is a pleasure to have such a positive 
working relationship.
    I want to underscore all that Chief Judge Wagner said about 
the court's needs, especially regarding capital. To function 
effectively, and especially to implement the Family Court Act 
in a manner consistent with its highest purposes, the court 
needs to have adequate facilities and a level of information 
technology that supports its efforts.
    I would like to review just a few of the accomplishments of 
the Superior Court over the past year before submitting for 
questions.
    On October 30, the Superior Court officially opened the 
first satellite Domestic Violence Intake Center in the nation. 
Located in Anacostia, the center allows domestic violence 
victims to petition for a temporary protection order via web 
camera to a judge in the courthouse, never leaving their own 
neighborhoods. The judge can then issue the order by fax.
    Criminal Division Presiding Judge Noel Kramer, working with 
prosecutors, police, defense attorneys, service providers and 
the Downtown Business Improvement District, spearheaded 
development of a community court for minor misdemeanors and 
traffic cases.
    This court established a forum in which the defendants 
charged with traffic cases and some quality-of-life crimes, 
like panhandling or possessing an open container of alcohol, 
are given appropriate diversion opportunities, such as alcohol 
education or an opportunity to obtain a driver's license, and 
community service sanctions, all on the first day in court.
    This approach has sharply reduced the need for police 
appearances in the courtroom, more efficiently used indigent 
defense resources, and resulted in many fewer continuances of 
cases.
    The court also established a community court on a pilot 
basis, working in consultation with the Metropolitan Police 
Department and the United States Attorney's Office. In this 
court, modeled after the Manhattan and Red Hook Community 
Courts in New York, Judge Kramer resolves misdemeanors arising 
in the 6th Police District, and shortly the 7th District will 
be added.
    After listening to community and civic leaders, the court, 
with the Department of Employment Services, the Pre-Trial 
Services Agency and others, has fashioned diversion 
opportunities that provide an accused with alternatives to a 
life of crime and drugs.
    In the family court, Judge Satterfield, working with court 
officials and stakeholders, has overseen the transfer of more 
than 3,000 neglect and abuse cases back to judges within that 
court.
    This established new rules, procedures and attorney 
practice standards, set up paternity panels for abuse and 
neglect cases, held numerous training sessions for judges and 
magistrate judges, and a cross-training session for judges, 
attorneys, social workers and others.
    We seek input from relevant stakeholders, opened the 
Mayor's Liaison Center to increase coordination of services to 
children and families, trained new judges, opened a help center 
for self-represented parties, and met all deadlines in 
reporting to Congress, as required under the act.
    We have begun implementing the policy of one family, one 
Family Court judge, and in a neglect case of one family member 
also handles cases involving other members of that family. And 
this is applied to most of the cases filed after June 2002.
    The conversion to an integrated justice information system 
that Judge Wagner mentioned in earlier testimony has advanced 
on schedule with the Family Court segment set to go live in 
September of this year.
    Mr. Chairman, Congressman Fattah, Congressman Cramer, thank 
you for the opportunity to testify before you today. I am 
joined by my colleague, Judge Satterfield, as you know, and we 
would both be pleased to answer any questions.
    Mr. Frelinghuysen. Thank you, Judge King.
    The last witness to provide testimony is Ronald Sullivan.
    Mr. Sullivan, you may proceed. Thank you.

                    Mr. Sullivan's Opening Statement

    Mr. Sullivan. Thank you.
    Good afternoon, Mr. Chairman and members of the 
subcommittee. On behalf of the Public Defender's Service for 
the District of Columbia, or PDS, thank you for the opportunity 
to address you in support of PDS's fiscal year 2004 budget 
request.
    As you know, the Public Defender's Service provides 
constitutionally mandated legal representation to indigent 
people facing a loss of liberty in the District of Columbia. 
PDS is the local defender for our nation's capital, and it is 
also a national standard bearer.
    Throughout its 30-year-plus history, PDS has maintained its 
reputation as the best public defender office in the country, 
local or federal. It has been able to maintain its reputation 
because of its innovative approaches that are applied by some 
of the most talented lawyers and support personnel in the 
country.
    PDS is an agency that this committee, this Congress and 
this community can be proud of.
    PDS generally is assigned the most serious resource-
intensive and complex cases in the District. With more than 100 
lawyers on staff, PDS typically represents about 60 percent of 
the most serious felony charges, the majority of juveniles 
facing serious delinquency charges, nearly 100 percent of all 
people facing parole revocation, and the majority of people in 
the mental health system who are facing involuntary civil 
commitment.
    With this backdrop, I will address our fiscal year 2004 
budget request.
    For fiscal year 2004, PDS requests $25,210,000 and 218.5 
FTE in direct budget authority, which includes a request for 
0.5 of one half new FTE and $100,000 to support our only new 
initiative, the Appellate Assistance Response Initiative.
    The number of constitutionally mandated appellate cases 
opened by PDS has increased by 50 percent since 1997 while the 
number of attorneys providing these services has remained 
unchanged. In order to continue providing these 
constitutionally mandated services, PDS respectfully requests 
that this subcommittee approve its very modest budget 
initiative.
    Let me offer a brief example of how the work of the 
Appellate Division makes a difference to the lives of real 
people. Recently the DCCA contacted PDS after affirming 
convictions in a two-person appeal. The court was concerned 
because the briefs of one person--and let's call her Jane to 
protect her privacy--looked like it was a verbatim replica of 
the other person's brief even though the two had conflicting 
interests.
    PDS's Appellate Division accepted Jane's case, convinced 
the Appellate Court to reopen the matter, wrote new briefs for 
Jane, who maintained all along that the conviction was unjust, 
and through PDS's advocacy, demonstrated that the evidence was 
not sufficient to support a conviction. Jane was acquitted. 
Justice was done.
    In another important Appellate Court matter, PDS advanced 
the position that it was improper and unconstitutional for the 
government to exclude people from juries on the basis of 
religion alone, as religious freedom reaches the core of what 
it means to be an American. Significantly, the government 
recently revised its position and advised the court that it had 
now changed its position and agrees with PDS.
    In other matters, PDS has recently increased the 
sophistication of its practice and services such as special 
education advocacy for our juvenile clients. We are the only 
institutional provider of special education services. And given 
the startling correlation between educational deficiencies and 
juvenile delinquency, this is a much needed service.
    Utilizing the resources from our fiscal year 2003 DNA 
initiative, we have just litigated an admissibility issue 
involving a novel and complex DNA matter. Before ruling, the 
Superior Court judge said the following, referring to PDS and 
the United States Attorney's Office, and I quote, I want to say 
at the outset that you all are to be highly commended. These 
are some of the most impressive pleadings I have seen in my 
years on the bench. It is a credit to both your institutions 
that you have been able to marshal all of this in a way that 
reminds me of two Wall Street law firms going at it. I am sure 
that you all are making $500 an hour. The only difficulty is my 
staff, when they came back, insisted on a pay raise.
    This judge's recognition, though, is consistent with PDS's 
motto of providing better representation than money can buy.
    With your support of our appellate initiative in our fiscal 
year 2004 budget request, I can assure the members of this 
committee that PDS will continue to look for new and inventive 
ways to make each tax dollar we receive build a more fair and 
effective criminal justice system.
    I would like to thank the members of the committee for your 
time and attention in these matters and I will be happy to 
answer any questions that you may have.

                         RULES FOR QUESTIONING

    [The prepared statement of Ronald Sullivan appears on pages 
115 through 125.]
    Mr. Frelinghuysen. Thank you, Mr. Sullivan.
    The chair also welcomes and recognizes Congressman Weldon 
and Congressman Doolittle. Thank you both for joining us.
    If there is no objection, we will operate under the five-
minute rule for questioning witnesses. We will proceed similar 
to our last hearing, where I will go first, followed by Mr. 
Fattah, then I will recognize Members in the order in which 
they arrived at the hearing, alternating between the majority 
and minority.
    We will again use the timers that are on the witness table. 
I am not sure I need to go through that, but there are 
appropriate lights that will indicate, when it is red that we 
would like you to cease and desist.

                         WORKING RELATIONSHIPS

    Starting off on questions, I think Members of Congress have 
a keen interest in what you are doing. I am not an expert on 
the Revitalization Act of 1997, but paramount was the issue of 
resources and the other view I had is working relationships.
    We are providing you with substantial resources. I think 
you have been using those wisely for good public purposes.
    I have a particular interest in your working relationships. 
If you could, sort of, briefly describe, starting with the 
Chief Judges, what you specifically do, the clientele you serve 
and how you interact with one another at this table. I am sure 
you interact with one another, but how literally do you do it?
    Judge Wagner. Barely.
    The statutory construct is that there is a Joint Committee 
on Judicial Administration in the District of Columbia, of 
which the chief judge of the Appellate Court, which is our 
highest court in the two-tier system that we have in this 
jurisdiction, is the chair of the Joint Committee on Judicial 
Administration.
    The chief judge of the Trial Court of the District of 
Columbia--that is Chief Judge King--administers the day-to-day 
operations of that court with the help of an executive officer 
who is like a CEO of a corporation in terms of the relationship 
of the executive officer to the two courts. That person, Ms. 
Wicks, is with us today. And she also serves as secretary of 
our Joint Committee on Judicial Administration.
    We have formal meetings once a month with the Joint 
Committee. We decide policy-making matters, procurement. We 
coordinate the budget submissions, statistical information and 
data and all policy-making issues affecting the courts overall: 
employees and the like.
    I cannot say how often we talk. We talk all of the time. 
Fortunately, both of us have grown up in this court system. We 
knew each other when we were very, very young people.
    But as a group, we get together on the critical issues and 
make our decisions at these monthly meetings. But we also have 
additional meetings. When the nature of a business or the 
nature of a problem or the issue is of a severe nature or of 
immediacy, we will go ahead and have other meetings that are 
called meetings.
    Now, in the Court of Appeals, there are nine judges who 
hear cases in the Court of Appeals. We sit in panels of three 
deciding cases. All nine judges will sit for cases of 
exceptional importance if the hearing en banc is granted, or if 
in order to maintain consistency in the panel decisions.
    And we have a board of judges in the Court of Appeals which 
decide certain things. The file court has a board of judges. 
They make rules. We review their rule-making, and we make rules 
of our own.
    We are in the process right now of revising all of our 
appellate rules to try to bring them more in conformity with 
the rules of the federal appellate courts, which we, by 
statute, are required to try to follow.
    So that is, sort of, the day-to-day thing. And so, we are 
coordinating on strategic planning. We are getting ready to go 
away for a two-day meeting where we will be----
    Mr. Frelinghuysen. So all of you will go away, including 
Justice King and Justice Satterfield?
    Judge Wagner. Yes, we are going to retreat. And what we are 
going to do----
    Mr. Frelinghuysen. How do you relate to Mr. Sullivan? Is he 
off on another retreat, or----
    Judge Wagner. No, he, as the head of the Public Defender 
Service, is one of the----
    Mr. Frelinghuysen. I know members of the judiciary work 
together, and they work together I am sure----
    Judge Wagner. Yes.
    Mr. Frelinghuysen [continuing]. As a team. I just 
wondered----
    Judge Wagner. Well, there are issues that may affect the 
movement of cases through the courts or the ability to get 
representation. We certainly would consult on those matters. I 
think that would be more of Chief Judge King would perhaps have 
more often consults with him.
    They have an Appellate Division, and there is a head of 
that Appellate Division, which the Court of Appeals might have 
some interaction with more often than not.
    But we are all in the same area, and it is very easy for us 
to contact each other and address issues as they come up.
    Mr. Frelinghuysen. Thank you.
    Chief Judge King.
    Judge King. Thank you. First of all, one of the pleasures 
of my office is in working with Chief Judge Wagner. It has been 
a seamless relationship where we are able to work very easily, 
and we do work every day together on common issues.
    I have also considered it important, and this is 
particularly true for the trial court, where so much of what we 
do affects people in the first instance, to work with other 
agencies, both that appear before the court and that would be 
operating in other parts of the city. So I have monthly 
meetings with the United States attorney for the District of 
Columbia, or with Mr. Sullivan and some of his people, with the 
police chief, with the head of CFSA. It is not monthly, but it 
is periodic and we are in touch. And Judge Satterfield has been 
meeting bi-weekly with her so that the court is in daily 
contact.
    I am in fairly frequent contact with the Mayor's office, 
the deputy mayors in the various areas of responsibility.
    And just to be sure that anybody who felt that they were 
not in the right relationship with the court could do something 
about it, when I took office, I announced that I would have 
open chambers once a week where anybody at all could just walk 
in and they did not need an appointment or anything, they would 
just come in and sit down and tell me what is on their minds. 
And that has been a source of some additional information from 
the community and contacts with people who have ideas they want 
brought to the court's attention.
    Two very quick examples of the kinds of things this can 
result in, in the development of the AEGIS Program--it is the 
new computer system--I have felt that it is very important that 
we develop a system that is as close as possible to a universal 
system so that any federal agency or city agency can connect up 
to us so that that is a minimum whenever we need to work with 
CFSA or work with the police department or work with the Bureau 
of Prisons or with the Federal Health and Human Services 
Department, it will be a relatively easy matter to just come 
into our system, because we have developed it along very 
standard lines.
    And just one other thing, in developing the community 
court, I and the other judges involved in the effort, as well 
as senior court staff, spent a great deal of time going out 
into the community where the court would be taking its cases 
and meeting with the civic association leaders and the people 
out in the community and talking to them about what their 
interests were and what they thought would be important.
    Mr. Frelinghuysen. I read of your public appearances. I 
take my hat off to you.
    Judge Satterfield, want to get your oar in the water here? 
Care to comment?
    Mr. Satterfield. On that question, Mr. Chairman, the Family 
Court business, we have a Family Court Implementation 
Committee, and that committee has all the relevant stakeholders 
from Child and Family Services, Department of Mental Health, 
Public Defender Services, Office of Corporation Council. And we 
meet regularly and we have numerous working groups that 
actually work on the relevant issues that need to be done to 
affect these outcomes for children.
    And a good example of a recent thing that we are putting in 
place is actually starting tomorrow, which was a collaborative 
effort of all of these people at this Family Treatment Court 
that we are about to go online with tomorrow. It is going to 
help substance-abusing mothers, and their children, obviously, 
that are in the neglect and abuse system.
    Mr. Frelinghuysen. Mr. Sullivan, please comment, and then I 
will go to Mr. Fattah.
    Mr. Sullivan. Yes, so as not to be redundant, the only 
thing that I would add is that we have one additional vehicle 
and that is the CJCC, where not only Public Defender Service 
and the courts can interact but other criminal justice 
agencies, local and federal, in the District. And we have 
accomplished numerous projects through the Criminal Justice 
Coordinating Council.
    Mr. Frelinghuysen. Thank you, Mr. Sullivan.
    Mr. Fattah.

                     Acknowledgement of Rob Nabors

    Mr. Fattah. Thank you, Mr. Chairman.
    I do want to take a minute and acknowledge a new staff 
person assigned to our Committee to help me, and help you as we 
go through this and work with Carol. Rob Nabors, and I just 
want to welcome him to the Committee and thank him for his able 
assistance. He also works normally with the Commerce, Justice, 
State subcommittee.

                  Acknowledgement of Judge Satterfield

    I also want to acknowledge Judge Satterfield's work, not 
just in modernizing the Courts here, but thank him for his 
work. He formerly was with the U.S. Attorney's Office, and he 
had a great amount of success in Pennsylvania in rounding up 
and putting in jail people who were selling drugs. A major bust 
and we appreciate that work. On behalf of my constituents in 
Pennsylvania, I thank you for the work that you are doing here 
in the District.

                   DOMESTIC VIOLENCE SATELLITE CENTER

    I am interested in two things. One is I am very pleased 
with the Satellite Domestic Abuse Protection Order Program, in 
the hopes that from that, not only can it work well here in the 
District, but that it also may serve as a model for other 
places around the country where access to protection orders, 
even though they are not perfect in the sense of actually 
providing protection in every case, but they still are useful 
tools, could be more accessible, particularly to women in 
abusive situations.
    So some comment on that would be useful.
    And then, Mr. Sullivan, I am interested in the court's 
recent ruling, which I take it that you did not necessarily 
agree with, but nonetheless that the District would have the 
final say so in handling adjudicated, delinquent and also 
dependent youth. I do not know if it is both.
    But in terms of their actual placement which, up to this 
point I understand has been under the prerogative of the Court, 
but now the District, based on the Court of Appeals ruling, 
will, in fact, have that returned to it. I know you have some 
comments on that, as it relates to whether or not these young 
people would be well-served.
    I would be interested in if Judge King would comment first 
on the domestic abuse matter, and then we could hear from Mr. 
Sullivan.
    Judge King. I would be happy to.
    Our domestic violence unit, which is a combination and it 
itself is at the forefront of what is being done around the 
country to bring together under one judge's jurisdiction all 
the cases that affect a domestic abuse situation--the criminal 
case, the civil case, the family support case, and so on--so 
that one judge develops knowledge about it.
    Mr. Fattah. Can we try that in English? Do you mean if 
there is a divorce case and a case where someone is pursuing 
child support, and there is a criminal case of having abused 
one's spouse, all that would be put up under one judge?
    Judge King. Where there is a predominating abuse issue, 
that is correct.
    Mr. Fattah. Okay, thank you, Judge.
    Judge King. All those cases end up before the same judge 
with the exception, in our particular program, of felony cases, 
just because the criminal jury trial procedures are not 
compatible with the kinds of things that an equity court has to 
do.
    But the satellite center is an effort is an effort to make 
part of that system available to the people who most need them. 
It turns out that something like 60 percent of our domestic 
abuse complainants live in Anacostia or live east of the river. 
And so this puts a place that they can go to out there where 
they are.
    Mr. Fattah. Is this place a police station? What is this 
place? Where do they go to visit a webcam?
    Judge King. It is physically located in the Greater 
Southeast Community Hospital building, and they have kindly 
arranged to lease us some space. And we have managed to arrange 
to have police officers able to bring warrant applications 
there, as well, so that in what I felt was an ingenious 
solution to a difficult problem we have provided security for 
the operation, because the police officers are coming to get 
warrants so they are in and out all the time.
    And this not a full court, but it is a place, as you said, 
where you can get at least the limited protection of a 
protective order, and that can be obtained right on the spot.
    Mr. Fattah. So women go and present themselves through the 
webcam to a judge?
    Judge King. That is right.
    Mr. Fattah. And makes the argument that they are in need of 
a protection order. The judge concurs, and in the case where 
the judge concurs the order is faxed?
    Judge King. They can sign the order and fax it.
    Mr. Fattah. To a police officer there, who then goes and 
serves it?
    Judge King. To the person at the center who will then get a 
police officer to serve it right in the community. That is the 
design.

                     COURT RULING ON CHILD WELFARE

    Mr. Sullivan. Just very briefly, the matter about which you 
referred is in the PS, which was handed down within the week. 
The issue in question was whether a statutory change in the law 
in 1993 divested the local court jurisdiction, once a kid was 
committed--and committed is the terminology of the Juvenile 
Court; the adult analogue would be convicted--to the system 
whether a judge could in fact direct the treatment of the 
child.
    The court said, based on this 1993 statutory provision, 
that the judges could not, and once a child was committed all 
authority rested in the executive branch of government.
    The position that we advanced was that the 1993 change, 
that it was not the intent of the council to change the court's 
broad discretion over directing the care and rehabilitation of 
the child. We also advanced--and I say this with some 
trepidation, given the audience, but it was also our position 
that Congress did not intend for the court to be----
    Mr. Frelinghuysen. You should have no trepidation. Go right 
ahead.
    Mr. Sullivan. I do not presume to tell you what you 
intended and what you did not, but we argued that nevertheless.
    And as you may or may not know, we are in the 16th year of 
litigation with the District over the care and treatment of 
children. So it has been our view that the District agencies, 
for a variety of reasons, have not well cared for the neediest 
children.
    Mr. Fattah. I would like to explore it later on.
    Mr. Frelinghuysen. Thank you, Mr. Fattah.
    Mr. Cramer.

                              FAMILY COURT

    Mr. Cramer. Thank you, Mr. Chairman, Mr. Ranking Member. I 
look forward to working with you on this subcommittee.
    As Judge Satterfield knows, he had to listen to me last 
night at a function where Tom DeLay and I were co-honored for 
our work with children. We were talking to each other across 
the room.
    I was a prosecutor in my prior political life. And we did 
not have a public-defender program, so I did not actually 
interact with the Public Defenders Office. But I started a 
child abuse program there in Alabama, a Children's Advocacy 
Center program, which Safe Shores is now one of.
    And since I have been here in D.C., the Safe Shores program 
has been of special interest to me and I have been working with 
now two different Mayors to try to find a better place for Safe 
Shores and a better funding for that program, and the National 
Children's Alliance, which is the national network organization 
for our now 500 programs that we have around the country.
    As Judge Satterfield knows, my dilemma as a prosecutor was 
those child victims that I was having to take into the 
courtroom, 7-year-old kids, 12-year-old kids, getting them 
ready to testify in criminal court. But the Family Court was a 
big focus of that because many times we would remove custody, 
or try to remove custody at the same time that we were 
considering facts for a criminal prosecution.
    I lay all that out there and probably use most of my time 
in doing that. But I am very interested in the Family Court 
Act. I was listening and very impressed with the information 
that, Judge King, you gave about the Family Court transition, 
the cases that were being moved.
    And Judge Satterfield, I congratulate you and even more so 
now that I know that you were a prosecutor in your prior life 
as well. But how is that going? How is that transition going? I 
am interested in the working groups you are talking about and 
particularly how the Safe Shores program factors into how the 
Family Court works with the different groups in the District.
    Mr. Satterfield. I think it is going very well. I mean, the 
resources that you gave us have been used to implement the 
provisions of the Family Court Act. And just to highlight a few 
ones that we think will have better outcomes for children.
    As the chief judge said, we are able to do the one judge-
one family, which provides more quality decision making for the 
children because the judges know more about the family, know 
more about the particular child.
    We have been fortunate to be able to reduce the time it 
takes to litigate those legal issues in a neglect and abuse 
case by 66 percent, during the course of 2002.
    And what that enables us to do is to get to the heart of 
the matter, which is deciding and making plans for the state 
permanent home for the child, whether the child is going back 
with the family or going to go to someone, adopted resource or 
some other type of guardian. So we have been able to do that in 
the last year, two years.
    And training, we are just doing a whole bunch of that. And 
that is where a place like Safe Shores becomes involved because 
we like to have them come over and help us with the training 
for what they do in terms of how they handle children and so 
forth.
    And there is an interconnection between what we are doing 
in Family Court and the prosecutor's office because we are 
seeing the same children.
    Mr. Cramer. Did you say interconnection?
    Mr. Satterfield. Because the prosecutor's office actually 
needs our children that we have in our Family Court as 
witnesses; need children that have emotional issues that affect 
them even testifying and so forth.
    Mr. Cramer. Do they have a specialized unit within the U.S. 
Attorney's Office?
    Mr. Satterfield. Yes, they do.
    Mr. Cramer. And you think that is working well?
    Mr. Satterfield. I am a little bit biased because my wife 
is one of the chiefs in that unit. I just wanted to throw that 
up front. But it is working very well.

                           MANDATED MEDIATION

    Mr. Cramer. But how is mandated mediation affecting the 
outcomes?
    Mr. Satterfield. That is affecting the outcome because one 
thing I mentioned that we reduced the time to resolve the legal 
issues. And one way we have done that was through the mandated 
mediation.
    Because what happens is the parties come in and they 
resolve the legal issues faster, and so we are able to move to 
the primacy issues quicker. And it has two results.
    We are able to move through it quicker and also it gets 
buy-in from the parents if they are involved in the case 
planning and they get an input in that. So we can have better 
outcomes with their involvement and a sense of fairness with 
their involvement.
    Mr. Cramer. Was that mandated mediation caused by the 
Family Court Act?
    Mr. Satterfield. No, we were doing mediation before that, 
not to the extent that we are doing now. We have expanded into 
all child-protection cases now since the Family Court Act. But 
we had started a program before that.
    Mr. Cramer. All right. Thank you and I will get some more 
time in the next round. Thank you.
    Mr. Frelinghuysen. I thank you, Mr. Cramer.
    Dr. Weldon.

                   DOMESTIC VIOLENCE SATELLITE CENTER

    Mr. Weldon. I thank you, Mr. Chairman, and I certainly 
thank all our witnesses for the good work that you do.
    I had a couple of quick questions. The web cam with the 
orders of protection, has that ever had any legal challenges at 
all in the courts? Those have been very well accepted, I 
assume.
    Judge King. They have not had any challenges here. And, of 
course, for a hearing which is ex parte anyway, what happens 
once you get a temporary restraining order issued, you then 
have 10 days within which to come into court for an adversary 
hearing. So this is an ex parte hearing to begin with and I 
doubt there will be a challenge.
    There may be other places that we seek to use it because it 
obviously does make it easier to do a lot of tasks. And there 
could be challenges in the future, but we haven not had any so 
far and do not anticipate any.
    Dr. Weldon. I am not saying there should be. I was just 
kind of curious. Lawyers always find a way to challenge 
anything. And it seemed like a great idea to me, but I am a 
doctor. Not that I am against lawyers. I am not going to say 
anything bad about lawyers in this room.

                      COMMUNITY-REENTRY INITIATIVE

    We had, a couple of weeks ago, a hearing, we had CSOSA come 
in, and you had a community-reentry initiative. Is that 
different from CSOSA or duplicative? Or am I misunderstanding 
the community-reentry initiative?
    Mr. Sullivan. It is different from CSOSA. That is an 
initiative that the public defender had.
    We, as a function of that initiative, have opened up a 
community defender office. And our representation at this 
point, at least for a juvenile client, extends from at least 
the day after they are arrested through the time that they are 
released back into the community, one that is called after-
care.
    And again the analogue in the criminal system would be 
parole, but that is essentially what it is. A kid is still 
under the authority of the court system, but is out of secure 
detention.
    Dr. Weldon. So CSOSA does not have any equivalent to handle 
that kind of situation.
    Mr. Sullivan. Well, I cannot speak for CSOSA, but I know 
that they have community officers, and they have requirements 
for the kids and that sort of thing.
    What we do is help transition children back into the 
community, give them a helping hand to make sure that they do 
meet all of their appointments, that they get back in school if 
that is appropriate.
    We have a special-education division that can, under the 
IDEA federal law, get resources to get the children the 
educational resources that they may need.
    We also can help them find a job. Essentially our role is 
to keep them in compliance with whatever is set forth by CSOSA 
or the court.
    And also, I should mention one other thing. CSOSA only 
deals with adults. Our reentry program right now is focused on 
juveniles.

                       DNA COLLECTION INITIATIVE

    Dr. Weldon. Okay. The DNA sample-collection initiative? Do 
you have a request for additional personnel for that?
    Mr. Sullivan. Yes.
    Dr. Weldon. Just tell me what they do and why the need for 
additional personnel and why is that in the public defender's 
services?
    Mr. Sullivan. There has been a spike, a rise in the use of 
DNA evidence in the local courts. And there is a corollary need 
in the defense bar for expertise with respect to DNA cases.
    Before you came in, I actually gave a brief example of our 
forensic-practice group, which is what we call it. We do DNA 
and other sorts of forensic issues. But we had a very complex 
and novel nuclear DNA case before the court, and I read before 
you came in where a local judge complimented both us and the 
United States Attorney's Office----
    Dr. Weldon. I came in at the tail end of that.
    Mr. Sullivan [continuing]. For being able to marshal all of 
this evidence. Perhaps not to a physician, but to we lawyers, 
it is fairly complicated material. And we serve two functions.
    Dr. Weldon. This is just pertaining to the defense work?
    Mr. Sullivan. Yes, absolutely.
    Dr. Weldon. Okay, I think I understand. Thank you very 
much. My time has expired.
    Mr. Frelinghuysen. Thank you, Dr. Weldon.
    Mr. Doolittle.

                            COMMUNITY COURT

    Mr. Doolittle. Thank you.
    Judge King, I read your testimony, talking about in part 
the community court for traffic offenses and misdemeanors, and 
it sounds like you experienced some positive results with that 
and have a considerable drop in the abscondancies, I guess: 50 
percent in traffic cases, 45 percent in minor misdemeanors.
    Is this resulting, do you think, in fewer underlying crimes 
of this type, or not? What is the effect on that?
    Judge King. It is too early for us to measure numbers in 
any significant way, although obviously that is where we are 
headed. We want to be able to show that there has been a 
difference.
    The goal is patterned after the very successful experience 
in New York, whereby addressing the underlying problems 
immediately, rather than appointing a lawyer continually for 30 
days and then it drags on, and at the end of the process, 
nothing really gets addressed that is going to change anything.
    This is intended to connect people up with community 
service or if there are mental-health or drug-use services that 
are needed, to connect them up right away so that it is done 
while everybody is fresh from the arrest and the case is still 
foremost in everyone's minds.
    The very realistic goal is not that you will end 
recidivism, but you can slow it down, you can slow the 
revolving door down, and that is very much what we hope will be 
our pattern once we become solidly established and have all the 
services in place.
    Mr. Doolittle. I was not familiar with what New York had 
done, so that is interesting. Okay, the individual is arrested 
and then----
    Judge King. They are brought before----
    Mr. Doolittle [continuing]. How quickly does this kick into 
action?
    Judge King. They are brought before the court in our case, 
in most cases, the next day, the next morning, and for the 
traffic court, if it is a matter of a license, it is typically 
set right away, the case is set, get a license and get back and 
you are done, with the night in jail having been a little 
penalty reminder.
    If it is connecting with services, it would be to map out a 
plan right then and there that day, come up with a plan for 
drug treatment, if that is the issue, or if it is mental-health 
services, let's set up an appointment and get an examination 
underway, and get a warrant and deal with it.
    It is still evolving in the sense that, as you can imagine 
the court depends a great deal on available services, the 
strength of the services, that are available to refer to.
    And those are still being worked out. But one of the things 
we have been very pleased with is the city's effort to find 
employment training and employment placement for people who are 
homeless, and that, again, you could connect it right away and 
get right on it and get them referred.
    And if there are continuances it is in the context of 
taking the time necessary to do the health-related work rather 
than the time necessary to negotiate a crowded docket.
    Mr. Doolittle. And so the people who are the defendants are 
just appearing on their own behalf? They are not represented, 
right?
    Judge King. They are represented. There is a duty day 
attorney who represents them in the community court, and then 
if it is decided that for some reason this is not an 
appropriate case for community court, then there is an 
appointment of counsel and the case goes on the regular 
calendar.
    But if it is handled in the community court then it is done 
in the community court and that duty day attorney handles the 
representation, provides legal advice.
    Mr. Doolittle. And that is akin to a public defender?
    Judge King. It is like a public defender, that is correct.
    Mr. Doolittle. Okay. I have another question, but are we 
doing the second round, Mr. Chairman.
    Mr. Frelinghuysen. Absolutely.
    Mr. Doolittle. Okay. Well, I will save it for then.

                     COURT RULING OR CHILD WELFARE

    Mr. Frelinghuysen. I would like to go back and, if you 
could, clarify for me Mr. Fattah's comments relative to the 
ruling by the D.C. Court of Appeals, which the paper described 
as effectively stripping the Superior Court judges of their 
long-standing authority over where delinquents are sent and 
what services they receive.
    For quite a long period of time members of the judiciary 
made that decision. Now the Appellate Court has ruled that that 
is the prime decision-making responsibility of the Youth 
Services Administration. Is that accurate?
    Judge King. I think I told you at the beginning I have a 
great relationship with Chief Judge Wagner.
    Mr. Frelinghuysen. I am told that we have over 11,000 
special-ed youngsters in the city. I would assume, and I would 
like to know, maybe Mr. Sullivan knows, how many of those 
youngsters are within the juvenile system.
    Judge King. I can tell you this much. For a judge in a 
neglect or abuse case, finding the right service for this 
particular child is always a challenge.
    You are always looking for what is the best thing you can 
do in this situation with this child who is in front of me 
today.
    Mr. Frelinghuysen. But is it fair to say that you would 
have been working with professional social workers in making 
those decisions over the last 10 or 12 years?
    Judge King. But sometimes there might be something that is 
right there, it is a program that everybody recognizes and the 
city puts them right in it.
    Sometimes the city does not have the particular program and 
then you have to work it out. The case under consideration 
addresses that tension. I do not want to comment on the case, 
but the issue is, can you find the right particular services?
    And it may ultimately be that this would be a subject for 
some legislation of the city council to address.

                          INCREASING CASELOAD

    Mr. Frelinghuysen. Well, I am not sure who to direct this 
question to, but it looks like there are reports that there is 
a growing caseload of offenders 13 years and younger.
    That leads me to sort of a three-part question. First, what 
is the current caseload and how much is it going up? Second, do 
you know why the caseload in this age group is increasing? And 
lastly, what impact does it have on your workload? Then I 
actually have a fourth question, which is, is there only one 
contract to serve this population? One issue which seems to 
resonate is that we do not have enough places.

                     COURT RULING IN CHILD WELFARE

    Mr. Satterfield. I would like to answer your question, but 
I also want to just clarify some things about the PS decision, 
and I do not quarrel with the Court of Appeals' decision 
because they are interpreting a statute that has been in place 
since 1993, and they made it clear for us what that statute 
meant.
    And that was the statute that changed the court's ability, 
when a child is transferred to a public agency like YSA, to 
dictate where the child and how the child should be treated 
when he is in the care of the public agency.
    And that is what it made clear for us, something that was 
changed in the law in 1993, and that does impact, obviously, 
the court's control of the treatment for the child, but that 
was done through a statute that was simply interpreted, 
something that was not clear to everyone in the superior 
courts.
    Some judges may have interpreted that for us. And that is 
the impact, so you have to really go back to the statute itself 
if you want to give judges better control over what happens 
once the child is committed.
    And the reason that we went back is the judges were having 
these sort of what we call restrictive commitments, because 
what they were finding out when they did not have them was that 
we commit the child to YSA. And no appropriate services were 
provided when we were bringing them back for review.
    And so they are simply seeing that now at Oak Hill. And so 
that is why judges were doing it.
    The judges will not do that any longer, obviously, because 
the statute is made clear by the Court of Appeals. And so it 
really goes back to----
    Mr. Frelinghuysen. So they will have to do better than what 
they were doing when they were warehoused.
    Mr. Satterfield. Well, they know it is in the District's 
hands to make sure that when we transfer a child to them that 
they give them the appropriate services.
    We can monitor it but we have no judicial enforcement if 
they are not doing the right services. We are going to continue 
to recommend what we think is appropriate for the child when we 
commit a child to get these services.
    And usually we commit children that require extensive 
mental-health treatment, drug treatment and so forth. And so we 
will continue to----
    Mr. Frelinghuysen. These issues are complex and most of us 
come from a jurisdiction where we know that one individual case 
can cost a lot of money. But our bottom line here is looking 
after children.
    Mr. Satterfield. Certainly.
    Mr. Frelinghuysen. I am respectful and I am not fully 
knowledgeable of the judicial decision here, but I am of the 
feeling that we want to make sure that whatever is being set up 
is benefiting children.
    Mr. Satterfield. But it is not the decision, it is the 
statute.
    Mr. Frelinghuysen. Thank you.
    Mr. Fattah.
    Mr. Fattah. Now the Court, in terms of the statute, as best 
as I can understand, the Court of last resort has ruled, and 
this is how these matters are going to be handled. Right? Is 
that correct?
    Judge Wagner. You know, I cannot get into any of the 
discussion, so I am just a silent person here because I cannot 
comment on any pending case.
    Mr. Fattah. Okay.
    Judge Wagner. There are steps beyond this in the Court of 
Appeals. And whether that is going to occur, I do not know.
    Mr. Fattah. Okay. Thank you.
    Let me just say, it does not matter to me whether the judge 
makes the placement or whether the agency makes the placement, 
because both can and have erred in the past.
    That is that you can always have an imprudent placement of 
a child into a situation that they should not have been put 
into. The question is: Is there going to be a collaborative 
effort to try not to have that happen, whoever is making the 
placement decision?
    And you know, to have children placed far outside of the 
District in some, you know, far-off place looking for a cure 
that no one has yet discovered to a behavioral problem that is 
pretty normal, that may not be the wisest course of action 
either.
    So, all of this needs to be processed in the right way. A 
lot of times when jurisdictions or courts make these decisions, 
they do not have any of the budgetary responsibilities to pay 
the bill. And you have to have some correlation between what 
the resources are that are available to the children, and what 
the best placement could be made available and some oversight, 
I think, at the end of the day.
    So I am hopeful, Mr. Chairman, that whatever point that 
this matter is resolved at, that the parties involved will 
still find some collaborative way to operate in the best 
interests of the child.
    Mr. Satterfield. We have even started meetings now to 
figure out where to go from here with respect to making sure 
that we are all on the same page when the child is placed.
    And it should be clear, this only applies to juvenile 
offenders, not any of the children in the abuse and neglect 
that is in the statute. And we still have our authority to 
place children.
    Mr. Fattah. Well, on the dependent side. This is only the 
adjudicated delinquent side.
    Mr. Satterfield. Delinquent side.
    Mr. Fattah. I understand.
    Mr. Frelinghuysen. Mr. Culberson, apologies for not having 
recognized your arrival. You have your five minutes if you 
would like it.

                          COURT JURISDICTIONS

    Mr. Culberson. Thank you, Mr. Chairman.
    If I could ask either Judge King or Judge Wagner to help me 
understand, as a new member of the committee, the jurisdiction 
of your courts, their structure, and in particular, the case 
that you have been discussing involving the Superior Court's 
loss of authority over the treatment and care of juvenile 
delinquents?
    I know that the District of Columbia, of course, is 
enforcing laws that are passed by the City Council here. But 
also, I gather you have jurisdiction and authority also granted 
to you by Congress. So it seems to me you are operating under 
both authority given to you by the City Council and Congress. 
Is that correct? And how do you resolve that overlapping 
jurisdiction?
    Judge Wagner. I can address the jurisdictional matter.
    The courts were established by Congress pursuant to its 
congressional authority. And they structured the Courts to 
pattern them after a state system in terms of jurisdiction.
    So that they will handle local matters which were 
previously handled by the United States District Court for the 
District of Columbia because it sat in its jurisdiction. So 
with court reorganization, those matters were transferred to 
the local courts.
    With the judges being appointed by the president with the 
advice and consent of the Senate, it sort of creates a hybrid 
situation. And we do, of course, we do interpret the 
Constitution of the United States.
    As in the Court of Appeals, we entertain and consider 
constitutional issues and have somewhat of a broader authority 
than perhaps some of your states do in a way just simply 
because of our locale and that the fact that the laws are 
enacted by Congress and by our council, so that our cases may 
involve laws of both.
    Mr. Culberson. What I was particularly interested in, is 
this also using the case of this----
    Judge Wagner. I cannot----
    Mr. Culberson [continuing]. Young person.
    Judge Wagner. You see, I am in an awkward position.
    Mr. Culberson. I am not asking about the specifics of that 
case, just to use it as an example.
    Judge Wagner. Okay. Incidentally, I am not sure if you were 
in the room when I mentioned it, but we sit in panels of 
threes. So when a three-judge panel hears a case, that is not 
necessarily the end of the case.
    We have a procedure for a petition for rehearing by the 
full nine-member court. It is rarely granted, but it is granted 
for cases of exceptional importance. And so, only after you 
finish with that process, then a person can petition for cert 
to the United States Supreme Court.
    Mr. Culberson. So your court, you are the Federal Court of 
Appeals for the District of Columbia?
    Judge Wagner. Well, no, we are really like a state system.
    Mr. Culberson. Okay, that is what I wanted to make sure and 
clear in my mind.
    Judge Wagner. Yes, we consider ourselves like a state 
system in the way we are structured. And according to the 
legislative history, they structured it like that, but they 
wanted it to parallel and have the independence like the 
federal courts did, and that is how they happened to structure 
it in this manner.
    And the idea, I think, at the earlier time was there was a 
case load of local cases over in the United States District 
Court. They were trying all of our felonies. They were trying 
all of the cases above $10,000 in civil, and so they 
transferred everything over there.
    Mr. Culberson. Congress did by statute in the 
reorganization act.
    Judge Wagner. Yes, court reorganization act. This has 
really worked extremely well.
    Mr. Culberson. And then an appeal from the D.C. Court of 
Appeals in which you said is the chief judge goes to the U.S. 
Supreme Court, or is that----
    Judge Wagner. Exactly.
    Mr. Culberson. Okay.
    Judge Wagner. It goes to the United States Supreme Court. 
Before court reorganization you could petition to go to the 
D.C. Circuit in a decision. That was before court 
reorganization. But when they reorganized, they made us the 
court of last resort. That was about 1970.
    Mr. Culberson. Well, just to speed over this young man who 
the Court of Appeals said was not any longer under the 
jurisdiction of the superior courts because he had been given 
to the authority of the city.
    The decision was based on the city law or the federal law, 
because it seems to me the law of Congress----
    [Laughter.]
    Mr. Culberson. It seems to me the law of Congress trumps--
--I know it trumps the constitution of the state of Texas, and 
Texas law, it certainly trumps whatever ordinance the city 
passes.
    Mr. Satterfield. It is a city law. It was the law passed by 
the City Council that modified that statute.
    Mr. Culberson. The City Council passed a law subsequent to 
the enactment of the 2001 law?
    Mr. Satterfield. No, this was in 1993, that that change was 
made in the decision.
    Mr. Culberson. It just is a surprise to me that the 
decision of a law officer passed by the City Council could 
essentially override or----
    Judge King. If I can jump in, the various subject matters 
that we address are all of those matters that a state court 
would address.
    But if you imagine a state-court analogy, it would be a 
county court, which is bound by state law, some federal laws, 
and also some county ordinances. And that is what we have. In 
other words, we have to follow the law.
    Mr. Culberson. Sure.
    Judge King. It does not matter whether it comes from 
Congress or if it comes from the City Council. It is law. We 
have to follow and interpret and apply.
    Mr. Culberson. Certainly. The federal law is silent, and 
the City Council has filled that gap with some specificity.
    Judge King. There we are.
    Mr. Culberson. I understand.
    Judge King. Congress has specifically preempted, obviously, 
then we would look to Congress.
    Mr. Culberson. Yes.
    Judge King. But in this instance, it is an area where the 
Congress passed the--this is back in the organic structure of 
the District, giving the City Council authority to pass laws in 
certain areas.
    This is one of those laws that is getting interpreted. And 
so, it is binding on us just as any other law would be.
    Mr. Culberson. It is just giving me a good framework for 
understanding the scope of your jurisdiction and the overlap 
and the authority of the D.C. City Council as well as that of 
the Congress.

                            MERGER MECHANISM

    And I wanted to ask if in conclusion you could comment, 
each one of you, on the practicality of the mechanism by which 
you could, for example, merge into the state of Maryland, 
because I can tell you as a new member of the committee, it 
seems to me it makes much more sense to have the District of 
Columbia operate under the jurisdiction of a state and just 
become a part of a state.
    I understand there was an effort to do that in Virginia 
years ago. I have co-authored legislation with another member 
of Congress to have D.C. merged into Maryland, because as a 
10th Amendment Jeffersonian Republican, it just seems to me 
everybody ought to be represented, and why not become a part of 
Maryland.
    How would you administer that? And what would you----
    [Laughter.]
    Why not become a part of Maryland and operate under the 
same guidelines the rest of the country does?
    Mr. Frelinghuysen. If you think you can do better there, 
Mr. Cramer, I will put you on. [Laughter.]
    Mr. Culberson. I am going to leave that one alone, but I 
would be glad to take that ball and run with it.
    Judge Wagner. I think we can take that under advice.
    Mr. Frelinghuysen. We do have some time constraints here, 
because we have four votes. I think we may be concluding after 
your brief responses to Mr. Culberson, and then we will go to 
Mr. Cramer.
    Mr. Culberson. Very briefly, as a practical matter, what 
would you do to merge and become part of, for example, 
Maryland?
    Judge King. That is above my pay grade. I will do what they 
tell me. [Laughter.]
    Mr. Culberson. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Culberson.
    Mr. Cramer.

                            FACILITIES PLAN

    Mr. Cramer. I would like to move this to a different issue.
    I am interested in your master plan for the D.C. Court's 
facilities. And since time is short here, and unfortunately we 
have this series of votes, I am looking at your budget that 
includes the beginning of the renovation of the old courthouse. 
It has been uninhabitable for a number of years now?
    Judge Wagner. I would say so. I cannot remember--the public 
defender, I think, was--were you one of the last people out of 
there?
    Mr. Sullivan. 1997, yes. [Laughter.]
    Mr. Cramer. But this master plan puts you on course to 
begin----
    Judge Wagner. It absolutely puts us on----
    Mr. Cramer. Looking after your infrastructure, where you 
are in----
    Judge Wagner. We had to get the building totally vacated. 
It was being utilized by the corporation council, and by the 
public-defender service and by the courts until 1997, perhaps 
1998, I guess.
    Mr. Sullivan. 1998.
    Judge Wagner. 1998. And so, once we got everyone out of 
there, Congress, with their support, we were able to get enough 
funding to secure the roofing to prevent further deterioration, 
close it up and really----

                         INFORMATION TECHNOLOGY

    Mr. Cramer. Stop the bleeding. On the information-
technology side, you are requesting maybe $4 million for your 
infrastructure enhancements. That is building on what you 
already have. Is that correct?
    Judge King. Yes, that is correct. Actually my drive here 
has been to keep us in step with GAO, which has giving us some 
guidelines and critiques of the process of doing this 
renovation, which is a major project.
    And much of that funding goes to the discipline processes 
that they have recommended. So we are very hopeful that we can 
keep it, because it is giving us a----
    Mr. Cramer. That is on the IT side?
    Judge King. That is right. Okay.
    Mr. Cramer. And does that help with the tracking of the 
child welfare in criminal justice cases?
    Judge King. Yes. The idea is we are going to end up with a 
system where every case that might affect somebody before the 
court will be immediately available in one system.
    Mr. Cramer. Alright. Thank you. And I would like to come 
visit you and help you and get more informed that way and not 
burden the committee with questions like this. Thank you, Mr. 
Chairman.
    Judge King. You are most welcome.
    Mr. Frelinghuysen. The squirrel that nearly jumped on our 
heads is still waiting for you, Mr. Cramer. [Laughter.]
    Mr. Frelinghuysen. They just let it out of the box before I 
got in there. First of all I want to thank each and every one 
of you for being here this afternoon.

                            Closing Remarks

    You are saved by the bells, a number of bells, which 
require our participation for votes, but we have covered some 
territory. I have plenty of questions that relate to the Family 
Court which remain to be answered, and I have dozens of 
questions that relate to special education.
    These are complex issues.
    I want to, on behalf of the Committee, commend each of you 
for the job you are doing. We have made a substantial 
investment, and you are key players in making sure that 
investment reaches fruition.
    We appreciate your time and effort, and we are not 
forgetting your capital needs, your desire for better court 
records and management information systems, and we will do our 
level-best to be of further assistance to you.
    So again, thank you, all of you, for being here.
    [GRAPHIC] [TIFF OMITTED] T7731A.057
    
    [GRAPHIC] [TIFF OMITTED] T7731A.058
    
    [GRAPHIC] [TIFF OMITTED] T7731A.059
    
    [GRAPHIC] [TIFF OMITTED] T7731A.060
    
    [GRAPHIC] [TIFF OMITTED] T7731A.061
    
    [GRAPHIC] [TIFF OMITTED] T7731A.062
    
    [GRAPHIC] [TIFF OMITTED] T7731A.063
    
    [GRAPHIC] [TIFF OMITTED] T7731A.064
    
    [GRAPHIC] [TIFF OMITTED] T7731A.065
    
    [GRAPHIC] [TIFF OMITTED] T7731A.066
    
    [GRAPHIC] [TIFF OMITTED] T7731A.067
    
    [GRAPHIC] [TIFF OMITTED] T7731A.068
    
    [GRAPHIC] [TIFF OMITTED] T7731A.069
    
    [GRAPHIC] [TIFF OMITTED] T7731A.070
    
    [GRAPHIC] [TIFF OMITTED] T7731A.071
    
    [GRAPHIC] [TIFF OMITTED] T7731A.072
    
    [GRAPHIC] [TIFF OMITTED] T7731A.073
    
    [GRAPHIC] [TIFF OMITTED] T7731A.074
    
    [GRAPHIC] [TIFF OMITTED] T7731A.075
    
    [GRAPHIC] [TIFF OMITTED] T7731A.076
    
    [GRAPHIC] [TIFF OMITTED] T7731A.077
    
    [GRAPHIC] [TIFF OMITTED] T7731A.078
    
    [GRAPHIC] [TIFF OMITTED] T7731A.079
    
    [GRAPHIC] [TIFF OMITTED] T7731A.080
    
    [GRAPHIC] [TIFF OMITTED] T7731A.081
    
    [GRAPHIC] [TIFF OMITTED] T7731A.082
    
    [GRAPHIC] [TIFF OMITTED] T7731A.083
    
    [GRAPHIC] [TIFF OMITTED] T7731A.084
    
    [GRAPHIC] [TIFF OMITTED] T7731A.085
    
    [GRAPHIC] [TIFF OMITTED] T7731A.086
    
    [GRAPHIC] [TIFF OMITTED] T7731A.087
    
    [GRAPHIC] [TIFF OMITTED] T7731A.088
    
    [GRAPHIC] [TIFF OMITTED] T7731A.089
    
    [GRAPHIC] [TIFF OMITTED] T7731A.090
    
    [GRAPHIC] [TIFF OMITTED] T7731A.091
    
    [GRAPHIC] [TIFF OMITTED] T7731A.092
    
    [GRAPHIC] [TIFF OMITTED] T7731A.093
    
    [GRAPHIC] [TIFF OMITTED] T7731A.094
    
    [GRAPHIC] [TIFF OMITTED] T7731A.095
    
    [GRAPHIC] [TIFF OMITTED] T7731A.096
    
    [GRAPHIC] [TIFF OMITTED] T7731A.097
    
    [GRAPHIC] [TIFF OMITTED] T7731A.098
    
    [GRAPHIC] [TIFF OMITTED] T7731A.099
    
    [GRAPHIC] [TIFF OMITTED] T7731A.100
    
    [GRAPHIC] [TIFF OMITTED] T7731A.101
    
    [GRAPHIC] [TIFF OMITTED] T7731A.102
    
    [GRAPHIC] [TIFF OMITTED] T7731A.103
    
    [GRAPHIC] [TIFF OMITTED] T7731A.104
    
    [GRAPHIC] [TIFF OMITTED] T7731A.105
    
    [GRAPHIC] [TIFF OMITTED] T7731A.106
    
    [GRAPHIC] [TIFF OMITTED] T7731A.107
    
    [GRAPHIC] [TIFF OMITTED] T7731A.108
    
    [GRAPHIC] [TIFF OMITTED] T7731A.109
    
    [GRAPHIC] [TIFF OMITTED] T7731A.110
    
    [GRAPHIC] [TIFF OMITTED] T7731A.111
    
    [GRAPHIC] [TIFF OMITTED] T7731A.112
    
                                           Wednesday, May 14, 2003.

     DISTRICT OF COLUMBIA PUBLIC SCHOOLS AND PUBLIC CHARTER SCHOOLS

                               WITNESSES

PEGGY COOPER CAFRITZ, PRESIDENT, BOARD OF EDUCATION
DR. PAUL VANCE, SUPERINTENDENT, DISTRICT OF COLUMBIA PUBLIC SCHOOLS
THOMAS P. LOUGHLIN, CHAIR, DISTRICT OF COLUMBIA PUBLIC CHARTER SCHOOL 
    BOARD

                            Opening Remarks

    Mr. Frelinghuysen [presiding]. The meeting will come to 
order. Ms. Cafritz, please join us.
    First of all, I would like to thank Chairman Henry Bonilla 
of the Agriculture Committee for the use of this hearing room. 
We have been using it for all of our hearings.
    I would like to welcome everybody here this morning. 
Joining me this morning on my left is the Ranking Member, Chaka 
Fattah. Thank you for being here, Chaka. And on my right, 
Congressman Duke Cunningham. Other Members will join us as 
their schedules allow them to be here.
    Today, we have representatives from the District of 
Columbia Public Schools and Public Charter Schools. I believe 
that providing our children with a solid education is the most 
important duty we have as a society. An educated society is one 
of the keys to a prosperous nation and to a prosperous city.
    There have been some important steps taken to improve the 
education system in this District.
    The District has 37 charter schools in operation, the most 
of any city in the nation, serving over 11,000 students or 15 
percent of the District's public-school population. I also 
understand the transformation-school initiative has produced 
some positive results, and we look forward to hearing more 
about the expansion of this initiative. Improving teacher and 
principal quality and transitioning to a performance-based 
budget are also steps in the right direction, but there is a 
long way to go.
    I think we all know the District school system faces many 
challenges: 72 percent of students receive free or reduced-
price lunches; 16.5 percent of students are identified as 
having special needs; a third of public-school students drop 
out of high school before graduating, which has a lot to do 
with the city's high adult-illiteracy rate; parent 
participation in schools is roughly 50 percent; and the average 
school is 65 years old.
    I do not think I am alone when I say the children of the 
District of Columbia deserve a quality education. Mayor 
Williams has made education reform a top priority of his. 
Obviously, Dr. Vance and Ms. Cafritz, it is your job to educate 
the children of the District and provide a quality education 
for each and every youngster in the system.
    We, as a Committee in this Congress want to assist you and 
the Mayor in achieving this goal in a cooperative and 
instructive way.
    We look forward to your opening statements and learning 
more about what you are doing to ensure that each and every 
child in the District is provided an educational opportunity to 
allow themselves to develop into productive adults.
    The notion that we do not want to leave one child behind is 
more than a rhetorical flourish, it is something we do not want 
to do.
    Before I yield to Mr. Fattah, I would just like to make a 
general comment. You have a prepared statement, Dr. Vance does, 
Ms. Cafritz; in the future, we need to have those statements on 
a more timely basis, so both the minority and majority sides 
have an opportunity to review those statements, and to the 
extent that we wish, prepare some questions that relate to your 
remarks.
    Let me recognize Mr. Fattah.

                  Congressman Fattah's Opening Remarks

    Mr. Fattah. Thank you, Mr. Chairman.
    Let me welcome my guests this morning.
    Both the board chair and the school superintendent and I 
have had opportunities in the past to interact around the 
progress that is being made, and we look forward to hearing 
their testimony today.
    I know that they worked very hard in a challenging 
environment to address the needs of students here in the 
District, and I am hopeful that our hearing today will elicit 
where it is that we can help the District continue to work to 
meet its obligations to future generations.
    Thank you.

                       Introduction of Witnesses

    Mr. Frelinghuysen. Thank you, Mr. Fattah.
    Today, we will hear testimony from Peggy Cooper Cafritz, 
President of the Board of Education; from Dr. Paul Vance, 
Superintendent of the District of Columbia Public Schools; and 
lastly Thomas Loughlin, Chair of the District of Columbia 
Public Charter School Board.
    Your entire statements will be entered into the record, so 
I ask if you would be good enough to highlight your statement 
for the Committee.
    Ms. Cafritz, welcome. Please proceed.

                    Ms. Cafritz's Opening Statement

    Ms. Cafritz. Thank you very much. I will try to summarize.
    Chairman Frelinghuysen and Congressmen Fattah and 
Cunningham, as the president of the Board of Education, it is 
my pleasure to appear before you to discuss the fiscal year 
2004 operating and capital budgets of the District of Columbia 
Public Schools.
    Ever since my colleagues and I have assumed office and Dr. 
Vance has become the superintendent, we have been engaged in 
reforming a broken school system that has never received 
adequate resources necessary for properly educating our 
children and sustaining reform.
    We found an educational system with deteriorating 
buildings, underachieving schools and too many students who 
lack the academic skills to prepare them for their future, and 
poor and dysfunctional personnel, budgetary control, cost-
allocation systems and budget deficits.
    We found a system that had been built on a legacy of broken 
promises and failed experiments and too few resources to 
overcome the many years of neglect.
    Simply put, Congressmen, we have been trying to keep the 
trains running while fixing the engine, building the kind of 
school system that has not existed in DCPS for years.
    With the help of really committed teachers, principals and 
parents, we are beginning to address this legacy of 
disinvestment.
    We are also beginning to experience a modicum of success 
that will lay the foundation for sustainable reform.
    We have embraced reform and all that it encompasses. 
Parents and communities have demanded that we improve the 
educational outcomes of the children of the District of 
Columbia and effectively manage the resources that we have to 
allocate.
    We have promoted transparency by communicating our problems 
and how we fix them. We have given our students more choices 
for improving academic performances in two years.
    We have done exactly what we have been entrusted to do on 
every front: student achievement, special education, management 
and financial accountability.
    We have raised standardized-test scores in approximately 60 
percent of DC schools, and increased reading performance at 
nearly every grade level.
    We have showed gains in almost all of our original 
transformation schools, including dramatic gains of 15 to 20 
percent in test scores at a number of them, and a significant 
reduction in the number of students transferred to special 
education in those schools, while overseeing a successful 
charter school program that serves 16 charter schools with 
2,880 students.
    And under our oversight, we have closed four malfunctioning 
charter schools. Combined with the other charter schools, 54 
percent of the charter schools fall into a failing category, 
and we are working to address that because we have the same 
responsibilities in that area over charters that we have over 
regular DC public schools.
    So those children, as well as DC children, will have to be 
placed in schools that are not failing, or the parents will 
have to be given the choice to do that prior to enrollment next 
year.
    We teach more AP courses and an increased number of 
students are taking the SAT for each of the last three years.
    In special education, we have expanded our capacity to 
serve emotionally disturbed, autistic and bilingual special-
education students closer to their homes.
    We are finalizing contracts with non-public providers to 
serve students that cannot be served within the DCPS schools at 
a reasonable cost.
    Before we got there, there were no contracts whatsoever, 
giving DCPS no right to monitor these schools that are outside 
the District of Columbia, and our students were often charged 
more than they would charge regular students.
    We have established task forces with District government 
officials to better address deficiencies in the program and 
develop collaborative approaches to solving problems.
    Saving $13.8 million since January of 2002 due to better 
fiscal management in the DCS division of special education. We 
were not, though, upon promises, able to reinvest that to 
create more spaces. It was cut.
    Developed and implemented a seven-point reform plan on 
improving services and controlling costs over time. We put into 
place a business plan for a strategic reform with counsel from 
the McKenzie Company.
    This plan serves as our road map for the educational and 
management improvements that we have made. We have generated a 
pool of more than 4,500 applicants for school positions, 
allowing us to replace over 600 uncertified, underqualified 
teachers, and we have hired 60 principals over the last two 
years.
    As well, we have made a partnership with Elitis New 
Schools, which is a leading school-leadership development plan 
which you enter based on some really rigorous competition.
    We are also developing a principal-evaluation system which 
will shortly be amended.
    Transform the central offices by abolishing 800 positions, 
and hiring a new leadership team which represents the top 
talent in the United States.
    And I would also like to mention here, because it does 
reference a huge cultural change in DC public schools.
    Before it was impossible for a white person or a Latino 
person to survive in the District of Columbia school system in 
almost all roles.
    And that has really changed, and as a result of that we 
have gotten stronger African-American people, Latino people, 
Asian people in our forefront of leadership.
    And I think that that is very important as we seek to have 
our children expand their own horizons.
    We ended the past fiscal year with a modest surplus.
    The school system has moved seamlessly to a performance-
based budget, our primary management tool that links the 
schools systems expenditures to accountability and performance.
    We prepared a schedule aid that lists each position within 
the school system by job title, along with salary and benefit 
cost of the position.
    We know where each DCPS employee works, what he or she 
does, what his or her salary and fringe benefits are, and what 
the funding source is.
    There are, in fact, no ghost employees, and because we do 
not get our grants posted and loaded until about five months 
into the program, new employees are listed on regular-
appropriated funds, before that they are loaded.
    And we have been working for two and a half years with the 
CFO's office desperately, you know, trying to devise some other 
system where, you know, we do not have to go through such 
Mickey Mouse, and it not only retards the programs but it makes 
us look administratively retarded when we really are quite 
efficient, but certainly more efficient.
    The fiscal year, we shall implement a new accounting 
payroll and personnel system, PeopleSoft, which will aid us in 
better managing and controlling resources.
    We believe that the Mayor and the Council's recommended 
budget is wholly inefficient to build on the foundation of 
success that we have established.
    The Mayor and the council are recommending a 2004-proposed 
local operating budget request of $742.6 million, an increase 
of $29.1 million above our revised 2003 budget of $713.5 
million. That is after $30 million was cut from that in 
September.
    The Board proposed to the Mayor a local operating budget in 
the amount of $847.8 million. In preparing our budget request, 
the board instructed Dr. Vance, our able superintendent, to 
tell us what he realistically needs to adequately and 
effectively educate DCPS students, and then to move down from 
that because we knew we could not come up with his whole 
request, and we met with every provision in the school system, 
board members did.
    And we spent many, many hours tearing through the budget.
    We engaged the community in public hearings and consulted 
with our partners, parents, principals, and went through quite 
a public process.
    We added $64 million of mandated cost to produce a new 
baseline budget of $803.2 million. That included $44.2 million 
for union contracts and negotiated pay raises; $2.0 million for 
legal settlements and judgments; $7.8 million for inflationary 
increases to fix electricity, water, sewer and other required 
expenses.
    In addition to that: $64.6 million, mandatory cost 
increase. The Mayor's proposal does not include in the school's 
budget funds the funds necessary to implement the requirements 
of the No Child Left Behind Act.
    He does set aside a small sum of money to do that, but it 
is not in the school budget and the sum of money has no 
relationship to the real cost of No Child Left Behind.
    The Board requested $11.0 million to implement the 
requirements of No Child Left Behind, making sure that we were 
absorbing everything that we could from those costs before 
asking for new money.
    No criteria has been established for DCPS's use of the 
funds that we have set aside. We believe this to be highly 
inefficient and it will force DCPS to use its limited resources 
before accessing funds for federally mandated responsibilities, 
giving us the same problems that we have with our grants.
    We hope that Congress will consider placing these funds 
within the DCPS budget. We then added to the $803.2 million, 
$44.6 million in educational-reform investments, which include 
$15.3 million for structural maintenance improvements, for 
asbestos abatement, for accelerating academic achievement, for 
investment in our transformation schools.
    The Board has provided to the Council legislation that we 
believe corrects a serious deficiency in the definition of 
special-education rights used in the per-pupil funding formula 
which Congress enacted to ensure equitable funding of students.
    The current definitions do not reflect the actual cost to 
providing services to level 3 and level 4 special-education 
students. We were informed that the Council is willing to 
approve the change, but because the fiscal impact was $9.4 
million, the Council did not make the change in the definitions 
in the per-pupil formula, although they did that for charter 
schools.
    Congress can help by changing the definitions and funding 
the necessary change to the per-pupil student formula. If a 
system is not provided, then DCPS will have to absorb those 
costs through reductions in general-education expenditures 
which are already underfunded.
    The Board requested a six year capital budget of $2.0 
billion to implement our modernization program. You said in 
your opening comments that our buildings were on the average of 
63 years old, and they are not only of that average, but they 
are 63-year-old buildings that have not been properly upkept.
    The buildings were built by the federal government, and 
then they were managed by the city.
    And then, they were given over to us in 1991 in a heinous 
state of disrepair. The U.S. Army Corps of Engineers did an 
assessment in 1996, concluding that 90 percent of them needed 
to be replaced or gutted and rebuilt.
    The Board has made some progress in modernizing its 
facilities, but in many respects, we have just begun. This 
budget zeros out in 2005, and there is only $168 million 
available in the budget that you have.
    I have said many, many times that we need to work with you 
to devise some kind of Marshall Plan on school facilities in 
this city.
    It is something that affects all school entities in the 
city, not just the DC Public Schools, but it is a horrific 
problem. The worst suburban school is better, by far, than our 
worst school.
    We still have many, many thousands of children going to 
school in classrooms with windows that you cannot see out of. 
With our maintenance request having been cut out, there is 
little that we will be able to do about that, as well. The lack 
of resources is our greatest challenge.
    Mr. Frelinghuysen. Ms. Cafritz, we each have a copy of your 
statement. Could you summarize if possible, the lack of 
resources issue, and maybe make some comments relative to the 
intrusion on the authority of the Board?
    Ms. Cafritz. Okay. I will summarize on that issue by 
saying, it is almost punitive, the absence of resources for 
schools in the city, and something has to be done about it.
    And I do not believe it will happen without the assistance 
of you who I am sitting before.
    And so that is the end of that issue. I will go to another 
one and I will try to summarize it.
    The Mayor and the Council have requested in the Budget 
Support Act that the District Home Rule Act should be amended 
to require the Mayor to submit to the Board of Education the 
budget mark that he gives us as opposed to what we see the 
schools needs.
    So that would just be that.
    And we think that that really is an encroachment on the 
Board's authority, and in addition, we think that it would not 
allow us to represent the best interest of the children and 
families we represent, and we think it uses the Budget Act for 
a purpose for which it was not meant.
    And you know that Senator Voinovich and Senator Thompson 
wrote about that last year, I think.
    There are many other things that reflect, in our opinion, 
an incursion on the authority of the Board as set forth in all 
of the related acts.
    There is not a lot that Congress has to do except follow 
that, you know, and really look at the money issue and the flow 
of the money issue in terms of federal grants and how, you 
know, we are always criticized about not spending the money on 
time, but then you look at how it flows, it is impossible.
    Even though we have a letter saying $20,000 is yours, you 
can not spend it until five or six months later when it goes 
through all of these unrelated systems.
    And we take it to heart when our leaders and citizens say, 
``This is a real conclusion,'' that education is the number one 
priority in the District of Columbia.
    We believe that without financial support we will not be 
able to build on the investments that this community has made 
and improve the management and fiscal accountability that this 
Congress and community have clamored for.
    There is a role for Congress. Congress can assist by 
helping us fund our modernization efforts. Without assistance 
we will be only able to apply band aids on buildings with an 
average age of 63 years.
    We will not be able to address the legacy of disinvestment.
    We are committed to working with you to ensure that DCPS 
meet the needs of all students.
    [The prepared statement of Ms. Cafritz appears on pages 198 
through 208.]
    Mr. Frelinghuysen. Ms. Cafritz, thank you for summarizing 
the latter portion of your remarks, and we recognize you put 
your heart and soul into this statement.
    As I read it over last night, I looked at it very closely, 
and each Member does have a copy of it so they can use it as a 
basis for any questions or comments they may have.
    Before recognizing Dr. Vance, let me welcome Congressman 
Weldon and Congressman Culberson.
    Thank you, gentlemen, for being here. Dr. Vance, please 
proceed.

                     Dr. Vance's Opening Statement

    Dr. Vance. Thank you, Senator.
    Chairman Frelinghuysen, and ranking members Chaka Fattah, 
and members of the DC Appropriations Subcommittee, I am Paul 
Vance, superintendent of the District of Columbia public 
schools.
    And, again, I am grateful to have this opportunity to come 
before you today to present briefly some of the progress our 
school system has made in our efforts to really move our 
children in the District of Columbia public schools to academic 
and personal excellence.
    Our mission has not changed, our mission still is the 
public school to graduate students who aspire to achieve and 
are prepared to participate fully in a free and democratic 
society.
    This is not a mere slogan. If this does not happen, we have 
failed our children. What is guaranteed, they shall fail us.
    It is our expectation that our students will leave our 
doors fully equipped to become students in institutions of 
higher learning, employees, managers, leaders, laborers, public 
servants, scientists, engineers and productive citizens.
    In order to advance them to these positions, we are 
determined to impart to them a solid work ethic, the skills, 
the knowledge, the technological know-how and the self-
confidence necessary to continue to go and develop in lifelong 
pursuits.
    The task has been and continues to be a very challenging 
one in our school system.
    As noted by Mr. Cafritz, in 2001 we began to implement 
Children First, the transformation of our Public Schools Reform 
Initiative, which was directed by the McKenzie and Company's 
development of our strategic plan, which has become our 
business plan, frequently known as our Bible and our road map.
    This initiative addresses three major areas: academics, 
mainly programs and student achievement; management, operations 
and infrastructure; and a community outreach, effective 
engagement of parents and community enterprises.
    The guiding principles which fast became the engine of this 
reform effort are simple ones: Establish high expectations and 
accountability of school system staff and students; a very 
clear focus on specific reforms for a sustaining time period; 
and three, concentrate on collaboration with an array of 
community organizations and agencies.
    We are well into the second phase of our transformation 
effort, and I believe we have made real strides in improving 
the academic performance and environment of our students.
    We have made genuine progress since last I came before you. 
Ms. Cafritz enumerated them, so I will not continue with the 
laundry list, but I would like to note that yesterday we did 
deliver a packet of information to your offices, Mr. 
Chairperson, which indicates our accomplishments and our goals, 
listed under each one of the goals developed with us and 
McKenzie.
    And if I were just to select a few which Ms. Cafritz 
happened not to mention, that we began----
    Mr. Frelinghuysen. I am not sure we got that information. 
Maybe it is on its way.
    Dr. Vance. I met with him early this morning and he assured 
me he had.
    Mr. Frelinghuysen. It may be up on Capitol Hill, but the 
clerk tells me she has not received it yet.
    Dr. Vance. We will have packets for you before you leave 
here, okay?
    Mr. Frelinghuysen. Good.
    Dr. Vance. Thank you, sir.
    What I think are really critical indications and really 
clear indications of progress is we began this past school year 
with 85 percent fewer vacancies.
    This school system generated a pool of more than 4,500 
applicants for instruction positions, namely a little more than 
400 vacancies in seven months, with 75 percent of those 
applicants possessing education degrees of lead-teacher 
experience.
    That runs against what the trend has been in our nation.
    We dismissed more than 600 unqualified, uncertified 
teachers over the past two years. That process is continuing.
    We generated a pool of 250-plus applicants for 25 school 
administrative positions in fiscal year 2003-2004, and we have 
hired over the past two and a half years more than 60 new 
principals. This is the consequence of an internal search and a 
national search, and those were replacements for principals who 
have been service, but whose service was evaluated as 
unsatisfactory or needs improvement.
    We have also secured recently a $9 million teacher-quality 
grant. We have implemented a principal-training academy, and so 
it goes.
    And I will see that you get that information and I will not 
continue with that laundry list.
    Ms. Cafritz mentioned that we are busily raising 
standardized-test scores in 60 percent of our schools, 
increasing reading scores in nine of our 11 grade levels in 
math scores and six out of 11 grade levels.
    We have transformed and entirely reconstituted 15 low-
performing schools and are working this year to the 
transformation to all of our high schools.
    This means that from the principal on down, we have 
replaced staff and identified target goals for improvement on 
specific time tables, standardized test scores and all 
transformation schools have increased and we do have the data 
which we are sharing with you.
    We established one of the first parent special-education 
service centers in the nation to assist parents of special 
needs children to navigate through the policies and procedures.
    We have implemented a facilities' master plan and have the 
goal of modernizing or building between six and eight new 
schools per year.
    For the first time in history, we have implemented a 
performance-based budget for fiscal year 2004 that will help us 
closely measure the effectiveness of budgetary spending and tie 
that spending to outcome.
    These and other achievements suggest system basics and 
provide system basics and provide the foundation for continued 
improvement efforts. We are moving forward in changing the 
culture of learning.
    We have, again, for the first time, a new clear standard-
based curriculum that spells out exactly what is expected of 
students in a uniform and consistent way across the entire 
school system.
    We are working hard at implementing the No Child Left 
Behind federal legislation and have just last week identified 
state-accountability standards of performance.
    These academic and program-reform efforts are 
simultaneously linked to changing the culture within DCPS. That 
aspect presents a formidable challenge for everyone.
    We face a real-life situation of years of neglect, 
financial waste and organizational inertia. Again, Ms. Cafritz 
has commented on that, so I will pass over it.
    It took us one full year to begin to uncover and identify 
the extent of these waste and inertia costs that were so deeply 
embedded as part of these business as usual.
    We have found a number of longstanding structural deficits 
that have contributed to the years of what may be called 
financial leakage in our school system.
    Chief among the contributors to our financial hemorrhaging 
was the lack of position control. Unbelievable as it may be, 
for years there was no schedule A whereby budgeted positions 
were identified as were people corresponding to those 
positions. We began the effort of compiling an accurate 
schedule A.
    We have hired an external auditor to carefully examine 
payroll data, staffing plans from individual budget units as 
well as the comprehensive organizational budgets from our 
budget----
    Mr. Frelinghuysen. Dr. Vance, we are going to see if we can 
do a little more summarization of----
    Dr. Vance. Okay. Yes, sir.
    Mr. Frelinghuysen. We are certainly in favor of initiative 
more than inertia as you point out. [Laughter.]
    Dr. Vance. Thank you, sir.
    In conclusion, sir, it is vitally important that our school 
system have the opportunity to continue the reform that is 
underway. The progress that we have made is an indication that 
our efforts are working, and though much still needs to be 
done, we are well on our way to the kind of systemic change 
that our business plan for a strategic reform envisions.
    Recently we submitted our school system's documentation of 
an enrollment of 67,522 students. That is an indication to us 
that we have stopped the downward spiral of students leaving 
our school system, and that process is beginning to level off.
    If we continue on that path, we anticipate in the future 
seeing spikes in that enrollment before a movement takes place.
    And these data, we very recently submitted to the state 
education office.
    It can be done, Mr. Chairman, and we would like the 
committee's support of our efforts.
    Thank you very much.
    [The prepared statement of Dr. Vance appears on pages 209 
through 220.]
    Mr. Frelinghuysen. Thank you very much, Dr. Vance.
    Batting clean up, Mr. Thomas Loughlin. Please proceed. 
Thank you.

                    Mr. Loughlin's Opening Statement

    Mr. Loughlin. Thank you, Mr. Chairman, and members of the 
subcommittee. Thank you for inviting the DC Public Charter 
School Board to testify at these proceedings.
    On behalf of the 21 schools that our board has authorized 
and the nearly 9,000 students that we serve, I am pleased to 
have the opportunity to come before you today to discuss the 
budget needed to enable charter schools in the city to grow and 
to thrive.
    Charter schools are independently operated public schools 
that are open to all District residents regardless of their 
neighborhood, ability, socioeconomic status, academic 
achievement or ethnicity.
    There is no exclusivity, no admissions tests or other 
requirements.
    At this time, approximately 15 percent of DC's public 
schools population is being served by charter schools 
authorized by either our board or the DC Board of Education. 
Many of these schools have waiting lists. Washington, DC leads 
the nation in the percentage of public-school students 
exercising school choice.
    With regard to the DC fiscal year 2004 budget, our major 
points of focus are the per-pupil funding allotments, 
facilities allowance, teacher compensation and retirement, and 
our own board's operating budget.
    DC's charter schools rely almost exclusively on the per-
pupil funding formula to support all school functions outside 
of facilities costs. The per-pupil funding law is intended to 
ensure that there is funding equity among all public schools.
    Recently, however, the DC City Council voted to provide an 
additional $31 million to DCPS outside of the uniform per-pupil 
funding formula to satisfy teachers union contractual 
obligations.
    Had this allocation been provided through the per-pupil 
funding allowance, however, as required by law, charter schools 
would have been provided with approximately $5 million of 
additional funds to equitably raise their teachers' salaries as 
well.
    Charter schools can operate at a disadvantage with 
recruitment and retention of teachers and other matters when 
funding decisions are made outside of legally sanctioned 
processes off-cycle. Our board maintains that all off-cycle 
school funding adjustments in DC should consider and equitably 
fund the charter schools.
    On facilities, one of the greatest obstacles facing charter 
schools is the challenge of adequate facilities. The per-pupil 
facilities allowance in DC is currently funded on the basis of 
the capital budget for DCPS schools, which by design primarily 
provides for building upkeep.
    This funding mechanism does not take into account charter 
schools' full real estate burden. Unlike DCPS, whose buildings 
are provided and maintained by the DC government, charter 
schools are responsible for all of their facilities 
requirements and costs in an increasingly competitive real 
estate market.
    While the current facilities allowance proposed by the DC 
council is an improvement on last year's, many charter schools 
continue to find themselves having to compromise program 
activities to fund their occupancy costs.
    The recent $17 million appropriation for charter schools 
facilities in DC was certainly appreciated, however, that one-
time shot in the arm will not eliminate the facilities 
challenges that schools will face in the years to come.
    The ongoing facilities conundrum will have a major impact 
on how existing charter schools will grow, and whether new ones 
will ever open their doors.
    This board would like to see a facilities allowance that 
takes into consideration the current challenges and 
responsibilities the charter schools must take on to make their 
facilities safe, inviting, and appropriate environments for 
learning.
    Teacher retirement. In accordance with the DC School Reform 
Act, charter schools are required to continue contributions to 
the teacher-retirement fund for former DCPS teachers.
    However, for the first four years that charter schools were 
open, the requirements were unclear to this board or to school 
administrators. Accordingly, charter schools did not deduct 
appropriate amounts from teacher pay nor did they contribute to 
matching contributions in some cases.
    Our board is now advocating for a retroactive payment of 
approximately $300,000 to the teacher-retirement fund to 
satisfy this payment shortfall.
    With respect to our board, for the past five years our 
board has been operating at an annual funding level of $480,000 
while the number of schools that we have authorized has 
increased from 8 to 21.
    The current level of funding right now does not cover our 
board's basic operating expenses, and as a result our board has 
been required to use a portion of administrative fees collected 
from our schools to offset operating-budget shortfalls.
    With the new requirement of No Child Left Behind, our 
responsibilities will increase. Our board is pleased that the 
DC council voted to increase our board's funding level to 
$660,000 for fiscal year 2004. This will allow the board to 
more fully support the development, achievement and 
accountability of current and new schools.
    On accountability, the DC Public Charter School Board is 
recognized nationally as having established strong application 
and accountability processes. Accountability plans which are 
established for five-year periods include numerous academic and 
non-academic indicators.
    Our first fifth-year high-stakes review will be held in the 
coming fiscal year. Charter schools are required and supported 
in their efforts to be accountable, responsible stewards of 
public money.
    In respect to charter-school performance to date, I think 
it is important to recognize that we are inheriting students 
that are a very challenging population to serve. We are working 
with these students. We do not measure our results just by 
absolute scores. Our primary measure is gain scores.
    We look at how students are performing and whether they are 
advancing from year to year. We find this particularly 
challenging at the high-school level where performance is the 
most difficult to sustain and to grow.
    As I said, the oldest schools authorized by our board are 
only completing their fifth year and they will be reviewed for 
charter renewal at the end of this school year.
    Our third-and fourth-year schools are showing movement in 
the right direction and some of the first-and second-year 
schools have made remarkable progress in a very short time.
    As previously noted, elements of per-pupil funding and the 
facilities allowance are currently derived without 
consideration of charter schools, special circumstances. 
Without adequate, equitable funding, parents and potential new 
students may be turned away and new schools face daunting 
prospects when opening their doors.
    It is our board's hope that those who influence and decide 
on the funding of education in this city recognize the value of 
full investment in public charter schools. We appreciate the 
opportunity to provide this input and invite any questions you 
might have.
    [The prepared statement of Mr. Loughlin appears on pages 
221 through 227.]
    Mr. Frelinghuysen. Thank you, Mr. Loughlin and all 
presenters.
    We will continue to operate as the committee has in the 
past, under the five-minute rule for questioning, the timers 
being our guide, and recognizing members in the order that they 
arrived at the hearing, alternating between the majority and 
minority members. I will go first.

                             SCHOOL CHOICE

    The issue of school choice in the District is at the 
forefront with the recent debate over a pilot-voucher program. 
There are strong opinions on both sides of the issue, to say 
the least.
    Congressman Davis, Chairman of the Government Reform 
Committee held a hearing this past Friday, which I closely 
monitored, where the Mayor said he was working with supporters 
in the Department of Education on a voucher program.
    In a press release from the Committee on Education and the 
Workforce, Chairman Boehner was quoted as saying he believes 
legislation to establish a volunteer school-choice initiative 
for parents in the DC Public School system can be introduced by 
next month.
    I know, because I have been around for a while, that there 
are a number of strong opinions about school vouchers, and 
people who voice those opinions have substantive reasons to be 
for them and against them. I appreciate it and recognize the 
people who hold these very strong convictions.
    As Chairman of the subcommittee that will likely be 
responsible for funding a voucher program once it is 
authorized, I intend to follow what the Mayor, the Department 
of Education and the authorizing committees are doing very 
closely. I am sure all members of the committee feel the same 
way.
    Let me ask each of you how you would envision a voucher 
program working in the existing District school system.
    Ms. Cafritz, maybe we will go to you first.
    Ms. Cafritz. Well, as you probably know I testified for 
vouchers on the voucher issue, and my reasons for that are as 
follows.
    It became clear to me that behind closed doors there were 
negotiations going on for vouchers for DC, but none of the 
educators were at the table, and none of the things that we 
need were really being talked about, and even parents have 
brought that up.
    And I thought it was really important to open up the 
process. All right?
    Secondly, when you are talking about vouchers in the 
District of Columbia, which is where I think they have to be 
only, and I completely disagree with Flake's bill on sending 
our kids to Maryland and Virginia.
    And I think that if there is a voucher bill, they have to 
be distributed for students to attend schools in our city, 
because otherwise I think it would denude and be destructive 
for our neighborhoods and the character of our city's life.
    Secondly, I think that we need to understand that a 
majority of school children are going to remain in the DC 
Public School System, and that it is totally dishonest for our 
local leaders, which is what has happened, to tell us that, we 
are really going to support public education.
    And public leaders since I have been on the Board, 
certainly, and I think there is some history preceding me, has 
been almost punitive in dealing with public education.
    The people who oppose vouchers even, talk about heralding 
our transformation school's plan which have worked primarily. 
But the funding for----
    Mr. Frelinghuysen. And we want to hear about, the 
transformation school's, how successful that is working, in a 
few minutes.
    Ms. Cafritz. But the funding for it has been undercut. The 
funding for all the new initiatives that we are doing to make 
public schools better has been undercut. So the possibility of 
us being able to compete is, you know, it is like our hands are 
tied and we are blindfolded, and then we are told to compete.
    Now, at the same time, if you gave me 1,200 mothers who 
looked me in the eye and said, ``There is no room in my 
transformation school. I do not have any more money to 
transform more schools.'' If she asked me, "Should I go to this 
Catholic school around the corner that is transforming, too?" 
What could I say to that mother but yes, because at least that 
is, you know, 1,200 more kids who will get a decent education.
    But at the same time, it is important to understand that 
the days of nuns on poverty files running around for free is 
over. Okay?
    And also it is important to understand that we are talking 
about funding parochial education, and that is where vouchers 
go.
    And we need to deal with how we are going to make them 
stronger to deal with our children, as well. And they should 
definitely, definitely be limited to kids who qualify for free 
lunch.
    Mr. Frelinghuysen. Thank you.
    Dr. Vance, very briefly, and Mr. Loughlin.
    Dr. Vance. My answer is very brief. I am an employee of the 
school board. I work for the school board. Not that long ago 
the school board took a unanimous position on this publicly, 
and it was against implementation of vouchers in the District 
of Columbia.
    That is my response to it. Thank you.
    Mr. Frelinghuysen. Thank you.
    You are all professional educators who have been around. 
You are all familiar with the issue, but particularly with the 
charter-school movement and certainly the impetus and need for 
vouchers.
    Mr. Loughlin, any comments?
    Mr. Loughlin. Obviously our board is very focused on school 
choice, but, you know, having said that, our board has not 
taken a position on vouchers because our board is about charter 
schools.
    And so, we focus exclusively on charter schools.
    So my comments would be, I guess, two general comments. One 
is, to date we have been successful in offering school choice 
to 15 percent of DC's public-school students through offering 
charter-school options.
    And we see certain elements of difficulties that schools 
face right now, that we are very much focused on how to fund 
these schools to overcome some of these challenges to make 
those charter schools more successful.
    So our primary concern is supporting the charter schools in 
that regard.
    And secondly, on the voucher issue, I think just from our 
experience and our learnings in the six years that our board 
has been in existence, we have learned an awful lot about what 
it takes to open up new schools, what it takes to authorize new 
learning environments.
    And so, I guess on a personal level, it is not a board 
view, I am concerned about what mechanisms will be in place 
going forward to the extent that voucher initiatives are 
undertaken in terms of qualifying high-quality schools and 
appropriate environments for the children.
    Mr. Frelinghuysen. Thank you.
    Mr. Fattah, thank you for your patience.

                     CHARTER SCHOOL ACCOUNTABILITY

    Mr. Fattah. Thank you.
    Let me ask a question on the charter schools. First of all, 
just for the record, it is of note that there are two charter-
authorizing mechanisms in the District, which has to be 
duplicative in some form or fashion.
    I am a supporter of charter schools, but one of the 
problems that we see nationwide is that as the results are 
starting to come in from this experiment, is that a great many 
charter schools have not been performing as well as, I guess, 
many of our people had hoped.
    When you look at the numbers here in the District, it is 
apparent that if you compare the charter schools and the test 
scores in the District schools, the District just seems to be 
doing better than the charter-school population in the main.
    I want to know, as you approach this five-year 
reauthorization, I know that the District has closed down four 
charter schools that were not functioning, and I want to know 
whether your board fully intends to hold other schools 
accountable that are failing.
    Mr. Loughlin. Well, we certainly intend to hold our schools 
accountable.
    I do not know what the result of the fifth year review will 
be until we conduct the review. I think it is important to 
recognize that our board has authorized, in our view, schools 
to open in some of the most under-served parts of the city.
    We are dealing with some very challenged populations, and 
the students are coming in at a certain performance levels. We 
are trying to increase those performance levels.
    Mr. Fattah. That is really not the answer I am looking for.
    What the president has said is that there can not be some 
culture of low expectations in which you automatically assume 
because some child is coming from a difficult circumstance, 
they cannot learn.
    Since your board has this responsibility and since this 
Congress has been very supportive of charter schools, when this 
whole thing started, I want to know whether or not the ones 
that are not working are going to be held accountable by your 
board?
    Mr. Loughlin. Yes, they will be held accountable, and at 
least part of my answer is how do you define what is working 
and what is not working?
    For example, these schools that serve students who have 
been through the juvenile justice system, those students may be 
performing at a very low score level, and in those cases, if 
they are not hitting certain scores by No Child Left Behind----
    Mr. Fattah. I do not want to deal with an anecdote. I 
really would like if you, at some point, would submit to the 
committee what criteria schools are going to be considered for 
reauthorization for charters, because if your board cannot 
handle this in some, you know, objective fashion, then we have 
to figure out how to do it, because the idea of charters is to 
create experiments that work so that hopefully public-school 
systems can learn from them.
    Mr. Loughlin. Sure.
    Mr. Fattah. Okay, so we do not want to keep a continuation 
of a failure.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T7731A.113
    
    [GRAPHIC] [TIFF OMITTED] T7731A.114
    
    [GRAPHIC] [TIFF OMITTED] T7731A.115
    
    [GRAPHIC] [TIFF OMITTED] T7731A.116
    
                            RETIREMENT FUND

    Mr. Fattah. I want to ask you one other question based on 
your comments today, which I was not aware of, but you made 
this note that there was some shortfall in the responsibilities 
that your schools had to make payments to the retirement funds 
for teachers.
    The language was vague. Were any payments made to the 
retirement fund?
    Mr. Loughlin. Some of the schools managed through that 
process, and other schools did not understand how to manage it.
    Mr. Fattah. So the $300,000 shortfall represents what, like 
a 2 percent shortfall, a 10 percent, a 50, a 90 percent 
shortfall? Can you give me some understanding of something that 
is of relative import?
    Mr. Loughlin. Yes, I do not know the answer right now, but 
we can provide that.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T7731A.117
    
    [GRAPHIC] [TIFF OMITTED] T7731A.118
    
    [GRAPHIC] [TIFF OMITTED] T7731A.119
    
    Mr. Fattah. Okay, and the way that you want to resolve this 
shortfall, is how? Is this $300,000 going to be made up in your 
mind?
    Mr. Loughlin. We are requesting the additional funds to 
resolve it. The schools do not run at an operating surplus each 
year, and so, looking backwards to find that they have an 
obligation they now understand that they have to fund if they 
do not have cash in their budgets right now to fund----
    Mr. Fattah. Over the six years did your board at any point 
indicate to schools that they have responsibility----
    Mr. Loughlin. We had discussions with the schools, and we 
had discussions with the school-systems retirement-plan people 
also, and there was some confusion about exactly how this was 
to be implemented.
    So they want solid answers.
    Ms. Cafritz. If I could hone in on that
    Mr. Fattah. Certainly.
    Ms. Cafritz. Half the charter schools are under our 
governance and our charter-school Executive Director, Dr. 
Belton, is behind me.
    Our charter schools are paid up to date with that, okay, 
and we have gone through the charter-school closure process, 
okay, based on fiscal mismanagement levels and our closure 
process for academic reasons which you can only do after five 
years will be plugged into No Child Left Behind.
    But another thing that is important for you to know, 
because again I think it is punitive and this Board receives 
less money to take care of schools, and we have 10 more 
schools, we have 10 new applications, we have new schools 
coming on.
    I mean, it is the same story, but it is funded very 
differently.
    And the only difference is rent, because we, the Board of 
Education, has absorbed the rent for our charter-school 
offices, but the money has to come from somewhere, and there 
should be some parity there.
    Also, the $30 million that he mentioned about them putting 
in enhancements--they should put it in the base budget and it 
should have been for everyone. Okay?
    There is some fear that we are being funded at such a low 
level that we would not use it to finish funding our teachers' 
raises, and so they set it aside as enhancements.
    But also the maintenance and upkeep dollars that charter 
schools get should be in the base also and public schools 
should get it.
    Mr. Frelinghuysen. Thank you for that clarification.
    Thank you, Mr. Fattah.
    Mr. Cunningham has been chafing at the bit.
    Mr. Cunningham, the time is yours. Thank you for your 
patience.
    Mr. Cunningham. Define ``chafing.'' [Laughter.]
    Thank you.

                   Congressman Cunningham's Statement

    First of all, I would like to introduce Katie Hanvy, my 
staffer, and she is as good as it gets. My office received your 
recommendations and the information regarding the things that 
you have done.
    And matter of fact, Katie sat me down and went over the 
information point by point. I mean, they do not get any better 
than Katie, and I am very fortunate to have her on staff.
    There is an Irish saying: ``If you talk the talk, you walk 
the walk.'' Or at least the Irish should have said it first. 
[Laughter.]
    I have remained on this Committee by choice, even though 
most members try to get off of this committee. It is a 
difficult committee.
    Mr. Frelinghuysen. You say that in a positive sense.
    Mr. Cunningham. Yes, I do. During my time in the Navy, I 
wanted to go to a squadron that had a lot of problems, instead 
of going to Top Gun, because I believe that you can make the 
most change in these situations.
    This is why I have elected to stay on this Committee.
    I would like the City to recognize, though, why DC Public 
Schools inherited 63-year-old buildings and how we arrived at 
this point.
    I think the DC government, for a number of years was 
defunct and lacked leadership. I think that Congress let the 
city run on its own devices without much oversight, and I 
believe the problems that DC Public Schools have today are 
inherited.
    Now, I want to tell you about a very controversial 
individual, especially to Democrats, and his name is Newt 
Gingrich.
    But Newt set out in the Republican conference to say: ``We 
are going to improve the education system in Washington, DC.''
    I recognize the improvements DC Public Schools have made. 
The Board of Education was mostly political appointees, and 
many of them that were in the finance office never took an 
accounting course. One of them never finished high school.
    So when you have that lack of skill at the administrative 
level, what can be expected from the school system?
    We changed that, you all changed that, and I recognize the 
leadership that you are showing here, today.
    I remember the problems with the roofs on the schools. 
School had to be canceled because the roofs were unsafe for the 
kids.
    The security systems were also problematic. We gave you new 
computers and there was a large number of those computers that 
were ripped off the next week, but DC PS has improved in that 
area.
    The fire chiefs had to manage the school systems because 
the fire hazards were so bad.
    We have come a long way and I recognize that.
    I remember that when you offered summer school, we had so 
many kids that volunteered to attend summer school. This was 
not because they had to, but because they wanted to.
    You show our children the light at the end of the tunnel 
and they want to reach it. They want a good education 
desperately, and I recognize that as well.
    The cost per student is higher in DC than San Diego. That 
is an obvious statement for a fiscal conservative to make.
    But when you look at why, you see that DC PS is paying off 
63-year-old buildings that were not maintained and when you are 
trying to improve a Public School system, that cost is 
accounted for in per pupil spending.
    I would like to see the amount per student itemized without 
the overhead, because I think that you will find out that 
actual education costs are very low in DC. We need to improve 
that in this committee and support it.
    One of the reasons that I am mad (and it is not necessarily 
you), it is because of Democrats.
    Here is why. If you build your schools, without Davis-Bacon 
you can save 20 to 30 percent on construction cost. But 
Democrats will not do that because they are tied to the unions.
    The trial lawyers are also driving up education costs. You 
know, you look at the caps that were ripping off the system in 
IDEA. Alan Bursyn was a Clinton appointee, who is now the 
superintendent of San Diego City Schools. He recognizes that 
these cottage organizations are ripping off IDEA and kids with 
special needs.
    I want IDEA money to be spent on the kids. I want a new 
system and good teachers. We are losing good teachers because 
of the trial lawyers.
    The only difference between a rattlesnake and a lawyer on 
the highway is that there is a skid mark before the 
rattlesnake. [Laughter.]
    Trial lawyers rip off these systems--even though many 
members in Congress are lawyers, Republicans and Democrats.
    That is my pet peeve. [Laughter.]
    Mr. Frelinghuysen. He is just getting started.
    Mr. Cunningham. So I challenge you: when you talk about the 
revenue per students to do so in other way.
    My wife is the chief of staff for the assistant secretary 
of education for management.
    Nine months ago they told the civil servants that the 
Department of Education was getting rid of the consultants 
because they were paying them about $10 million per year. The 
Department said, ``Hey, we are going to do this in house.''
    The civil servants were told, ``You need to get in and 
learn the computer systems.'' Nine months later they went in, 
because they were told to find how much money was being spent 
on student loans. But, the civil servants could not find the 
manuals.
    They did not even know the code words to open the 
computers.
    Now, I have met some very hardworking, good civil servants, 
however you will find in many education system that a high 
percentage of people that are receiving a paycheck and not 
working.
    Your number one issue ought to be the people that are put 
in charge of the education system, to manage and teach. If you 
do not RIF them, at least train them and get them up to speed.
    I yield.
    Mr. Frelinghuysen. Thank you very much, Mr. Cunningham.
    Dr. Weldon.

                            EDUCATION COSTS

    Dr. Weldon. Good morning. Good morning, Mr. Chairman.
    I want to thank you for your dedication to trying to do 
what I think everybody in the room wants to get done, and that 
is improve education in the District of Columbia.
    I know for me personally, I count myself very fortunate to 
live in America. I think it is the greatest nation in the 
world, and it is certainly a delight to be able to live in 
freedom and to have the opportunities I have.
    But it certainly grieves me to see and to know that there 
are many people who do not have the opportunities that I have, 
and one of the things that I really strive to do is to try to 
bring opportunities--we are talking about education today, and 
education is a great example to the less fortunate.
    I know when I was first running for Congress in 1994, one 
of the most moving people that I met was an African-American 
lady. I had actually known her at the hospital. She was a clerk 
at the hospital, and she was a single mom, I knew she was a 
single mom.
    She proceeded to tell me her story while I was running for 
office about how she had a son, her own child, who had had 
problems in the public system and she had to put him in private 
school.
    And she was essentially living in tremendous poverty in 
order to be able to pay her son's private-school tuition each 
month, but she was gladly doing it. She was a Christian lady.
    And I was just moved by her testimony.
    I do want to get back to what Mr. Cunningham was saying, 
because the thing I think makes it really hard for us to just 
put more money into the public system.
    You know, we have a lot of pressures on us. You know, 
people are coming to us with real needs. I mean, we have the 
war on terror. I am on the Health Committee, and we have all 
these disease victims who want more funding through NIH, and 
this is a worthy cause. The list is very long of worthy causes.
    But when people see these published figures of, you know, 
$11,000 per student in the public school system, it is very 
difficult for Republican or Democrat to just throw more money 
at this, and especially when, you know, private schools in the 
District have an average per-student cost I think of about 
$4,500 or in that range.
    Ms. Cafritz. No. No, no.
    Dr. Weldon. It is higher than that?
    Ms. Cafritz. Much higher.
    You are referring, sir, to parochial schools.
    Dr. Weldon. The parochial schools.
    Ms. Cafritz. Ninety five percent of which are Catholic, but 
they are church-related schools, and their average now, 
subsidized though, is $5,100.
    Dr. Weldon. Well, the question Mr. Cunningham was asking is 
a very important one. Do you have that figure? Do you know how 
much of your costs are related to these facilities? I mean, 
because that is a very important piece of information. If we 
had that it makes it easier for us to justify putting more 
money into the system.
    Ms. Cafritz. All right. You are asking if we have the cost 
per child for facilities?
    Dr. Weldon. Yes.
    Ms. Cafritz. Okay. A standard cost, you know, sort of the 
national standard in terms of maintenance is $250 a child per 
year.
    And that is, you know, flat out, you know, standard. In our 
area, it is probably a bit higher, you know, and we can 
benchmark those costs for you.
    Dr. Weldon. Now, about the voucher program----
    Ms. Cafritz. But that is maintenance, okay? That is not 
buildings.
    Dr. Weldon. But you cannot give any breakdown right now of 
your cost per pupil per year of where that money is going and 
how much is going to facilities, how much of that is going to 
overhead in terms of the school board and the bureaucracy in 
compiling with federal regulations----
    Ms. Cafritz. We do. Yes, we definitely do have those 
figures. First of all, to split it between schools and capital. 
Capital: The proposal is for $168 million for next year, and 
that does not get us anywhere near our requirements.
    We have our chief operating officer here who can tell you 
specifically some of the other figures.
    Dr. Weldon. I think my time has expired. And by the way, I 
appreciate all of you. You are very dedicated professionals and 
you obviously care about the kids, the Chairman cares about the 
kids, everybody on the Committee cares about the kids.
    If you can give us a breakdown of that $11,000 figure in 
terms of how much of that is going to the various categories of 
responsibility you have to fulfill and in particular, how does 
that compare to other public institutions.
    It would be very valuable to me as we look toward viewing 
your budget for the upcoming year.
    I think my time has expired, but I just want to, again, 
reiterate how much I appreciate the Chairman's dedication to 
trying to do something here. And I am very pleased that the 
Mayor and others are coming out in support of doing a voucher 
pilot in the city.
    Mr. Cunningham. When you provide that for the record, could 
you include that and IDEA costs as well?
    Ms. Cafritz. Yes, we will, and rather than read what we 
have, I will get you an entire package. Okay? Because there are 
certain things that are not included in here.
    [Clerk's note.--The information requested was not provided 
in time to be included in the record.
    Mr. Frelinghuysen. Thank you, Dr. Weldon.
    I would also like to include in the record the statement of 
Eugene Hickok, who appeared before Congressman Davis' committee 
last Friday. I found that edifying, some of his remarks. If we 
could do that?
    [The statement of Mr. Hickok appears on pages 228 through 
236.]

                   TRANSFORMATION SCHOOLS INITIATIVE

    Mr. Frelinghuysen. I have some questions that relate to 
transformation of schools.
    Dr. Vance, you referenced the Transformation of Schools 
Initiative, and while I think we know it is in the early stages 
of implementation, we understand that there are some signs of 
success. Could you briefly describe this initiative for the 
subcommittee and tell us what kind of early results you are 
seeing and what plans you might have for expansion?
    Dr. Vance. Initially it was designed to transform 14 
historically low-performing schools in the District of 
Columbia.
    In those schools, we replaced a principal and we gave the 
new principal the authority to hand-pick a new staff to retain 
those members she or he cared to, and to recruit and enlist 
others to come there. We put money in there for some minor 
maintenance and repair, likewise we implemented a reinforced 
curriculum.
    I think the other thing that was very significant, and this 
was the level of cooperation between ourselves and the city's 
human resources agencies, that is parks, recreation, social 
services, mental health because there was collaboration there.
    And an example of the level of cooperation was initially in 
16 schools that were not only transformation schools, but 
others. They placed one mental health professional.
    Given that level of cooperation with the Department of 
Mental Health and the Department of Health, what we saw was 
remarkable.
    One, we saw a decrease in the number of emotional outbursts 
with youngsters, decrease in the number of youngsters at the 
lower primary levels being referred for special education, 
fewer youngsters being suspended. What we also saw was more 
parents becoming involved in the schools.
    When we did test our youngsters with STAT-9 Program, we 
showed dramatic gains in STAT-9 test scores in four of the 
original T-9 scores.
    And I must say dramatic scores, like Kramer Middle School, 
and Simon Elementary School where the gains was high as 24, 28 
percent increase, and that has continued.
    One other, I think, remarkable statistic that came out of 
this was stability of the faculty. What we found out with the 
schools--we are talking about low-performing schools--each year 
they would have remarkable high turnover of teachers.
    Those schools tended to get then teachers who were not 
high-performing teachers in other locations and they had 
somehow been passed around until they reached these schools.
    But we have broken that cycle where those teachers are 
concerned, and what we are beginning to see----
    Mr. Frelinghuysen. How did you literally break the cycle? 
Did you have the authority to do it?
    Dr. Vance. Yes, sir. We have had the authority to do it all 
along. We have conducted, with the help of Council of Basic 
Education, a principal's institute. Single purpose: teaching 
principals to become instructional leaders, major emphasis on 
the evaluation of teachers.
    We have a system that I think is a good plan.
    If there is a teacher who needs improvements, needs support 
or assistance, having poor performance, we do have a plan to, 
one, help that teacher, and if there is not improvement, to get 
rid of that teacher.
    And it is a plan we work cooperatively with our Washington 
Teachers Union. We have trained our principals, and they have 
begun to use that to a much greater degree. That, I think, was 
significant.
    The critical thing was removing those teachers from the 
schools initially, and now the plan is to consider other 
methods.
    Ms. Cafritz and the school board have directed the 
superintendent to benchmark what other school systems in the 
country have done with pre- and active-service assessments of 
our teaching and administrative staff, that is knowledge and 
ability, skills in the content areas, and likewise with our 
administrators.
    That is something we are currently doing, and shortly, I 
will be bringing a report of my recommendations.
    Mr. Frelinghuysen. So the early results are positive. You 
have outlined those, and are there plans for expansion?
    Dr. Vance. Yes. This year we are really becoming ambitious. 
We are going to take on all of our high schools, so I am 
certain you will be hearing about us.
    Mr. Frelinghuysen. Ms. Cafritz.
    And then, I am going to Mr. Fattah. He has been very 
patient.
    Ms. Cafritz. One of the things that are very important to 
note is that we really have to work on with your committee.
    This budget as presented by the Mayor does not contemplate 
a significant increase in transformation schools, and we have 
enough, you know, good practices that we know work that need to 
be put in other schools. Okay?
    The second thing is that when you completely change the 
staff at a school, you can replace 50 percent of the faculty 
and know that 50 percent has to be placed somewhere else.
    And we have already hired, often, better-prepared, younger 
teachers, and we have to figure out, you know, how to approach 
this.
    When you created the Control Board and you gave them the 
tools of, you know, reform in terms of personnel, but we are 
going to need some help there.
    Mr. Frelinghuysen. Well, I am going to turn to Mr. Fattah, 
but I would like to know where some of these people go if we--
--
    Ms. Cafritz. That is right.
    Mr. Frelinghuysen. I would like to know literally what 
happens with some of these individuals.
    Mr. Fattah, thank you for your patience.

                             TEACHER SALARY

    Mr. Fattah. Thank you, Mr. Chairman.
    What do we pay the average teacher in the District now, Dr. 
Vance.
    Dr. Vance. Yes, sir. The average salary of our teachers, 
would be our latest calculation of working our budget was 
$54,000 to $56,000.
    Mr. Fattah. How does that compare with the neighboring 
districts?
    Dr. Vance. It is lower. When I left Montgomery County our 
average salary of our teachers was close to $60,000. I believe 
it was $58,500.
    Mr. Fattah. It would be safe to say that if you look at the 
surrounding districts that we would be at the lower end.
    Dr. Vance. Yes, sir. We are at the lowest end.

                             CLASSROOM SIZE

    Mr. Fattah. And the classroom size, the average classroom 
size in the District? How many kids in a classroom?
    Is there a differential in the earlier grades versus the 
higher grades?
    Dr. Vance. I think the differential is consistent 
throughout the school system. In our lower grades with the use 
of what we call full-time equivalency, we would average 20, 26 
youngsters per classroom.
    Mr. Fattah. When you were in Montgomery County, what was 
that comparative number?
    Dr. Vance. In early childhood education, it ranged between 
16 and 18. In grades one and two, it would be 18 through 20.

                               TECHNOLOGY

    Mr. Fattah. Can you tell me what the availability of 
technology is, you know, computer area, the student ratio in 
the District, in the high schools for instance.
    Dr. Vance. Well, of course the goal was to have one 
computer per child, but that is not the case.
    We have two problems. One is the wiring of the schools, and 
that is, as noted, extremely expensive, and so, we would like 
to go faster, but we are compelled to go much slower.
    The other reason is our buildings are so old, as noted, and 
every time we punch a hole in the wall, we have almost a half-
million-dollar project on asbestos abatement.
    So it is not nearly anything close to what it should be, 
sir.

                          GUIDANCE COUNSELORS

    Mr. Fattah. In terms of the high schools, can you give me 
some understanding of what the availability is on guidance 
counselors on a per-student basis in the District?
    Dr. Vance. Right. We have a very high ratio here in the 
District, amazingly high, I would say would average, I think it 
is one to 500 students.
    And we really can not afford the luxury of one counselor 
being set aside just to deal with college and college 
placements, but we have received excellent support from DC CAP. 
They have placed one counselor in our high schools to work on 
that program.

                           SPECIAL EDUCATION

    Mr. Fattah. We heard a little bit about that in our last 
get-together as a committee, and in terms of the per-pupil 
expenditures, because it might be helpful to eliminate this 
issue a little bit.
    What portion of this $11,000 is spent on special ed and 
other legally binding responsibilities on the District like 
transportation costs and other things?
    Dr. Vance. One third of our entire operational budget goes 
for special education. That is one third of that budget.
    Mr. Fattah. So when people talk about this $11,000 per-
pupil expenditure, that is a false figure.
    Dr. Vance. Yes, sir.
    Mr. Fattah. Okay. It does not have much to do with the 
relevance or how much you actually can put behind each kid?
    Dr. Vance. No, we intend to show the chairperson and the 
members of the committee those facts.
    Mr. Fattah. Well then, all this talk about vouchers and 
alternative mechanisms, what we have learned is people have no 
interest in special-ed kids when it comes to admitting them to 
private schools or these alternative schools.
    At least as has been the case everywhere else, these 
youngsters would not be desirable, and in the minds of others 
that we want to give these public dollars to, they would be 
left in the charge of the DC school district in all likelihood, 
right?
    Dr. Vance. Yes, they would still be our responsibility.
    Mr. Fattah. So as we go forward out of Congress, as you 
have heard from some of my colleagues very anxious about this 
question about vouchers, I just want to understand that if we 
take money that otherwise would have been available for 
education and siphon it off into private entities, it may 
benefit some number of children, but it will be a detriment to 
the majority of children, because it will take revenues that 
would have been available for you to improve upon these 
situations in which--at least if you just drive around here, 
you know, to the neighboring districts, you will find that the 
teachers are being paid more, the classroom size is smaller, 
the access to everything that these children need to learn is 
more prevalent in the suburban districts than in the city 
district.
    And by taking money away from the city district, they have 
been helped less. So I want to just hope that the Committee 
will keep this in mind.
    Thank you.
    Mr. Frelinghuysen. Thank you, Mr. Fattah.
    Mr. Culberson, you are recognized if you would like to have 
your five minutes?

                            EDUCATION SYSTEM

    Mr. Cunningham. Thank you, Mr. Chairman.
    Mr. Culberson. No questions.
    Mr. Frelinghuysen. Mr. Cunningham I know is ready for 
another round of questions.
    The point that I was trying to make is I recognize that the 
cost per student is greater because of the neglect of 
facilities over the many, many years. It is like pay me now or 
pay more later. And we are having to pay more later because of 
the neglect of our facilities in DC Public Schools. I recognize 
that, and I think it is important.
    That is where I want to focus, on the actual cost per 
student because I think we need to increase those numbers for 
the students in DC. I agree with you on that, Mr. Fattah.
    I would also say that, as a Republican, I think the federal 
government mandates too many things. In certain areas I believe 
that opportunity scholarships or vouchers, whatever you call 
them, work. It has been proven.
    But in other areas, the transportation costs may exceed the 
education costs. Another program develops when special 
education students are not accepted into the school, so I 
understand these problems.
    In many cases you have a mother whose child is locked into 
a system that is crime ridden and drug infested, and they want 
their child out of there. I think they ought to have an 
opportunity to remove their child from a failing school.
    I would like to continue by asking some questions.
    The studies on IDEA have shown that in many cases, the 
identification of special education students, is increasing. 
Autism is even higher than we thought.
    But in many cases they found that children that have been 
identified special education are merely children that in the 
early years could not read. This discovery has reduced the 
number of special education students 40 to 50 percent in some 
cities.
    For example, I read in the Baltimore Sun that a large 
portion of the students graduating from Baltimore high schools 
could not even read a newspaper.
    How can that child function in a world once they finish 
school. It will be difficult. Is there any emphases on early-
age reading to counter this program?
    Ms. Cafritz. That is one of the areas in which we have been 
most successful, and, in fact, every time someone looks at DC, 
not to say that we have, you know, paradise or anything, but 
every time people look at DC they say let's put money into 
early childhood.
    Well, we have educated several generations of early 
childhood, but what we have not done is built a school system 
from fourth grade on that can sustain the learning that they 
have achieved in pre-K through three.
    And that is what we must do. If you look at our scores, 
sir, in pre-K through three, if you look at the assessments, we 
look very pretty.
    Mr. Cunningham. I believe the president is sincere in 
wanting to leave no child behind. I chastise you for some 
things, I will chastise myself because I did not read what you 
gave me--on this chart it is District of Columbia Public 
Schools Preliminary Uniform Pre-Student Funding Formula 
Proposed Allocation.
    And then down here, it reads, the additional cost per 
child, and main reason for concern is that there are so many 
more children being identified for IDEA. If your average cost 
increase is nearly $11,000--you list $10,928--I do not know how 
you will fund the public system if that is the additional cost.
    This is an issue I am trying to look at, and a large 
portion of that appears to be trial-lawyer fees.
    Now, I do not want a child to go under-served. I have two 
beautiful daughters, and when parents have a child with special 
needs, they do not know where to go. They think they are going 
to have a homecoming queen, football star, an academic or a 
Stradivarius, and then when they find out that they have a 
special-needs child, they don't know where to turn.
    These parents need help. And I want to make it clear. I do 
not want children to go unrepresented, but we have proved in 
many, many districts that we are losing valuable teachers. Alan 
Bersin in San Diego city schools supports this. My sister-in-
law directs all special education for San Diego city schools, 
and she found we are losing good teachers because they are 
getting beaten up in court.
    I want the education cost per student going towards 
educational programs for the new teachers so that they are 
trained in special education.
    I would even propose that our colleges offer more courses 
for teachers that are not even involved in special education, 
because at some point you are going to have to deal with it.
    When I went through the education system, I got a Master's 
Degree in education, and I can not even remember a single 
course offered in that field. I think that something needs to 
be done.

                            CHARTER SCHOOLS

    Mr. Frelinghuysen. I just want to ask some questions 
relative to charter schools. We have not heard too much from 
you, Mr. Loughlin.
    To repeat, we have 37 charter schools currently operating 
in the District, 16 authorized under the DC Board of Education, 
21 under the DC Public Charter School Board.
    I assume it is fairly unusual to have two chartering 
authorities within the same school district?
    Mr. Loughlin. I actually believe it is considered leading 
practice to have more than one authority that can charter 
schools.
    I do not know how many jurisdictions actually do have that, 
but I understand that people who study these things recommend 
that there be more than one board so that one board can not co-
opt the entire process.
    Mr. Frelinghuysen. The record will not show what Mr. 
Cunningham put in front of Ms. Cafritz. [Laughter.]
    Will you take that bevy of photographers with you, too, 
when you leave? [Laughter.]
    Excuse me, Mr. Loughlin.
    Mr. Loughlin. Well, and I was saying that I understand that 
people who are experts and study this matter believe that it is 
appropriate to have more than one board.
    And the reason they recommend that and oftentimes in many 
jurisdictions there is concern that the existing authorities 
will not charter any schools. So by setting up another 
authority, oftentimes the mission is accomplished.
    Mr. Frelinghuysen. Do you and Ms. Cafritz use the same set 
of standards to approve and review charter schools? If not, how 
do you prevent charter school founders from selectively 
applying to one authority based potentially on a lower set of 
standards?
    Ms. Cafritz. Well, when we came on the Board I think that 
there are charter schools that had applied to the school system 
thinking that their standards would be lower.
    Our standards are now higher, and we have seen charters 
that we have rejected apply to the other chartering authority.
    I think that it is possible for both of us to have high 
standards, and I have thought about whether or not there should 
be one chartering board or two chartering boards for a long 
time, you know, and I think it is important to continue to 
study that in terms of cost, you know.
    I think that it is important, though, if there was one 
board, I think it would be important for it to be our board, 
and I will tell you why.
    It is completely transparent, all of the meetings are open 
to the public, there is press there, lots of parents come, et 
cetera, et cetera, et cetera.
    And all of this is supposed to be, you know, the same 
thing, they have to do the same thing that public schools have 
to do, and that does not exist with the other group, and that 
is a problem.
    Mr. Frelinghuysen. So relative to the standards, is that of 
what you speak?
    Ms. Cafritz. Yes. Relative to people knowing the standards, 
knowing that they are being, you know, enforced, parents having 
a feeling for the charter-school system, et cetera. That is 
very important.
    And as far as the standards of judgment are concerned, we 
are much more particular. The charter school, this chartering 
authority, uses a checkoff system against a school's 
accountability plan when they go in for monitoring.
    Mr. Frelinghuysen. Mr. Loughlin, you want to put your oar 
in the water here?
    Let me just say something, from my perspective, coming from 
a state where I have been involved, as has Mr. Fattah, in 
government for a long time.
    Twenty years ago, what we are talking about here would be 
heresy. We would never get away with it, and we are highly 
supportive of the public system. I can tell you, in my state, 
as committed as a lot of people are to the public system--and 
that is their primary, passionate commitment--so many parents 
have been energized by the charter movement. I would like to be 
educated as to whether there is some standards issue here.
    Mr. Loughlin. Well, thanks for giving me the opportunity to 
respond to that. A few things, I guess.
    One is, I am not aware of which schools were rejected by 
the Board of Ed that have come to our board and that we have 
chartered. That is just news to me.
    The point of transparency, our board operates in public. We 
have a monthly meeting, and we have a public meeting once a 
month. We do not have a lot of people who actually show up to 
our public meetings, but they are announced in advance and from 
time to time we will get large crowds or small crowds, but they 
are held in public.
    In terms of standards, we believe that we have set very 
high standards. I believe the Board of Ed has increased its 
standards over time.
    I think some of the schools that the Board of Ed has closed 
are a result of the previous board, not Ms. Cafritz's board. In 
the very early days of the charter movement not having very 
high standards and having opened up some schools that were very 
challenged, and so those schools have been shut down, which was 
an appropriate action by the current board.
    But, yes, I believe that our board has very high standards 
and has been recognized nationally for the standards that we 
have set, and what we do is often used as a template for other 
boards.

                          CHARTER SCHOOL BOARD

    Mr. Fattah. Mr. Chairman, if you will just yield for just 
one quick second.
    Mr. Frelinghuysen. It is your time as you like.
    Mr. Fattah. Thank you.
    How many people are on your board?
    Mr. Loughlin. We are authorized with seven members. We have 
vacancies right now.
    Mr. Fattah. How many people are presently on the board?
    Mr. Loughlin. Six.
    Mr. Fattah. And how many of them live in DC?
    Mr. Loughlin. Five.
    Mr. Fattah. Okay.
    And has the board compensated anyone?
    Mr. Loughlin. No.
    Mr. Fattah. Okay. So it is a purely voluntary----
    Mr. Loughlin. Purely voluntary.
    Mr. Fattah. If you had a charter school today and you 
yanked their charter, is there some financial consequence to 
your board?
    Do you have some financial relationship between the 
charter, the school, and its per-pupil expenditure in which you 
get some remuneration?
    Mr. Loughlin. Yes, I would say about half of our funds come 
through an appropriation. The other half of our funds----
    Mr. Fattah. That is the $480,000 you told us about?
    Mr. Loughlin. Right. It is $660,000 currently proposed. 
About half of our funds right now come from administrative 
fees, which is one-half of 1 percent of our charter schools' 
per-pupil funding.
    So that currently constitutes about half of the monies we 
get.
    Mr. Fattah. Let me just say, in Pennsylvania, you know, 
probably 70 percent of the charter schools in Pennsylvania are 
in Philadelphia. We have one chartering authority, and that is 
the Philadelphia School Board.
    And what we have at the state level is an appeals process 
in case people do not feel as though they were objectively 
handled. To have two chartering authorities, I do not believe 
as you state it is some type of normal best practice, because I 
do think that it creates, you know, a situation where people 
may shop for venues and that kind of thing.
    But we will get into this more at some later point.
    I want to thank the Chair for the hearing. I want to just 
say in conclusion, based on everything I have heard, that there 
is a lot to be thankful for and hope for, and I heard my 
colleagues even that this is a great country that we live in, 
and it is true.
    Because, you know, if we were in Iraq today, we are going 
to build 6,000 new schools, and we are going to provide 
universal health care, and we are going to provide democracy to 
the people who live there.
    Now, in the District of Columbia, you are not going to have 
any democracy, you are not going to be electing people to the 
national legislature who are going to have a vote, so there are 
people like me from Philly and my colleagues, the great 
chairman from New Jersey, intertwined in the local affairs of 
the District, and we are probably not going to build six 
schools in DC, at least not at the rate that we are going.
    And universal health care, some hope and dream, far off 
down the road.
    So it is a great country, but we should probably do more if 
we would believe that charity begins at home, and the District 
of Columbia would be a great place to start, Mr. Chairman.
    So I want to thank you for this hearing.
    Mr. Frelinghuysen. Rather conclusive remarks. [Laughter.]
    I pay tribute to Mr. Fattah's passion and his keen 
interest, which I share in terms of bettering educational 
opportunities for young people in the District.
    Before we break, there are a lot of questions I would like 
to ask, and we will for the record.

                          CHARTER SCHOOL SITE

    I was told never to ask a question unless I knew the 
answer, and I do not have the answer to this. I am not a 
lawyer, for the record, either, so I can ask this.
    I am curious as to why the average size of a charter school 
authorized by the Board of Education is 180 students and those 
authorized by the Charter School Board is 428. Is there some 
reason?
    Mr. Loughlin. The difference in the size of the schools, we 
have one very large charter out there, which is Friendship 
House, together with Edison Schools, has basically four 
campuses with--I can not remember how many thousand--in total 
it is two elementary schools, a middle school and a high school 
all operating under one charter, which brings our average----
    Mr. Frelinghuysen. That is why the figure, the average, is 
so high?
    Mr. Loughlin. That is correct.
    Mr. Fattah. Mr. Chairman, if I could jump in.
    It is because they have these for-profit operations. Edison 
particularly, which your state just ran out of Trenton for 
failing to educate children, are running a number of these 
schools, and they need, in order to generate their money, they 
want as many kids as possible.
    They require as part of their model a large student 
population.

                              CO-LOCATION

    Mr. Frelinghuysen. Thank you very much.
    We will submit for the record some questions that relate to 
facilities relative to the charter schools, and I believe, Dr. 
Vance, you were to provide a report to the Council on March 1st 
outlining a plan for the co-location of public schools 
chartered.
    Mr. Vance. Yes.
    Mr. Frelinghuysen. Where does that stand, that report? Is 
that on its way?
    Ms. Cafritz. The Board had a meeting about this last 
evening, and I can give you an answer from that perspective.
    That is not yet prepared because we do not have funding. We 
do not have funding to fix the interior of these schools, and 
in co-locating charter schools, you would have half the kids 
going to school in a fixed up building and the other half, 
public school kids, going to school in a messed up building.
    We have to come up with some kind of funded co-location 
plan, which is not contemplated in this budget before the 
board, you know, sends you anything, I think it would be a 
great idea to sit down with your staff.

                            DIRECT-LOAN FUND

    Mr. Frelinghuysen. We would like to do that, yes.
    And also, Congress provided $5 million in the fiscal year 
2003 bill to establish a new direct-loan fund for charter-
school improvement. Where does that stand, just for the record, 
if you can provide that? I know we were late in moving ahead 
with our appropriations bill, but I would like to know where we 
stand on this new program.

                               ARMY CORPS

    I also have some outstanding questions in terms of the role 
of the Army Corps. I mean, it is pretty low on the radar 
screen, but they have been doing, I believe and correct me if I 
am wrong--some good work over the years, and I would like to 
know to what extent, how that work is progressing, for the 
record.

                               LIBRARIES

    Additionally, I had a visitor in my office and you have to 
admire people. You have the library system under the Board of 
Education, too. Is that right?
    Ms. Cafritz. No, I wish it was. It is under the same 
Committee.
    Mr. Frelinghuysen. Yes, the same Committee, but certainly 
there is a link between schools and obviously the condition of 
some of the city's libraries.
    Ms. Cafritz. I actually have a plan for that and hope that 
you are interested in hearing about it.
    Mr. Frelinghuysen. I would be happy to. Ms. Cafritz and 
gentlemen, thank you very much. This concludes our hearing, and 
we will submit some questions for the record.
    Thank you. 
    [GRAPHIC] [TIFF OMITTED] T7731A.120
    
    [GRAPHIC] [TIFF OMITTED] T7731A.121
    
    [GRAPHIC] [TIFF OMITTED] T7731A.122
    
    [GRAPHIC] [TIFF OMITTED] T7731A.123
    
    [GRAPHIC] [TIFF OMITTED] T7731A.124
    
    [GRAPHIC] [TIFF OMITTED] T7731A.125
    
    [GRAPHIC] [TIFF OMITTED] T7731A.126
    
    [GRAPHIC] [TIFF OMITTED] T7731A.127
    
    [GRAPHIC] [TIFF OMITTED] T7731A.128
    
    [GRAPHIC] [TIFF OMITTED] T7731A.129
    
    [GRAPHIC] [TIFF OMITTED] T7731A.130
    
    [GRAPHIC] [TIFF OMITTED] T7731A.131
    
    [GRAPHIC] [TIFF OMITTED] T7731A.132
    
    [GRAPHIC] [TIFF OMITTED] T7731A.133
    
    [GRAPHIC] [TIFF OMITTED] T7731A.134
    
    [GRAPHIC] [TIFF OMITTED] T7731A.135
    
    [GRAPHIC] [TIFF OMITTED] T7731A.136
    
    [GRAPHIC] [TIFF OMITTED] T7731A.137
    
    [GRAPHIC] [TIFF OMITTED] T7731A.138
    
    [GRAPHIC] [TIFF OMITTED] T7731A.139
    
    [GRAPHIC] [TIFF OMITTED] T7731A.140
    
    [GRAPHIC] [TIFF OMITTED] T7731A.141
    
    [GRAPHIC] [TIFF OMITTED] T7731A.142
    
    [GRAPHIC] [TIFF OMITTED] T7731A.143
    
    [GRAPHIC] [TIFF OMITTED] T7731A.144
    
    [GRAPHIC] [TIFF OMITTED] T7731A.145
    
    [GRAPHIC] [TIFF OMITTED] T7731A.146
    
    [GRAPHIC] [TIFF OMITTED] T7731A.147
    
    [GRAPHIC] [TIFF OMITTED] T7731A.148
    
    [GRAPHIC] [TIFF OMITTED] T7731A.149
    
    [GRAPHIC] [TIFF OMITTED] T7731A.150
    
    [GRAPHIC] [TIFF OMITTED] T7731A.151
    
    [GRAPHIC] [TIFF OMITTED] T7731A.152
    
    [GRAPHIC] [TIFF OMITTED] T7731A.153
    
    [GRAPHIC] [TIFF OMITTED] T7731A.154
    
    [GRAPHIC] [TIFF OMITTED] T7731A.155
    
    [GRAPHIC] [TIFF OMITTED] T7731A.156
    
    [GRAPHIC] [TIFF OMITTED] T7731A.157
    
    [GRAPHIC] [TIFF OMITTED] T7731A.158
    
    [GRAPHIC] [TIFF OMITTED] T7731A.159
    
    [GRAPHIC] [TIFF OMITTED] T7731A.160
    
    [GRAPHIC] [TIFF OMITTED] T7731A.161
    
    [GRAPHIC] [TIFF OMITTED] T7731A.162
    
    [GRAPHIC] [TIFF OMITTED] T7731A.163
    
    [GRAPHIC] [TIFF OMITTED] T7731A.164
    
    [GRAPHIC] [TIFF OMITTED] T7731A.165
    
    [GRAPHIC] [TIFF OMITTED] T7731A.166
    
      Questions for the Record Submitted by Chairman Frelinghuysen

            district of columbia public charter school board
Charter School Facilities
    Chairman Frelinghuysen. One of the difficulties in starting and 
continuing a charter school is finding adequate space to operate in. 
Over the years there have been concerns raised that the public schools 
could accommodate more charter school students in the dozens of schools 
that are not at capacity and more in surplus buildings not being used. 
What is the situation today? Has it changed or are charter schools 
still struggling to find facilities?
    Response. The PCSB has been included in meetings that address 
facilities needs and use of space in schools that are considered below 
capacity. There has been concern on the part of the President of the 
Board of Education that there would be a decided difference in the 
physical condition of the space used by charters. However, in many 
instances charters would have little money to do wholesale renovations. 
Co-locating requires the cooperation of the resident administrator if 
the sharing is to be compatible.
    [Following is information on the facilities needs of schools 
chartered by the Public Charter School Board.]
[GRAPHIC] [TIFF OMITTED] T7731A.167

[GRAPHIC] [TIFF OMITTED] T7731A.168

Joint Campuses
    Chairman Frelinghuysen. An article in the Winter 2002 edition of 
the charter Schools Bulletin noted that two charter schools in Colorado 
teamed up to create a joint campus. Is this something that is being 
looked at as an option for charter schools in the District?
    Response. Joint campuses have existed since the very first year of 
operation of schools approved by the PCSB.
          A. From 1998-2000 two schools, SEED PCS (chartered by PCSB) 
        and Options PCS (chartered by Bd. of Ed.) were co-located at 
        the Children's Museum. From 2000-2003 Tree of Life PCS (PCSB) 
        and Options have been co-located at the Children's Museum; from 
        2000-2002 World PCS (Bd. of Ed.) was also located there.
          B. From 1998-2000 the Maya Angelou PCS shared space with the 
        Studio PCS-(Bd. of Ed.) at the Garrison School building.
          C. Since 2000 the site of the renovated ``Old Manhattan 
        Laundry Building'' located at 14--Florida Avenue is the 
        location of Cesar Chavez PCS (PCSB), Meridian PCS (PCSB) and 
        Booker T. Washington (Bd. of Ed.).
          D. During the 2001-2002 school year, New School . . . PCS 
        (PCSB) sub-leased a floor from the Hyde PCS (Bd. of Ed.) at the 
        Langley Jr. High Building.
          E. A current and exciting venture is the availability of 
        space at the Armed Services Retirement Home (ASRH). A start-up, 
        DC Preparatory Academy, will locate temporarily in the fall of 
        2003 at the ASRH site. Tri-Community, which begins its second 
        year in the fall of 2003 will locate there and has plans for 
        renovation of a building for its permanent location. Tree of 
        Life is also considering locating in space at ASRH in 2004. 
        These schools have worked cooperatively with the official of 
        ASRH to obtain the space to fit their needs.
    Sometimes schools have chosen sites out of desperation; at other 
times the choice is made through co-planning. Acquisition of adequate 
and affordable facilities continues to loom on the horizon of both new 
and existing charter schools and the Board, in its authorizer role, 
interacts with government agencies on their behalf.
Direct Loan Fund
    Chairman Frelinghuysen. Congress provided $5,000,000 in fiscal year 
2003 bill to establish a new direct loan fund for charter school 
improvement. The bill wasn't enacted into law until February, so it's 
too early to know how the fund is working, but what impact do you think 
this new loan program will have on charter school operations?
    Response. Just as it is the national dilemma for charter schools, 
one of the major challenges facing charter schools in the District of 
Columbia is their inability to quickly and efficiently secure and 
renovate public or private facilities. Therefore, the $5 million direct 
loan fund will benefit charter schools as they seek new facilities, 
attempt to purchase facilities that they currently lease, or finance 
leasehold improvements and renovations.
    As charter school representatives have sought public facilities, 
whether surplus D.C. Public Schools buildings or other public 
properties, they have been confronted with a slow, bureaucratic 
process. Consequently, the inability to locate and place charter 
schools in public buildings has led to the charter schools' search for 
commercial or private facilities. Given the city's booming real estate 
market, charter schools are forced to pay expensive rent in order to 
compete with the private sector. Moreover, commercial leasing 
agreements often include triple net leases. These leasing arrangements 
transfer costs that would not typically be borne by charter schools as 
non-profit entities. In addition, charter schools find that more 
resources are needed as many facilities must be significantly 
reconfigured to accommodate classrooms and provide a safe, welcoming 
environment for students and their families.
Credit Enhancement Revolving Fund
    Chairman Frelinghuysen. The Credit Enhancement Revolving Fund was 
established to allow charter schools the use of public funds to 
leverage private investment for facilities and has been in existence 
for several years now. How is this program working? Is it achieving its 
intended goals? What changes, if any, to the program would you 
recommend to make it a better program?
    Response. The District of Columbia Public Charter School Credit 
Enhancement Fund (``the Fund'') was established to provide credit 
enhancement to facilitate the purchase, construction and/or renovation 
of facilities for District of Columbia public charter schools in time 
for the school year. The regulations became effective on March 23, 
2001. While the program is relatively new, it is growing at a 
tremendous rate, making great strides and improving its quality of 
services to serve the public charter school clients.
    By the end of FY 2002, six schools had received credit enhancement 
awards totaling $3.4 million, leveraging approximately $9 million in 
bank financing, and ending with a 3:1 leveraging ratio. Most schools 
awarded were approximately three years old.
    In FY 2001, the first implementation year, the Credit Enhancement 
Fund Committee awarded 2 credit enhancements to two public charter 
schools in areas that have a large proportion of low-income students. 
The average facility acquisition was approximately 50,000 sq ft.
    In FY 2002, the Credit Enhancement Fund Committee awarded 4 credit 
enhancements (3 acquisitions and 1 leasehold improvement) to three 
elementary schools and one high school, in areas that have a large 
proportion of low-income students. The average facility acquisition was 
approximately 53,000 square feet.
    In FY 2003, the Credit Enhancement Fund Committee met with the 
staff of the DC Public Charter School Board and presented its 
programmatic goals for the upcoming year. It was reported that 
approximately $8 million was received for FY 2003 for credit 
enhancements and a new Direct Loan Program was implemented at $5 
million. Because the budget bill was signed by the President very late 
in the fiscal year (Feb. 20, 2003), the Credit Enhancement Committee 
reported that it received 5 written requests for credit enhancement 
awards. The Committee has obligated approximately half of the current 
allocation. There are also an additional 6-7 charter school requests in 
the pipeline, and the Committee anticipates that it will close 8 loans 
before the end of FY 2003, projecting a leveraging ratio of 12:1. The 
Committee is working to raise additional capital for the fund by 
applying to the Department of Education for additional credit 
enhancement dollars. The additional funds will leverage the Fund to 
20:1.
    The DC Public Charter School Board believes that the Credit 
Enhancement Fund Committee is achieving its intended goals and realizes 
the challenges that exist. The Credit Enhancement Fund Committee has 
restructured its Credit Enhancement program as a revolving loan fund, 
to be able to make larger enhancements to the more established public 
charter schools. The Direct Loan program is designed to meet the needs 
of start-up charter schools (0-3 years) and small schools. The Direct 
Loan Program needs more capital with greater flexibility in its 
administration. Currently, the products offered are acquisition, 
maintenance and renovation of facilities. The start-up charters and 
small schools have needs that require greater flexibility.
    Chairman Frelinghuysen. What changes, if any, to the program would 
you recommend to make it a better program?
    [The information follows:]
        <bullet> The Direct Loan Program should focus on start-up and 
        smaller schools (including schools that want to remain small), 
        to provide for the acquisition, renovation and/or construction 
        of facilities. It should also be able to provide working 
        capital and guarantee leases for the newer charter schools.
        <bullet> Ensure timely budget cycles. This year, the committee 
        had to wait until the last 6 months of the fiscal year to 
        restructure, establish, implement and award credit 
        enhancements. Although the process was streamlined and 
        executed, the Committee had approximately 30 days to approve 
        most awards to close in June, so that construction could take 
        place over the summer, and schools could open on time in 
        September.
        <bullet> Amend the Direct Loan program to allow a portion of 
        the funds to be used for a matching working capital fund. For 
        every private dollar raised, the Credit Enhancement Committee 
        could provide the schools with a matching amount, in the form 
        of either a low interest loan (1% interest) or a grant.
Student Enrollment
    Chairman Frelinghuysen. It seems that every year the projected 
student enrollment in charter schools is several thousand higher than 
the actual count. Why is this case?
    Response. The significant variance between projected and actual 
charter school enrollment on an annual basis is attributable to a 
variety of factors, which are described in detail below.
    Schools project at the level of their annual enrollment ceilings: 
Each charter school under the authority of the D.C. Public Charter 
School Board is required to submit a maximum enrollment figure or 
charter ceiling for each year of it existence. Because charter school 
leaders develop their charters with plans to enroll a target number of 
students yearly, they project at the level of this annual target 
(enrollment ceiling), regardless of prior year enrollment (which only 
applies to schools in their second year or beyond). In the case of a 
new school, the ceiling is used to project enrollment given that the 
school has no prior year enrollment to use in its forecast.
    Scientific/statistical methods can not easily be applied: Although 
it appears that this issue can easily be solved using statistical 
analysis, there are several factors that complicate the task of 
projecting enrollment, including the following: (1) a school's plan to 
expand might result in a sudden upward trend or ``spike'' in its 
enrollment; (2) a school might be required to decrease its enrollment 
after projections have been submitted because its move into a larger 
facility is postponed (due to problems confronted in obtaining and 
renovating facilities); and (3) a school might move to a different 
location and lose a significant number of students as a result.
    In the absence of a scientific/statistical method, what is 
currently being done to improve the accuracy of enrollment 
projections?: The D.C. Public Charter School Board carefully reviews 
each school's projected enrollment using the following criteria to help 
determine whether an adjustment should be made: (1) prior year(s) 
enrollment;; (2) historical comparison of enrollment to charter 
ceilings; (3) past waiting lists; (4) plans for enrollment increase/
school expansion; and (5) demonstration of quality and responsible 
fiscal management through past financial reporting or responses to 
board information requests.
Public Libraries
    Chairman Frelinghuysen. What relationship do the charter schools 
under the DC Charter School Board authority have with the District of 
Columbia Public Libraries?
    Response. The charter schools take advantage of the story times and 
other programs especially when there is a branch library in walking 
distance to the school.
    Chairman Frelinghuysen. At this time many opportunities available 
through museums and other institutions are received by individual staff 
and by the Board.
    Response. At this time many opportunities available through museums 
and other institutions are received by individual staff and by the 
Board. These opportunities are forwarded to the Schools and they are 
encouraged to take advantage of them. One frequent example is 
notifications of teacher workshops at the Phillips and Corcoran Art 
Galleries. The Board will now seek to have Public Library activities 
and opportunities mailed to the schools and the Board Office. Schools 
will also be encouraged to establish a school/library relationship with 
a branch library convenient to the school location.
                                           Wednesday, June 4, 2003.

                          DISTRICT OF COLUMBIA

                      BUDGET FOR FISCAL YEAR 2004

                               WITNESSES

ANTHONY WILLIAMS, MAYOR, DISTRICT OF COLUMBIA
LINDA CROPP, CHAIRMAN, DISTRICT OF COLUMBIA COUNCIL
DR. NATWAR GANDHI, CHIEF FINANCIAL OFFICER, DISTRICT OF COLUMBIA

                            Opening Remarks

    Mr. Frelinghuysen [presiding]. The Committee will come to 
order.
    First of all, I would like to thank everybody for being 
here and also thank Chairman Jerry Lewis for allowing us the 
use of the Defense subcommittee on Appropriations hearing room.
    There may be a few members that are still making their way 
from the Rayburn Building, where we have conducted several of 
our hearings, but hopefully they will make their way here.
    Joining me this morning, of course, is the Ranking Member, 
Chaka Fattah, to my left. Thank you for being here, Chaka. We 
are also joined by Congressman Weldon, Congressman Doolittle, 
Congressman Pastor, Congressman Cunningham passed through here 
and will be back, and I am most pleased to welcome Eleanor 
Holmes Norton. Thank you very much, and Congressman Culberson, 
as well. Thank you very much.
    We are meeting here this morning to receive testimony 
considering the District of Columbia's fiscal year 2004 budget 
request. We are pleased to have with us Anthony Williams, Mayor 
of this great capital city of ours, Council Chairman Linda 
Cropp, and the District's Chief Financial Officer, Dr. Natwar 
Gandhi.
    Since becoming Chairman in January, I have done a lot of 
listening and learning, and I have done a lot of driving around 
the city with several people who know it well.
    I wanted to get to know this city from all angles, not just 
from a perspective as a Member of Congress from New Jersey 
becoming Chairman of this subcommittee, but for other reasons.
    The Constitution gives Congress exclusive legislative 
authority over the affairs of the District of Columbia, and I 
take this mandate seriously.
    I also recognize the city's desire for greater autonomy, 
and I am very respectful of those goals.
    I was encouraged by what I have seen, the revitalization of 
neighborhoods, and this, indeed, is a city of many, many 
neighborhoods. The growth of retail stores, new housing, the 
expansion of parks, just to name a few.
    The city has been through some tough economic times, and I 
think we would all agree it has not seen the last of those 
times either, but there is much to be proud of today.
    The city's finances are much stronger than a decade ago, as 
I am sure we will hear from you, Mr. Mayor, and Dr. Gandhi. 
Construction cranes dot the skyline, the real estate market is 
still booming, tourism is up, and we need tourism. These are 
all positive signs, and I commend each of you for your 
dedication and good work.
    We have also seen and heard through previous hearings about 
the positive impact of the Revitalization Act of 1997, and we 
have heard about the stronger partnership between this Federal 
government and this city relative to the protection, homeland 
protection, of this vital capital city.
    Let me commend Peter LaPorte, your D.C. emergency 
management leader and his team for making a very excellent 
presentation. You have put together a good team, and we commend 
you.
    But the city continues to face some significant program and 
management problems. A third of public school students drop out 
of high school before graduating; 30 percent of adults in the 
city read only at a third-grade level; the District ranks fifth 
among metropolitan statistical areas, as reported by the CDC, 
as the highest number of accumulated AIDS cases among 
residents.
    I know you, as elected leaders of this city, are just as 
worried as I am about these and other statistics. I do not 
profess to have all the answers, but I know we can work 
together to make the nation's capital the model city it should 
be.
    We can concentrate our limited resources on areas that make 
the biggest impact, but we can only do that if we are working 
as partners through the budget process.
    Mr. Mayor, I share your goals, and we have discussed them 
on a number of occasions, for reforming the city's educational 
system and cleaning up the Anacostia River.
    I believe that providing every child with a solid education 
is the most basic duty we have as a society and as parents. An 
educated society is one of the keys to a prosperous nation and 
a prosperous city, and a cleaner Anacostia and Potomac will 
lead to further economic revitalization, which is so important. 
Mr. Chairman, I want to continue the leadership that my 
predecessor, Joe Knollenberg, set for this Committee. I want to 
be a partner with the District and work in a cooperative way to 
achieve mutual goals. By working together, we can make a 
difference in the lives of the people who live in this city and 
who work in this city.
    I look forward to your opening statements and learning more 
about your plans and proposals for the upcoming fiscal year.
    With that, I yield to Mr. Fattah for any opening remarks or 
comments he may wish to make.

                  Congressman Fattah's Opening Remarks

    Mr. Fattah. I would adopt the Chairman's opening statement 
as my own, and join with him in everything that he has said.
    I welcome the officials from the city, the Mayor, President 
of the Council and Dr. Gandhi.
    I would just say that, as we go forward in this hearing, I 
hope that we will again learn of ways in which this Committee 
can assist the city as you continue to conduct your business.
    And in terms of the fiscal affairs of the District, there 
is no other city that I am aware of that is in a more sound 
fiscal position than the District. All of our cities around the 
country are facing dire times along with many of our state 
governments because of the economic circumstances, but the 
fiscal management of the District is something that I think all 
of you can take great pride in.
    And I look forward to your comments today.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. I echo those sentiments.
    Thank you, Mr. Fattah.
    I recognize, Mr. Cramer. I thank you very much for being 
here.
    Mayor Williams, if you would be happy to give some 
comments, some opening remarks. A copy of your entire statement 
and those of your colleagues will be put in the record. So 
please proceed.
    We welcome you here. We thank you for your leadership of 
the city, and the time is for you now.

                  Opening Statement of Mayor Williams

    Mayor Williams. Well, thank you, Mr. Chairman.
    And you are correct, we have submitted a full copy of my 
statement for the record, and so I will, wherever possible, 
abbreviate my comments to you and certainly to Ranking Minority 
Member Fattah.
    I thank all of you, members of the Committee, for your 
leadership and for your partnership with us, and certainly to 
all of you for this opportunity to testify on the fiscal year 
2004 budget and financial plan for our city. In fact, as you 
have referenced, Mr. Chairman, this subcommittee has been a 
partner in our city's renaissance over the last few years. As 
Mayor, I am grateful for the support and encouragement offered 
by the previous chair and the ranking minority member, and I am 
particularly pleased to have become acquainted with you since 
you have become chair. The enthusiasm and energy that you have 
brought to this assignment, I think, is gratifying to us as 
citizens and it is certainly gratifying to our city's 
leadership.
    In just a few short months, you have traversed our city and 
immersed yourself--I do not know any other way to put it--in 
understanding the special challenges and opportunities we face. 
And I think the citizens of our capital can rest assured that 
the city's relationship with this subcommittee continues to be 
strong and will serve us well as we strive together to address 
the pressing needs of our city.
    As you know, Mr. Chairman, you have referenced this 
yourself, the District is no exception to the financial 
pressures facing cities and states across our country. In fact, 
the District will experience a decline in revenues of 
approximately $370 million in the first half of fiscal year 
2003. This decline equates to a 10 percent loss in our local 
operating budget. Because the economy has not yet recovered, 
these challenges continued into fiscal year 2004. And we began 
formulation of our 2004 budget with a projected gap of $114 
million.
    In facing these challenges, however, I am proud to say the 
District has not only continued its record of sound fiscal 
management, but we have achieved, I think, a level of 
responsible and conservative budgeting found only among the 
most financially prudent governments. As a result, the budget 
that we have transmitted today is balanced in current and 
future years.
    And most notably, the District's leaders balanced the 
budget entirely through budget reductions. No tax increases 
were adopted, and not $1 of the $250 million in cash reserves 
was used to address this challenge.
    In many instances, we were able to reduce spending by using 
existing funds more wisely. In many other areas, however, 
significant sacrifices were required. Most notable among these 
is the deferral of key infrastructure investments.
    And as I have shared with you, Mr. Chairman, and the 
Ranking Member, if you look at our city's balance sheet, from 
one perspective, we are strong. When you put in real property 
and infrastructure as components of our asset base, we do not 
look as strong because in fact, there is a deferral, a massive 
deferral, of key infrastructure investment in our city. In 
fiscal year 2003, the District eliminated funding for $250 
million in approved capital construction, including 
transportation investments, recreation facilities and important 
technology investments. An additional $87 million of funding 
for such projects was eliminated in 2004.
    In making these sacrifices, it is important to note--and I 
was talking to Congressman Weldon on this matter--the District 
preserved existing funding for existing schools and libraries, 
but could allocate no new funding for the next phase of 
modernization. As a result, current 10-year plans for 
renovating neglected schools and libraries must be scaled back 
dramatically, leaving a major challenge in the education goal 
for our children.
    This sacrifice, alongside even greater reductions in roads, 
bridges and other buildings, I think presents one of the 
greatest challenges that we face today, and certainly have not 
addressed into the foreseeable future.
    Now, is this challenge purely a result of national economic 
woes? Well, certainly our national economic woes play a factor 
in this. But in fact, it is not exclusively a cause. Even 
during times of economic growth, the District cannot support 
the kind of investment required to compensate for the many 
decades of neglect from which our infrastructure has suffered. 
This is true not because of any factor under the District's 
control, but because of the uniquely, I think, unfair 
constraints placed on our tax base by the federal presence.
    Faced with this clash between expenditure needs and revenue 
capacity, the District has maintained balanced budgets, and we 
are proud of that. But we have maintained balanced budgets 
through one, overtaxing our citizens and businesses and 
deferring critical investments, which I think, in the long 
term, are going to continue to damage the viability of our city 
as a place to live and operate a business. And as a result, 
that financial and operational recovery underway will falter. 
And I think we will lose significant ground that we have 
gained.
    We remain hopeful that this Congress will work with us to 
remove the federal barriers that prevent the District from 
seeking the help and working the partnerships and doing the 
things it has to do to maintain the ability to invest in 
critical service improvements and continue to maintain a 
balanced budget.
    As you have referenced, Mr. Chairman, this Congress does 
have a constitutional mandate. But I am pleased to hear your 
comment of your respect for our need and our wish for autonomy. 
We have discussed this in the past. And I hope that as Congress 
considers emerging budget autonomy legislation, we can look to 
this Committee, and look to you, Mr. Chairman, for leadership 
in crafting and effecting a change that will remove the 
impediments to the District's continued financial and 
operational recovery.
    In addition to these process points, I have just a few 
initiatives I would like to share with you. One you referenced, 
Mr. Chairman, the Anacostia River. I am pleased that the 
Congress allocated $50 million for the combined sewage overflow 
project, which was matched with local funds. This was a very 
welcome down payment on a $1 billion-plus multi-year project. 
Updating our antiquated sewer system, which was built 
originally by the federal government, is an integral part of 
our Anacostia waterfront initiative.
    Therefore, we are seeking an additional $50 million in 
fiscal year 2004. The president's budget includes $15 million 
for this purpose and another $10 million for the Anacostia bike 
trail. I strongly urge the subcommittee to accept the 
president's proposal and add $35 million to the sewage project, 
to match last year's commitment and to continue us on this 
course.
    In fiscal year 2003, Congress provided $4 million for 
family literacy program. Since receiving this payment just 
three months ago, we have an ambitious program underway that 
will soon have at least 20 literacy leaders dispatched around 
our city to help community-based providers, government agencies 
and faith-based community organizations and networks expand our 
network of adult learners.
    We also have a training symposium this summer to begin to 
train the trainees.
    With an additional $4 million in fiscal year 2004, we can 
sustain these efforts.
    And finally, before I conclude my testimony, there are 
several specific points that I want to make clear for the 
record.
    First, I ask that our appropriation be passed again without 
any undemocratic riders that are sometimes included. These non-
budgetary provisions, I think, undermine the will of District 
citizens and elected representatives. We have done, I think, a 
good job in acting responsibly and prudently in passing this 
budget. And we ask for the Congress's support and respect as we 
move through this process.
    Second, because quality education for our children is, as 
you have mentioned, Mr. Chairman, a critical fundamental 
priority for our city, I strongly urge the Congress to 
appropriate additional funding above whatever this subcommittee 
has allocated for other District projects, to support our 
regular public schools, our charter schools and indeed, expand 
opportunities for parents choice for parents through a 
scholarship program for non-public education settings.
    The District's public school system, as you have heard, and 
I believe you understand, Mr. Chairman, and members of the 
committee, is making headway--they are--including a very 
promising transformation initiative for 15 low-performing 
schools. It also has a liberal out-of-boundary program that 
affords parents opportunities to consider public schools across 
the city.
    Our robust charter school system is a national model for 
public school choice, whose expansion is limited largely by a 
lack of adequate facilities. In addition, dozens of private and 
parochial schools are assets for our children.
    So consequently, I want to reiterate my support for school 
choice, both within the public school system and between public 
and private schools. And additional support from the federal 
government that supports and that emphasizes this three-pronged 
support can make our efforts fully successful for our children.
    In short, Mr. Chairman, I look forward to continuing the 
partnership that we have enjoyed in the past and I believe that 
we enjoy under your chairmanship. We have many, many, I think, 
successes to look backward to, but many challenges ahead to 
look forward to. And I know with your leadership and with your 
support and that of Ranking Member Fattah and members of the 
committee we can overcome these challenges.
    [The prepared statement of Mayor Williams appears on pages 
288 through 294.]
    Mr. Frelinghuysen. Please proceed.

                  Opening Statement of Chairman Cropp

    Ms. Cropp. Good morning, Chairman Frelinghuysen, Ranking 
Member Fattah and each member of the Appropriations Committee. 
I am pleased to be here this morning with the Mayor and the 
Chief Financial Officer on behalf of the citizens of the 
District of Columbia to discuss our 2004 fiscal year budget.
    The fiscal year 2004 budget, another in a series of 
financially and fiscally sound and responsible budget marks 
another important stride in our city's history of home rule. 
This is the second budget that the locally elected leaders have 
crafted entirely within the home rule process since the 
financial authority. It fully demonstrates that the council and 
the Mayor can work together and put together a good spending 
plan that continues to make the District a better place to 
live, to work, to raise a family and to visit, and obviously, 
to be the capital of the most important city in the world.
    It is also a reflection of our resolve to stand as one good 
government that will remain fiscally prudent, and most 
importantly, responsible.
    This past February, the Mayor and the council received an 
annual comprehensive financial report which certified that the 
District's fiscal year 2002 budget that ended on September the 
30th, 2002, was our sixth consecutive balanced or surplus 
budget. Fiscal discipline has always been and will always be a 
top priority of our legislative agenda. We not only demand it 
from the legislative branch and the executive branch, we 
practice it.
    The various forms of fiscal discipline, from rainy day 
savings, financial safeguards, insurance and investment 
policies, economic triggers to pay-as-you-go funds that we have 
demanded of and imposed on ourselves in the past several years 
have yielded significant returns to the District of Columbia.
    Case in point, the council insisted that the government 
limit the growth of spending in 2004 while ensuring that all 
basic municipal needs were met. Instead of increasing taxes to 
address declining revenues for fiscal year 2004, the council 
resolved to limit the rate of spending to under 5 percent. 
Again, this was done without detriment to the District 
residents, who receive services and benefits from our important 
programs.
    Working together, the council and the Mayor have been able 
to live within their budget. This reflects a continuation of 
the same fiscal discipline strategies that has been applied to 
the budget deficit that existed in fiscal year 2003.
    Working together, we made tough decisions in closing a $323 
million-plus revenue shortfall due to the downturn in the 
nation's economy within a short period of having approved our 
budget.
    And this was done in October, and we did it in a three-week 
period. On April 1st, six months into the fiscal year, again, 
the council and the Mayor took emergency action to close 
another $134 million hole in this year's budget.
    Our counterparts in Maryland and Virginia, and quite 
frankly across the country, are facing similar challenges 
because of the economy, although we think and believe that the 
District has acted more quickly, effectively and responsibly to 
take the actions necessary to keep our budget in balance.
    Finally, it is important to note that due to the city's 
fiscal discipline, hard work and positive image fostered by 
partnerships of the elective leadership and our business 
community, we have finally been recognized and rewarded on Wall 
Street, where the District government's bond rating has been 
upgraded from stable to positive.
    And this is during a time when across the country bond 
ratings from many other places have been given a downturn 
rating. It is our hope and expectation that the city's bond 
rating is expected to be further upgraded, again, while other 
jurisdictions across the country are being downgraded.
    I think that is indicative of what is going on in the 
District of Columbia. And I must say also that action by the 
Congress and the president in 1997 helped to give us some of 
these opportunities in order, by dealing with some of the 
structural imbalances that we have had over the years.
    As the Council continues to close the 2003 legislative 
session, we are proud to say that, in addition to fiscal 
discipline that we have imposed on the executive branch and 
ourselves, we have achieved other important goals set forth in 
our legislative agenda, and we will include a copy of our 
legislative agenda for the record.
    But we have looked at important measures of revitalizing 
our neighborhoods, investing in our youth, protecting our 
vulnerable residents, oversight of executive performance and 
service delivery.
    Separation of powers is a good thing, and we take our job 
seriously, sometimes to the Mayor's chagrin, but we think 
working together it has made for a better District of Columbia 
government.
    Promotion of continued economic stability and growth and 
expansion of home rule and democracy--and in that regard we 
will be talking to Congress in the future and today to help us 
in that area.
    In December of last year, the council passed the fiscal 
year 2004 budget submission requirements, resolution of 2002. 
It established March 17th as the day by which the Mayor shall 
submit the budget to the council.
    We have acted on it within a 50-day period. I am going to 
skip over some of it, but the whole testimony will be part of 
the record, but we do want to say that the council has held 
many budget hearings, and it is an opportunity for the citizens 
of the District of Columbia to weigh in on what the issues are 
and give us an opportunity to make changes to the executive's 
budget targets, and also the legislative budget targets, so 
that the budget that comes before you is a reflection of the 
desires and the needs of the citizens of the District of 
Columbia also.
    An integral part of the council's budget process is that 
hearing process and the input process that we have had. On May 
6th, the council approved the $6.6 billion spending plan that 
provides adequate funding for basic city services and programs, 
as keeping with our seven goals in our legislative agenda.
    Schools continue to receive full funding. And to protect 
our vulnerable citizens the council found an additional $4 
million to fund the Interim Disability Assistance Program for 
our disabled adults.
    In the area of public safety, the Mayor and the council 
worked together with the expansion of our Police Department, 
and developed a mechanism by which we can assure that dollars 
will be used to hire additional police officers.
    All of this was done without, as we stated before, a 
general tax increase. In fact, we are continuing with the 
portions of the tax reductions associated with the Tax Parity 
Act passed by the council in 1999, which were already in place.
    The council action will bring our taxes more in line with 
our neighbors over a five-year period. We are so close to our 
surrounding jurisdictions that tax parity is an issue that is 
important to the economic well-being of the District of 
Columbia.
    Historically, the relationship between the District of 
Columbia and the federal government has been a unique political 
and financial arrangement.
    Between 1879 and 1920, the federal government would provide 
assistance by paying half of all of the District's 
expenditures. Subsequently, given the various federal 
prohibitions on taxing non-resident incomes, federal 
properties, federal purchases of goods and services, the 
District would receive a direct payment.
    This payment was stopped in 1997, when the federal 
government expropriated the costs of the contributions for 
police, fire and teacher retirement plans, and various court 
services.
    It is worth recalling that when the 1997 Revitalization Act 
was passed, one recommendation was that since the District no 
longer receives any federal payments, Congress would not need 
to review or approve the budget.
    At minimum, Congress should no longer approve the local 
portion of the District's budget. Just like the other 50 
states, the District would be solely responsible for approving 
our own local spending, and we hope that this committee would 
look at that.
    Although the District government may be solely responsible 
for its local spending, it is not responsible for the 
structural imbalance that exists between its spending needs and 
the revenue generation capacity.
    The imbalance amounts to at least $400 million per year, 
according to the independent Chief Financial Officer of the 
District of Columbia. The cost of providing public services is 
much higher in the District than it is in the average state due 
to a relatively large poverty population, poor health 
indicators, high crime, high cost of living. But not unlike any 
other urban city in this whole country that has a population 
that is older, sicker and poorer.
    The biggest difference is the District of Columbia does not 
have surrounding higher-income jurisdictions to help offset the 
cost of the inner city. And in fact, more than half of the 
people within the District of Columbia pay through--people who 
work for the District of Columbia government alone help to pay 
for their high urban issues and areas. There is something wrong 
with workers in the District of Columbia helping to pay for the 
problems in our surrounding jurisdictions. And we get no return 
for that, unlike any other place in the country.
    In order to solve these problems of structural imbalances, 
we request that Congress consider one of the following: relax 
current taxing restrictions on the District or compensate the 
District for its special status as the capital city.
    And finally, as you consider our appropriations request, we 
ask that you support and pass the budget in time for the start 
of a new fiscal year and before the adjournment of the 108th 
Congress. It is important to remember that at the end of the 
budget process, both the council and the Mayor found themselves 
in sync and approved a budget that invests in service delivery 
and programs. Furthermore, we urge you to pass the budget as it 
is without any riders.
    This much anticipated fiscal year 2004 budget is important 
because it shows once again that the Mayor and the council can 
coexist together, and underscores our commitment to make 
Washington, DC, one of the best-governed cities in the world.
    Nonetheless, the council will continue to oversee the 
executive operations and expenditures. We will work together 
with the Mayor. We will be responsive to our constituents who 
call the District of Columbia their home. We will work with the 
Mayor, with you, the members of Congress and our surrounding 
governments, to achieve our mutually shared goals and leave a 
legacy to future generations.
    Granted, we do not always agree from time to time, but we 
will be at the table together to assert ourselves as an 
institution and to work for the betterment and the future of 
our citizens.
    Thank you very much for this opportunity.
    [The prepared statement of Chairman Cropp appears on pages 
295 through 300.]
    Mr. Frelinghuysen. Thank you very much, Chairman Cropp. And 
the record will note that when the Chairman spoke of her close 
working relationship with the Mayor, at the appropriate time, 
he smiled. [Laughter.]
    What we call mutual coexistence.
    Ms. Cropp. Actually, it is good. I mean, separation of 
powers, it is what it is all about, and it makes for better 
government.
    Mr. Frelinghuysen. Absolutely.
    Now batting cleanup----
    [Laughter.]
    Mr. Frelinghuysen [continuing]. Dr. Gandhi. I know you are 
going to cover the waterfront here, but go right ahead.
    Dr. Gandhi. I will be very brief----
    Mr. Frelinghuysen. Put in a plug for the increased rating 
from Standard & Poor's and Moody's, how can you follow up on 
that? Go right ahead, though, try. [Laughter.]

                     Opening Statement of Dr. Gandhi

    Dr. Gandhi. I will be very brief, sir.
    Good morning, Mr. Chairman, Mr. Fattah, members of the 
Committee, Ms. Norton.
    As the chief financial officer, my responsibility is to 
ensure the overall financial viability of the District of 
Columbia at all times. In the past year we have enjoyed some 
notable successes, noted by the Mayor and Mrs. Cropp, including 
the sixth consecutive balanced budget.
    Overall, the city ended fiscal year 2002 with a general 
fund surplus of about $27 million and a positive general fund 
balance of $865 million.
    In fiscal 1996, there was a negative fund balance of $518 
million, so we have witnessed a turnaround of over $1.3 billion 
since then. This result in itself is clear evidence the 
District is fully equipped for the home rule and the budget 
autonomy.
    I believe we are in a good position to continue this 
progress. We instituted several changes in financial systems 
that will give us a much better picture of our financial 
posture as we go through the year.
    During fiscal year 2003, we began the implementation of 
standardized spending plans and the reporting of actual 
performance against those plans, using a new online financial 
management tool for controlling agency budgets.
    At the end of fiscal 2001 we had about $100 million in cash 
reserves. This amount had grown to about $250 million at the 
end of 2002. And we will increase to nearly $254 million by the 
end of fiscal year 2003, to remain at 7 percent of total local 
expenditures.
    These reserves were fully funded five years before the 
legislative deadlines. Along with the fund balance noted 
earlier, these steps solidified the District's bond ratings, as 
pointed out by Mrs. Cropp, and led Moody's to upgrade their 
outlook on the District's $3 billion in general obligation 
bonds from stable to positive.
    This is particularly significant at a time when rating 
agencies are downgrading or looking negatively at numerous 
states and municipalities. We hope our positive outlook will 
lead to a ratings upgrade later this year, which will 
contribute to even lower borrowing cost in the future.
    A long-term replacement strategy for the District's payroll 
systems and their integration with other administrative systems 
has been developed as a part of the Administrative Services 
Modernization Program. Over the next two years, all of the 
District's administrative systems--personnel, payroll, 
procurement, property management and the budget--will be 
upgraded and integrated with the System of Accounting and 
Reporting, called SOAR. For the first time, this will give the 
District a top-quality integrated information system with which 
to manage the District's complex operations.
    Now that we have three years of operating experience with 
our accounting systems, we are utilizing more of its 
capabilities and potential. We already have an Integrated Tax 
System rated as among the best in the country by the Federation 
of Tax Administrators, and are the first city to offer free 
online tax filing, and the only city to provide account 
balances on the Web.
    For the fiscal year 2003 outlook, through the leadership 
and cooperation of our elected officials, the District made the 
necessary tough decision to assure a balanced budget for fiscal 
year 2003, as elaborated by the Mayor and the Council Chair. As 
of early June, remaining spending pressure for fiscal year 2003 
are estimated at about $50 million, primarily driven by high 
utilization cost for the health care safety net. This amount 
will be addressed. I am confident that we will end the year 
with a balanced budget.
    I want to thank you, Mr. Chairman, and members of the 
subcommittee and the staff, and Mrs. Norton for your leadership 
and support on the District's portion of the fiscal year 2003 
supplemental budget.
    For 2004, Mr. Chairman, in local funds, which comprise 
about two-thirds of the total budget, the total is about $3.4 
billion, an increase of $230 million, or 6.4 percent, over the 
2003 levels. The total number of positions funded with local 
funds is about 26,245; a decrease of 150 positions, or less 
than 1 percent.
    Over the four-year period from 1988 to 2002, the District's 
local fund expenditure increased by about 6 percent annually; a 
total of $741 million over this period. Of this $741 million, 
$621 million, about 84 percent, came in just two areas: $316 
million in the DC public schools and public charter schools, 
and $305 million in the Department of Human Services, Mental 
Health, Health, and Child and Family Services.
    At these six agencies, the expenditures increased at a rate 
of about 11 percent annually over the past four years. 
Expenditures in all other District agencies had a combined 
increased about $121 million, or about 1.8 percent, annually 
over the same period.
    As you will see, the budget projects positive net operating 
margin to fiscal year 2007, a positive fund balance and a 
positive financial picture, and is based on a revenue forecast 
that used realistic economic and demographic assumptions 
generally accepted by the forecasting community and the federal 
government.
    However, a close examination of the data suggests the 
District is operating on a slim financial margin. Fortunately, 
we expect local revenues to begin to grow in fiscal year 2004, 
after the decline and stagnation of the past two fiscal years. 
The growth that can be expected is nothing like 7.4 percent 
annual change between fiscal year 1999 and 2001.
    The District now faces a more slowly rising revenue curve, 
as financial and real estate markets return to more normal 
patterns, generating revenues that are expected to grow around 
4.5 percent for the year. We believe that it will be 
challenging for this revenue to sustain a current level of 
services.
    And there is no room, no room whatever for consideration of 
additional program initiatives, significant infrastructure 
investment, or tax cuts. For these reasons, the city and its 
elected leadership will face difficult program and financial 
decisions in the years to come.
    One other reason for this difficulty is the structural 
imbalance in the District's budget that needs to be addressed. 
And Mrs. Cropp and the Mayor talked about it, so I will not 
dwell on it, sir. All I suggest, is that the forthcoming GAO 
report would help us, Congress and the District, to move beyond 
the question of whether there is a structural imbalance, to the 
question of how the federal government and District government 
can work together to address this problem.
    This problem must be addressed with urgency, to assure the 
long-term financial viability of the nation's capital city.
    Mr. Chairman, that concludes my prepared remarks. I request 
that this testimony be made part of my record here. I will be 
pleased to answer any questions you may have.
    [The prepared statement of Dr. Gandhi appears on pages 301 
through 310.]

                           BUDGET PRIORITIES

    Mr. Frelinghuysen. Consider it done, and thank you very 
much for abbreviating your remarks.
    We will continue to operate under the five-minute rule for 
questioning, the timers being our guide. After Congressman 
Fattah and yours truly, we will recognize the Members in the 
order that they arrived at the hearing, alternating between 
majority and minority members.
    Mayor Williams, your inaugural address highlighted three 
priorities to guide you over the next four years: to educate 
our children, expand opportunity for all, and keep our 
neighborhoods safe. As former Mayor Ed Koch used to say, ``How 
am I doing?'' How are you doing on all of those three fronts 
and how does the fiscal year 2004 budget proposal support those 
priorities?
    Mayor Williams. Mr. Chairman, I commend you for referencing 
those three goals, because I think they really are the 
organizing themes for my administration, but I think 
practically for any mayor facing the challenges of a major city 
in this day and age.
    First of all, our budget supports our initiative in 
education in a couple of ways. One, it supports our initiative 
in education, and to the extent we can, we could in the 2004 
budget, holding the--and there is some disagreement on this--
between the elected officials and the schools. But essentially 
holding the schools to their 2003 baseline as we went into 
2004, so that they continue to have the room to make the 
investments and the transformation initiative: new teachers, 
new principals, that the superintendent is doing.
    Likewise on the capital budget for the schools, while we 
have made major reductions in capital funding, in order to meet 
the financial tests we believe we must meet in the credit 
markets--so in other words we have got to maintain an adequate, 
prudent per-capita debt level in our city. If we had allowed 
our capital borrowing to grow the way it was projected, these 
per-capita limits would have been exceeded and we would not be 
sitting here before you talking about a positive credit 
outlook.
    So we have made major reductions in capital. We have made 
major reductions in capital disproportionately at the expense 
of other programs in order to maintain intact the existing 
school capital budget. In the area of opportunity for all, 
major increases in our budget over the last four years in our 
city have been in education or have been in human services.
    Major focus on human services in my mind is giving agencies 
like child and family services, mental health and other 
agencies the breathing room they need to continue to move out 
of receivership into good management to achieve the kind of 
outcomes that we want to achieve in our city, particularly 
focusing on our neediest populations.
    And in fact, we are moving from a strategy of what we are 
calling Neighborhood 10, where we are taking 10 strategies for 
neighborhood improvement, and in successive years, applying 
them and targeting them to our transitional neighborhoods in 
our city, now working with the Casey Foundation developing 10 
strategies, targeting specific populations in our neediest 
neighborhoods as a human service component. And we believe that 
now we are moving our agencies out of receivership and we are 
getting some running room and ability to operate, we now have 
the flexibility and, in short, the competence to do that.
    Finally, in the area of public safety, a major commitment 
in this budget was to give our MPD and Chief Ramsey the tools 
and the resources that he needs to do his job, so that he can 
be held fully accountable for achieving what we want our police 
chief and our law enforcement to achieve.
    And to wit, for example, we have made a major commitment. 
And you, I am sure, have seen some notice of this and some 
record of this in the deliberations and debate between the 
Mayor and the Council. But working with the Council, there was 
a commitment in this budget now to bring our MPD to its full 
authorized strength of 3,800 officers.
    There is a commitment inherent in this budget to give the 
Police Department the overtime it needs to meet its federal 
responsibilities, but also, just as important, and probably 
more importantly, for a Mayor and for elected officials on a 
local level, meet responsibilities in terms of law enforcement 
on the neighborhood front.
    There is a commitment in this budget, inherent in this 
budget, the resources that we need to focus on 9/11. To move, 
for example, 9/11 from limited-duty uniform call-takers to 
highly trained civilian call-takers who can reduce the response 
time as a first step to moving toward something called the 
uniform call-taker, where one call-taker will be able to handle 
calls for both Police and Fire.
    Right now, you have got someone who takes the call at MPD, 
but then oftentimes it has to be dispatched or transferred over 
to Fire and EMS. By the time you make that transfer, you are 
losing limited time.
    Last, but not least, this budget allows us to proceed with 
a redeployment of our officers. We are going from--when Chief 
Ramsey came to our city, he inherited a deployment plan. This 
deployment plan called for, basically called for, community 
policing, recognizing that at one end of the universe you could 
have ultimate community policing and have an officer on every 
street, but your response time to calls would be low, because 
they are walking.
    On the other hand, you could have everybody in a car. Your 
response time might be a little better but you have no 
community contact. So this deployment plan was an effort to try 
to balance that.
    We had 80-odd patrol service areas. What we find now 
talking to community, working with citizens, is that we have to 
reduce that number. And reducing that number will give us 
better alignment between what patrol service areas are doing 
and our neighborhood service areas are doing and neighborhood 
boundaries.
    That is very important because the Police Department has 
already initiated I think it is eight community fight-backs, 
where the police, in conjunction with neighborhood services go 
into a neighborhood and, in conjunction with neighborhood 
stabilization, clean up, and intensive law enforcement attempt 
to bring back specific areas of specific neighborhoods in our 
city.
    This patrol service area redeployment will also allow us to 
do something that is also important. One of the big complaints 
I hear as I go around the city from citizens is that you gave 
us a good lieutenant, but we lost our good lieutenant over in 
our patrol service area, we do not have a good lieutenant.
    Well, obviously, we have 80 areas, and you collapse your 
areas from 80 to 40, you are going to be able to better 
maximize and optimize the good lieutenants that you have. And I 
believe that this allows us to do that.
    Mr. Frelinghuysen. I will have some more questions 
including some related to statistics relative to safety issues 
which are quite high. I did not mention it in my opening 
remarks, but I do feel Members of Congress have an interest 
about the safety of all citizens in the city.
    Mr. Fattah.

                               SALES TAX

    Mr. Fattah. Thank you, Mr. Chairman. I have really two sets 
of questions.
    First, when we have tourists who come to Philadelphia and 
come to Independence Hall to visit the gift shop, they pay a 
sales tax. The local governments in PA benefit therefore from 
this source of revenue. It is my understanding, and I think it 
is part of the record of this committee, that here in the 
District, none of the local sales taxes are applied at federal 
facilities. Thus, I would like to know from the CFO, what is 
the cost of this restriction? What is the loss of revenue, to 
the best of your understanding, when the District is treated 
differently than our other localities in terms of federal 
facilities?
    Dr. Gandhi. Well, Mr. Fattah, that runs into tens of 
millions of dollars. And we have a sizable presence here of 
great museums, great national parks, GPO, and other places. If 
you were to have, say, commercial taxation of the federal 
commercial activity, you are talking about roughly $260 million 
in property taxes and some additional sales tax revenue. And 
that, basically, is lost to the city.
    And I can provide details as to what those taxes are. But 
that is a fundamental problem that we face. And I have 
personally approached the Smithsonian Institution, sat down 
with Mr. Small, and suggested that maybe there should be some 
warranty gesture on the part of the Smithsonian to extend sales 
taxes on sales that are done in the stores over there.
    May I also report to you, sir, that I have talked with 
other existing institutions. I sat down with the World Bank. We 
took them to the courts, and ultimately we did win at the World 
Bank, and so at the cafeterias of the World Bank, we are 
collecting sales taxes.
    But in addition to this, if I may just continue for a 
moment, sir, we have a large presence of the tax-exempt sector 
in this city, and we are very proud of them. It is good to have 
all these institutions. But there is a cost here.
    Once I sat down with the Chief Financial Officers of the 50 
largest tax-exempt organizations in the city, and suggested 
that as they do in Philadelphia, there should be some kind of 
P.I.L.O.T. or Payment in Lieu of Taxes. The City of 
Philadelphia sits down with Temple and Penn and Drexel and 
works out an annual P.I.L.O.T. We tried our universities, which 
are great universities, we are very proud of them, but they 
basically said, well, that would not be in the cards.
    Ms. Cropp. Mr. Fattah, the example that you used is one of 
the structural imbalances that the city faces. And through no 
cause of our own, it is revenue denied. It is revenue that 
could help the nation's capital. And it could be paid by people 
from all over the world and all over the country to help offset 
that cost. And it is money that most people are used to paying. 
It is just an anomaly here in the District, where the revenue 
has been denied.

             GENERAL FUND SURPLUS VS. GENERAL FUND BALANCE

    Mr. Fattah. The other question I have for the CFO. You 
indicate that you ended the year with a general fund surplus 
of, was it, $27 million? What did you say?
    Dr. Gandhi. Yes, sir.
    Mr. Fattah. And a general fund balance of $800 and 
something. Can you explain the difference between those 
numbers?
    Dr. Gandhi. Yes, sir. Basically, the surplus in a given 
year is simply, if you look at a commercial enterprise, profit 
or loss. So we have received more revenues than we spent by 
about $27 million. The fund balance is simply accumulation of 
all those surpluses over the years.
    And just to reiterate a point that I made in the testimony, 
that in 1996, we had a deficit of roughly half a billion 
dollars in our fund balance. But since then, given the 
leadership's hard work and heavy lifting, all those deficits 
were paid off. And in addition, we generated $865 million.

                        INFRASTRUCTURE DEFERRAL

    Mr. Fattah. That number will change over time. Do you agree 
with the Mayor that there has been a deferral of over $250 
million and then an additional $87 million in capital 
improvements?
    Dr. Gandhi. Yes, sir. An accumulated gap that we have in 
our infrastructure is close to $2 billion, accumulated over all 
these years.
    Mr. Fattah. Why did you defer these things? I assume they 
could potentially cost more once you catch up with them.
    Dr. Gandhi. Absolutely right.

                          TAX ON NON-RESIDENTS

    Mr. Fattah. Lastly, I just want to finish, if I could, Mr. 
Chairman, on one other point.
    I am trying to figure out who is paying and who is not. The 
other group of people who are not paying, that is a definite 
concern, people who come into this city, earn a living here and 
go back home to some other place. In Philadelphia, in New York 
City and a whole host of places, mayors have grappled with this 
in the past and now and I think uniformly have some type of tax 
on nonresident people who work in an economic center but do not 
live there, who nonetheless are utilizing and benefiting from 
services, both police protection while they are down at their 
job location, and all the infrastructure necessary for their 
jobs to exist.
    In the District, there exists a group of people, clearly, 
that the Congress has restricted our ability to apply any type 
of tax to, unlike any other city in the country. Can you tell 
what the cost of that is?
    Dr. Gandhi. Yes, sir. If you take $100 earned in the city, 
roughly $66 of that $100 are taxed by Maryland or Virginia, and 
not in the District. We get to tax only about $34 of every $100 
that are earned in this city.
    And conservatively, if you were to, say, charge 2 percent, 
a commuter tax, if you want to call it that, on every dollar 
that is earned in the city, that would be around $500 million 
at that rate.
    You also want to remember that, sir, that if you have a 
lawyer who is in New York, say, and works in 10 cities and he 
travels, he would be able to take a credit for the taxes he 
would pay in all those states against New York taxes.
    Unfortunately, in the District that system does not work. 
You could have our own lawyer who lives in that city, works in 
other 10 cities, he would claim all the taxes against the DC 
taxes. So there is no correlation here in terms of 
correspondence between taxes among the jurisdiction. So we have 
a fundamental problem there.
    Mr. Fattah. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Fattah.
    Mr. Cunningham, who was here bright and early, about 10 
minutes before the hearing began.

                          ANACOSTIA WATERFRONT

    Mr. Cunningham. Thank you.
    And Mr. Mayor, I apologize. The Speaker asked me to come up 
to his office and I said, Yes, sir; therefore, I had to miss 
your testimony.
    Quite often we concentrate on the ills rather than what is 
beneficial. I think many people acknowledge that there are alot 
of problems within Washington, DC, but I would also like to 
acknowledge that you, as a Mayor, and your staff have done some 
very good things. And I am proud of what you have done and the 
directions in which you have gone. Personally, however, it has 
at times been very frustrating.
    People often look at all the problems you have. However 
speaking as somebody who was on the committee in 1994, and 
knowing where we were when we first started with D.C. schools, 
the waterfront, law enforcement, and those things, I would like 
to thank you.
    I acknowledge the progress and most of your cities do.
    I would like to acknowledge, however, all the positive 
things that have been done as well.
    I think Congress has played a role in a portion of that. 
Furthermore, like all of us who have sons and daughters, we 
have always acknowledge their goods, but have also realized 
that there are always areas in which they could improve.
    And I would like to attack these problems. You know from 
the many years what I have basically focused on, and I have 
some questions. We also talked to your staff so that you could 
be prepared for this because I did not want this to come as a 
surprise.
    Regarding the waterfront, we have taken out at least one-
half of the creosote pilings that were leaching, and 
carcinogenic, which leads to cancer, and pollutes the Potomac 
River. The work that you have done on the Anacostia, in 
cleaning that up is much appreciated. We have pumping systems 
in the marinas now so that sewage does not go into the Potomac 
from the boats, and we have improved the laws. All of those 
things are positive.
    Further, you have got a plan. As you know, an improved 
waterfront this is my dream for DC. If it takes me another 20 
years, I want to help with this and see it through before I 
leave.
    Mayor Williams. That is great.
    Mr. Cunningham. And hopefully it does not take 20 years, 
because I am taking a pay cut by taking this job. [Laughter.]
    But I want to stay and see this through. When I leave, even 
the Democrats in this city are going to say, ``Well, Duke cared 
about the city''.
    And that is good. I have a question about the Washington 
Marina. I do not live there anymore, but I have a boat down 
there. In the NCRC proposed plan I want to ensure that the 
Capital Yacht Club, which had a 99 year lease, signed in the 
1970s, is going to be located in this same building, and also I 
would like some kind of an estimate.
    Is it going to cost these folks an additional fee because 
of the modernization of the building, and will the club have 
access to the slips itself?
    The second part of the question is, in the Washington 
Marina it has taken eight years to pull out half of those 
pilings. Originally, the money that we put in there was 
supposed to complete the whole job.
    Further I think, partly because my frustration was that I 
do not think it was done right, the project could have been 
done. However, we have been delayed because of the bid process, 
all of the bureaucracy, and the city council getting involved. 
And we could have had that the marina beautiful by now.
    Another thing I still want to do is build a bridge for your 
constituents to get over to Potomac Park, and to have a park on 
the east side where people can go back and forth without having 
to risk going across the 14th Street Bridge.
    Mayor Williams. Great.
    Mr. Cunningham. We will do a study. That money is not in 
here, but Senator Mary Landrieu, Senator Breaux and I put in 
the money in the bill to finish that project.
    I just want you to ensure me that it is going to be spent 
to finish that job, and to take out all of the environmental 
polluted pilings down there. Also, finishing the project 
creates revenue for you because they lease that property from 
the city.
    Further, I would also like to know if there is going to be 
another bidding process? Is it going to take another year and a 
half? When can we start, when are we going to spend the money 
and when are we going to start tearing out those pilings? 
Winter is approaching us pretty quickly.
    Mayor Williams. Well, first of all, Congressman, I want to 
thank you for your leadership on the Anacostia River. I think 
that your long-term service on this committee and your long-
term, long-standing interest in the Anacostia River are one of 
the motivating forces, I think, behind this chair, and 
certainly Chairman Knollenberg getting behind the river in a 
bipartisan fashion. I want to congratulate you on that.
    I also want to congratulate you on being on Wings Channel 
as Legends of Airpower; that is tremendous. So I, you know, 
congratulate you for that; it is really a great combination to 
our country.
    First of all, the Capital Yacht Club is a vital part of the 
Southwest waterfront, it is part of the Southwest waterfront 
plan, and if it is not clear in the plan, then I will 
personally make it clear in the plan.
    You know, they have been there a long time, they are a part 
of what makes the waterfront what it is and we want them to be 
there. And we certainly do not want them to be penalized for 
being there for their long-term commitment.
    Number two, before the hearing is over, I can get you 
specific answers as to the pilings and as to the work product. 
That is the time frame and the work product for the work on the 
pilings and remediation.
    Mr. Cunningham. Are we going to be able to start before the 
winter sets on?
    Mayor Williams. Certainly commit to doing that as quickly 
as possible and get that to you before we leave here, that 
information.

                           EDUCATION PROCESS

    Mr. Cunningham. Thank you. I think we have come a long way 
in the education process, and I do not believe most of the 
things I read in The Washington Post. However, I am a strong 
believer in charter schools and my other concern is when you do 
away with the paperwork, you take away a lot of the bureaucracy 
on which schools can operate.
    I have a real concern and want to know. Please let me or 
Katie Hanvey with my staff, know what we can help you with, 
both the public schools and the charter schools.
    If you remember, it was, in our budget that Newt Gingrich 
was going to cut charter schools. We increased the money for 
Charter Schools, but we reduced the money for public schools. 
And I said no, you don't reward somebody for going the wrong 
direction, and we beefed up that money.
    Let us know where we can help you with the charter schools, 
the public school system and the summer school program and we 
will be your best champion.
    Mr. Frelinghuysen. Please do that, and consider it done.

                  Congressman Pastor's Opening Remarks

    Mr. Pastor. Thank you.
    Good morning. It is a pleasure to meet you. I have had the 
pleasure of living in your great city for about 12 years. And I 
am a Southeast type of guy. I hang around 8th Street and the 
Market, so I have to tell you that in the 12 years I lived 
there, I have seen marked improvement. No longer have the 
infestation of those slow mammals running in the middle of the 
night. You pretty much have solved that problem I think in 
almost all the areas.
    Mayor Williams. Yes, we have worked very hard on that and 
we have----
    Mr. Pastor. I know you have.
    Mayor Williams [continuing]. And found someone funding 
that--right.
    Mr. Pastor. And I get my PSA report from the local people 
that walk the neighborhood.
    And you can see that the number of crimes have decreased. 
And the work that you are doing on the 8th Street 
redevelopment, I think, is going to be for the military 
barracks and where that whole area is making great progress. 
And I congratulate you on it, because I have seen the work that 
the council and the Mayor have done, and it has been for the 
good. And so, I congratulate you on that.
    I had an opportunity to come to this committee and I took 
it, only because I felt that I do not see myself as an--
overseer. But I see myself in a partnership, rather than in a 
dominant role. I guess if I want to be the city councilman, I 
could go back to Phoenix and run, or I could live here full 
time, and I could not beat Ms. Ambrose, so I better stay in 
Phoenix.
    And so, that is how I see my position. And hopefully 
working with the Chairman and the ranking member and members of 
this committee, we can develop a partnership and work on those 
issues that we can resolve and make sure that this city, which 
is the capital city of our nation, can be secure and the people 
that come from our districts to visit will enjoy the city and 
leave with great pride that this is their national city. And 
so, that is my view as I serve on this committee.

                               EDUCATION

    Education is also very important, as Congressman Cunningham 
mentioned. To me, it is the key for many of our adults and 
children, to be able to advance in their lives. And so, I will 
support your initiatives that will further the education of our 
residents here in DC.
    But there is one issue that I know is very controversial, 
and I will bring it up because I read about the deal, but I do 
not know what the deal is. So do you think that as you develop 
your voucher system, that the voucher system will complement 
the federal dollars that you are receiving, or what may happen, 
and probably will happen, it will supplement and you may not 
get the reward that you are seeking?
    And I have always felt that the cornerstone of our society 
has been the public schools. And even though charter schools 
are very important--I come from a state that started the 
charter schools--but we found out that without any oversight 
that can be greatly abused. And especially those charter 
schools that are independently run by private entrepreneurs, 
and sometimes the quality of the education and the requirements 
are not there, requirements that we would want in any school 
where we send our children.
    So do you think in going to the voucher system, that it 
will be additional money? Or do you think in the long run it is 
just going to be money that will be taken from the current 
money that you enjoy through your tuition program, your 
literacy program, and you will not realize additional monies?
    Mayor Williams. Well, Congressman, first of all, thank you 
for your compliments as it relates to Southeast and the work 
of--I was going to say Congresswoman, good Lord, Councilman 
Ambrose, who I think does an extraordinarily good job over 
there. She is a tough critic, but she and I, and I know the 
cost of chair sharing for our Anacostia River, and she has just 
been a very, very powerful advocate for that waterfront, and a 
lot of improvements over there, H Street and 8th Street.
    One of the two reasons why I support the experiment with 
the scholarship--or I call it a scholarship program, call it 
voucher, whatever you want to call it--program is one, because 
as it has been proposed, the dollars would be additional to the 
dollars to our public schools. It would be dollars additional 
to the dollars otherwise received by the District.
    And I think that with that in mind, it removes one key 
argument against the program that you are "taking dollars" from 
the existing schools. I think that there are a lot of positive 
arguments even if that were true, but it is not true here and 
it is one of the reasons why I support it.
    The second reason I support it strongly is, you know, I was 
talking to Congressman Weldon about this, is with this program 
we have, for the first time in the country, I think an 
opportunity to systematically, under the offices of the 
Department of Education, really, over a period of years, 
compare the outcomes for children similarly situated with 
similar backgrounds between the public schools, the charter 
schools and the private parochial schools.
    Right now, so much of the arguments that are swirling 
around this are all anecdotal and circumstantial, and they are 
not really fact based. This allows us to build that fact 
database and do some relative comparison.
    Ms. Cropp. Mr. Congressman, let me just state that I do not 
think that many people know what the deal may be, as such. 
Certainly, there is concern that we do not want dollars to be 
taken away from the public schools.
    And we look, in the District of Columbia, at our charter 
schools as being part of our public school system. And the 
District of Columbia probably has the largest charter school 
system in the country. And that has been the school of choice 
for the District of Columbia at this point.
    And our concern is that while we certainly do have needs, 
we do not want anything to be taken away from our public 
education system and we would like for that to be funded at the 
appropriate level. And we have been working hard together to do 
that.
    Mr. Frelinghuysen. Thank you, Mr. Pastor.
    Mr. Doolittle.

                          LEGISLATIVE CHANGES

    Mr. Doolittle. Thank you, Mr. Chairman.
    Ladies and gentlemen, thank you for coming today. It seems 
like the city is in a sort of a renaissance. It is exciting to 
see the changes that are coming about and the progress that is 
being made.
    All of you have alluded to the structural imbalance. And a 
couple of you have been specific in talking about proposed 
legislative changes. But you just say they are underway. I just 
wondered what exactly do you have in mind?
    Ms. Cropp. If I could just say one that could happen with 
this budget that you all are working on right now at absolutely 
no cost to the federal government or anyone at all that would 
be greatly beneficial to the District of Columbia is that we 
ought to have the ability to carry any excess funds from one 
fiscal year to the next fiscal year. No business operates in 
that manner.
    And in fact, by not having the ability to carry surplus 
dollars from one fiscal year to the other fiscal year is a 
direct hindrance. It promotes bad business. It promotes bad 
government. There is no rationale that should keep us from 
carrying dollars over. And in fact, at one point, it even put 
us in a negative position because we had to carry some dollars 
on as part of our left in there, and it offset our budget 
horribly.
    So that is one thing that would be at no cost to the 
federal government. It would be beneficial to the District of 
Columbia. We implore you in this budget please give us the 
ability to carry dollars from one fiscal year over into the 
next fiscal year, immediately.

                               OVERSIGHT

    Mr. Doolittle. I think that is a reasonable request that we 
should consider. I believe we do that now in certain parts of 
the federal government. I think the Bonneville Power 
Administration has a revolving fund. And I believe that Hoover 
Dam as a separate facility also has revolving fund operation.
    One of the things, though, you do lose in that situation is 
a good deal of the oversight. And maybe the benefits are great 
enough that perhaps we should be willing to sustain that loss.
    Just out of curiosity, how much money are we----
    Ms. Cropp. Excuse me, could I say I do not think there 
would be a loss in the oversight. The dollars would just leave 
from one fiscal year to the other fiscal year. Now, budget 
autonomy is the next issue I think the Mayor and I would like 
to also raise.
    But the dollars, all it is doing is saying in the line, and 
our CFO would know how to do it. But from a layman's 
perspective, it would just say in the 2003 year budget, we had 
$200,000 or $2 million or $10 million left over. This is a new 
line in the 2004 budget. And that oversight would still be 
there on that whole budget. So there would be absolutely no 
loss in oversight or anything in that regard for any carryover 
funds.
    We would still have to state how we are going to spend 
those dollars. The council would want that. The Mayor would 
want that. And the CFO would probably demand it. So there would 
still be the oversight of that. That is a win-win for everyone.
    You know, when we, sometimes even in departments may say 
that if you do not spend your money, you lose it. Then you have 
people spending money quickly so that the do not lose the 
money. That is just not a good way to do business. And it is 
not a good way to run a government.
    Budget autonomy--and the Mayor may want to elaborate on 
this--on local funds. Certainly, the article in the 
Constitution that gives Congress the power over the District of 
Columbia is always there. But for us to be able to have budget 
autonomy over local dollars that we raise does not seem to be 
too much to ask for and to have.
    The fact that last year our budget was not passed until 
January is just absolutely unbelievable. We had to--in fact in 
some areas when we have to spend at certain levels, because of 
the economy, we needed to reduce the budget. But because the 
budget had not been approved, we were still sort of forced at 
the earlier previous year budget levels, which meant you were 
forcing us to overspend our budget.
    Mr. Doolittle. Well, I do not have an easy answer to that. 
But you know, you were not treated any differently than the 
rest of the federal government. Everything was tied up for 
months over that.
    Ms. Cropp. But we are the District. And we understand we 
are under--we are the District. And what we are talking about 
are local funds. Not dollars that the federal government is 
appropriating to an agency, but these are dollars that the 
taxpayers of the District of Columbia raise. The federal 
dollars would still be under that.

                             SURPLUS FUNDS

    Mr. Doolittle. About how much money, roughly, do you find 
is involved where it--you have it, you would like to carry it 
over, but it goes away because, you know, you have reached the 
end of the year?
    Mr. Gandhi. Well, that depends upon the surplus that we 
have.
    Mr. Doolittle. Right.
    Mr. Gandhi. For example, in 1998 our surplus was $445 
million. In year that just passed, it was only about $27 
million. But my sense here is that you are talking about 
anywhere between, you know, $10, $20 to $100 million.
    But the fundamental issue here, as Mrs. Cropp pointed out, 
is that, it really forces the manager to a use-or-lose 
attitude, which is really----
    Mr. Doolittle. Right. Which is a bad thing.
    Mr. Gandhi. Right.
    Mr. Doolittle. But do you find--I know my time is up--do 
you find in your experience with your budget, do you end up--do 
the committees end up sort of recognizing what you lost because 
it went away with the budget authority and do they add that 
back in, typically, for the next year?
    Mr. Gandhi. Well, I must say, the Chairman and the Ranking 
Member have been very considerate about that issue, and in our 
2004 budget we have asked to use part of our fund balance, no 
question about that.
    I do not mean, when I say lose, that we lose it forever.
    Mr. Doolittle. No, no----
    Mr. Gandhi. The question here is it goes to the general 
fund, we are basically, unlike any other government, we cannot 
touch it without an appropriate congressional approval.
    Mr. Doolittle. Thank you.
    Mr. Frelinghuysen. The process definitely needs to be 
improved.
    Dr. Weldon, then Mr. Cramer.
    All right, I sort of said----

                  Congressman Weldon's Opening Remarks

    Dr. Weldon. Yes, actually I do have to go, so I appreciate 
the gentleman's graciousness. I owe you one.
    Let me just start out by commending the Chairman for his 
genuine heartfelt dedication to the city. Certainly, I want to 
commend all of our witnesses. From, you know, what you are 
telling us, you have really done a great job over the last six 
years, and I think the people of the District can be very 
proud.
    And this news about the bond rating improvement is really 
big, because if your interest payments go down--I notice you 
have got a sizable amount of your budget you have to apply to 
paying off your debt, and reducing your interest payments can 
have a significant impact on all that.
    And, Mr. Mayor, I really want to commend you for standing 
up for the scholarship program. The very first bill I 
introduced as a freshman, back in 1995, was a scholarship 
program, a pilot study. I wanted to do it in four different 
locations.
    And it amazes me that we have not been able to accumulate 
good data on this. Both the advocates for school choice and the 
opponents of school choice engage in very, very heated rhetoric 
on each side, but we really do not have good data.
    And I think we here in the District of Columbia could 
really study this issue very nicely. We have the Department of 
Education right here. And we could get some really good answers 
in terms of cost and quality out of this.
    And I want you to know that I am ready to work with you on 
this issue to see to it that we enact funding for a pilot 
program in the District of Columbia, so that we can really test 
this issue. And I just want to make sure that as we go through 
this process we get critical input not only from educators, but 
from parents as well, and families, because that aspect of 
this, I think, frequently gets overlooked. And so please let me 
know if there is anything I can do to help you with this, and 
certainly help the Council with it and the school board.

                          MALPRACTICE PREMIUMS

    I had a question for you, Ms. Cropp, you said you do not 
like riders, and I certainly understand that. I have been very 
concerned about malpractice premiums in the District. I had an 
ear, nose and throat specialist--I am a physician, I do not 
know if you are aware of that. But he is a friend of mine. He 
used to live in my district in Florida and used to practice 
down there and he relocated up here and he is at Georgetown, 
but he was lamenting the fact that, he is an ear, nose and 
throat specialist and his medical malpractice premium is double 
in the District of Columbia what it is in Virginia and 
Maryland, that he can just go across the Potomac or just across 
into the Maryland side and open an office and pay half, 
literally half of what he is paying in the District.
    Maryland and Virginia have some caps on medical 
malpractice. Has the council looked at this issue at all?
    One of the reasons I have some concern about this, of 
course, is just access. If this kind of problem were to 
continue to snowball, I think it could have some detrimental 
effects on the ability of the people of the city to access 
quality medical care.
    Has your Council looked into this at all?
    Ms. Cropp. Not a recent Council. The Council has looked at 
it in the past. And in fact I just--I personally met with the 
CEOs of most of the hospitals and the hospital association 
recently on that issue and I have been talking to other 
individuals with regard to that issue, trying to get a handle 
on exactly what the costs are. And I looked at Maryland and 
Virginia in particular, because they are our surrounding 
jurisdictions.
    One of the things that I found out--my research has not 
concluded yet--but one of the things that I found out when I 
looked, that it seemed as if the malpractice insurance, which 
you are absolutely right, when I talked to physicians they have 
said it has just gone off the chart--it seems to be impacting 
all of the physicians for what is probably about 1 to 4 percent 
of the physicians who are part of the malpractice. I am 
wondering----
    Dr. Weldon. You mean the bad actors----
    Ms. Cropp. That is right.
    Dr. Weldon [continuing]. Drive up the premiums for 
everybody.
    Ms. Cropp. That is right.
    Well, that is what I am finding so far. And it really does 
seem to be--and I am trying to get all the data--but it seems 
to be about 1 to 4 percent.
    Additionally, it also seems to be some issues with regard 
to insurance. I have looked at areas where they do have caps, 
and the malpractice insurance is different from the District of 
Columbia. Even with the caps, insurance rates still seem to go 
up.
    So I am just wondering--and, as I look at it, and I am 
going to ask the council to look at it--if there is another 
approach that--many of us have been looking at the issue 
possibly incorrectly.
    Obviously, there is a problem. And it is a problem that 
needs to be addressed, as I talk to my physicians in the 
District of Columbia. We have had lengthy meetings. It is a 
problem that needs to be addressed.
    I am not certain if the approach that we have been taking 
and been looking at is the appropriate approach, but we did 
talk about it at our Council meeting.
    Dr. Weldon. I am going to run out of time here, and I did 
have one other issue I wanted to get at.
    I think it is important for an access issue. The GAO has 
actually looked at this to some degree. And the median 
malpractice claim in Richmond, Virginia--or payment, the median 
malpractice payment on a claim is $112,000 in Richmond, 
$150,000 in Baltimore, and $200,000 in the District of 
Columbia. So I do not know what you can do to try to address 
this.

                             FEDERAL GRANTS

    I just have one other question for Dr. Gandhi. The 
committee staff have provided us the total estimate resources 
available to the District of Columbia for fiscal 2003, and I 
want to make sure that I understand this correctly. And it 
includes the Department of Education, which may be out of your 
purview.
    But as I read the dollars, the city has raised $4.1 billion 
from revenue, property taxes and other taxes. The federal 
government has contributed $2.1 billion. Private and other 
sources is about $1.1 billion. For a total of about $7.5 
billion.
    So the federal government is contributing, I guess, about 
30 percent of the total of what is being spent by the city.
    Dr. Gandhi. In those absolute numbers----
    Dr. Weldon. Now, a lot of that is grants, I know. For 
example, the Health and Human Services gets about $1 billion, a 
little shy of $1 billion in federal money. And so, this is not 
all just transfer. I know there is a lot of grants and help in 
combating AIDS and other things.
    Dr. Gandhi. And we appreciate the federal contribution, but 
I think what needs to be delineated here, sir, is the 
contribution made by the federal government that is unique for 
the District. As you yourself pointed out, that something goes 
beyond formula grants, that are available to anyone.
    Dr. Weldon. Right.
    Dr. Gandhi. So that needs to be emphasized, that if you 
look at the actual dollars unique to the District in 1999, we 
received a sizable sum of money, because the federal government 
wanted to help us take care of the Y2K problem. But in 2000, 
there was only about $24 million. In 2001, about $30 million. 
In 2002, only about $38 million. And 2003, $114 million.
    So I think things that are unique to the District in terms 
of taking care of District's problem, those are rather small.
    Dr. Weldon. Well, I want to thank you. I think my time has 
long expired.
    I want to again thank the Chairman for his work, and the 
Mayor, and all of you for your testimony.
    Mr. Frelinghuysen. Thank you, Dr. Weldon.
    Mr. Cramer, my apologies again.

                  Congressman Cramer's Opening Remarks

    Mr. Cramer. No problem, Mr. Chairman.
    Welcome to the subcommittee here. I too in my now 13 years 
of living in this area have lived in the District of Columbia, 
and I am proud to say that I bought a piece of property here 
and I am at least paying some property taxes to subsidize my 
existence here.
    Ms. Cropp. We thank you very much.
    Mr. Cramer. I have noticed--and I am going to narrow this 
down to the child welfare system, Mr. Mayor, and then 
compliment you on your partnerships with a group here. But I 
too notice the city's vitality has changed quite a bit. And 
when I roam the neighborhoods--exercising, running, and just 
trying to relax in this environment up here--the number of 
properties that are turning around in areas that I had thought 
might not ever turn around and neighborhoods becoming 
neighborhoods and children roaming the streets and police 
roaming the neighborhoods and stopping me actually and saying, 
``What do you like about what we are doing'' and, ``What do you 
not like about what we are doing,'' has happened to me 
recently.
    That is not what I----
    Mr. Frelinghuysen. You were stopped by somebody?
    Mr. Cramer. I was stopped by the police. Scared the heck 
out of me too.
    But you wanted some comments from me.
    But it is tough to run District Government like this. And 
you are not a state, you are not a city. You are the District 
of Columbia.
    As I look around at the development going in this city--as 
you look downtown from Capitol Hill and you see the cranes and 
you roam around downtown and you see the apartments going up 
and the condos going up and the kind of upscale neighborhoods 
that are turning around or just neighborhoods turning around. 
Someone is making that happen. And so I want to compliment you 
and tell you that I am here to be a partner with you. And that 
is a good word to use, I think.

                          CHILD WELFARE SYSTEM

    Mr. Mayor, I would like to focus your attention on the 
child welfare system because I think one of the most difficult 
things for any state government to do, particularly, is to 
provide that safety net for children and families and to be a 
rescue net for children and families.
    I have worked for years with a children's advocacy program 
here in the District called Safe Shores. And it is one of 
hundreds of programs around the country. But particularly here 
in the District, there were more challenges in bringing the 
resources together.
    Now, this weds the public sector with the private sector. 
And we focused as a project on a place to put this program 
because we felt like Safe Shores was in an inadequate place. As 
good as we could provide for a while, but still not where we 
wanted to get. And other communities similarly sized around the 
country were doing better things and we wanted to do better 
things.
    So we focused first on a firehouse on Capitol Hill that had 
been boarded up. Well, the city got in a different position 
with that firehouse, reopened it as a firehouse, and who can 
argue with that? Then we focused on the Gale School property, 
over here off Massachusetts Avenue, which had been boarded up 
for years and years and years.
    And this is a unique opportunity, I think, for the Safe 
Shores program, as well as their parent organization, the 
National Children's Alliance, to be able to showcase work that 
is going on with children here, the District's children here, 
as well as letting other communities that want to build 
programs like this, like the city of Chicago that wanted to 
come in here years ago and look at a program like this. We did 
not have a place to showcase then. They built a program in 
Chicago on their own through different means.
    But I know this is tough to do, but Mr. Mayor, you have 
supported this Gale School project and it is in your budget 
here. And I want to thank you for that and give you a chance to 
comment, if you would, on the child welfare system and the 
progress that we have made.
    Mayor Williams. Okay, Congressman. I was thinking to my 
self, Lord, have mercy, I thought I put that in the budget.
    Mr. Cramer. You did, you did, you did. [Laughter.]
    Mayor Williams. I was saying to myself, ``Well, the 
bureaucracy really is not working because here I am thinking I 
put it in the budget, and it is not, and who has done it?'' You 
know, the Gale School, what we are doing in working with the 
Congress, and I will note Congresswoman Norton and Leader 
Congressman DeLay for the intake center at the courts. They are 
all, I think, very significant positive steps.
    I think that--I think events are commitment to improving 
child welfare in the city. I think, as I was reporting to the 
Chairman, if you look at my budgets, one of the areas where I 
have had some pushing and shoving as we have moved through the 
budget process is to try to protect funding with a margin for 
error and some kind of cushion for Children and Family Services 
Agency. Recognizing, I think, that we have got a first-rate 
director, Olivia Golden, who, you know, no one has got better, 
I think, better experience, working for the Children's Defense 
Fund, working as a senior leader in the Department of Health 
and Human Services, now working in the District, to really move 
this program forward. And I believe that she is doing that in 
very significant ways.
    If you look at what I have done in two key appointments I 
have made over the last couple of months, I think they also 
evidence this. For example, I have sent to the council the 
nomination of Robert Spagnoletti to be our core counsel. One of 
the things that commended me about him was that working for 
three U.S. Attorneys, Wilma Lewis, Eric Holder and now Roscoe 
Howard, all of them reported that he had done an excellent job. 
All of them reported the work that he had done to turn around 
the Domestic Violence Unit in U.S. Attorney's Office.
    And I think he is uniquely equipped to go into core 
counsel's office and not just get the core counsel's office 
running better, because he is a lawyer who understands 
management, but also those functions the core counsel's office, 
whether they are child custody, other functions, that relate to 
child welfare.
    Finally, Yvonne Gilchrist, who we have sent to the Council 
as the nominated to run Department of Human Services here in 
the city. Now, one of the things that originally hit me when I 
looked at her resume and talked to her was when she was up in 
Baltimore, working up in Baltimore, she was responsible for, I 
think in one year, bringing adoptions--and I do not have the 
exact numbers, but an order of magnitude something like 30 to 
300. Huge increase in adoptions. And that is exactly the kind 
of leadership that we need here in the city that I think, 
again, to express our commitment to all these children and 
family issues.
    Mr. Cramer. Thank you. I wish I had more time but we will--
--
    Ms. Cropp. Mr. Cramer, if I may just add with the Safe 
Shores Program that you were talking about. It is really an 
excellent example of the public and private sector coming 
together. The national organization will be housed on the top 
floor of the building, the Safe Shores Program itself. And then 
the city offices that will act as a linkage for the program.
    And also, sort of in line with what Mr. Fattah had said, 
the national program will even be paying rent--coming together 
for the benefit of the citizens as a whole.
    Mr. Cramer. Thank you. Thank you very much.
    Mr. Frelinghuysen. Thank you, Mr. Cramer.
    Mr. Culberson.

                    JOBS AND GROWTH TAX ACT FUNDING

    Mr. Culberson. Thank you, Mr. Chairman.
    I wanted to ask, if I could, in the testimony you all 
presented, you did not mention the additional money the 
District will receive as a result of the state bail-out money 
from the jobs and growth tax cut package. And I know that it is 
my understand that you will have approximately $44 million 
additional dollars that will need to be spent on Medicaid.
    But what do you plan to do with the additional $50 million 
that you will receive in flexible dollars? And to what extent 
will that diminish the obligations of this subcommittee to 
provide the money additionally that you have asked for?
    Dr. Gandhi. You are right, sir. I was just mentioning where 
we went in 2003. But for 2004, obviously, this money is in the 
bag. And we very much appreciate that. No question about that.
    Mr. Culberson. How will it be spent? And on what----
    Mayor Williams. The CFO is bringing me recommendations. I 
will share them and have discussions with the council. But as a 
general rule, we want to make a healthy investment in reserves 
and in funding to protect us from future, you know, downturns 
in the 2004. And then on a limited basis, use some 
discretionary funding for some investments that were deferred 
because of the financial difficulties. We are facing some 
critical enhancements that were deferred because of the 
situation that we are facing.
    An example would be, I mean I am just giving you an 
example, we have deferred things in education. We have deferred 
investments in workforce, those kinds of things, to try to 
recoup them.
    Ms. Cropp. The Mayor and the Council are looking forward to 
our discussions that with regard to that money, I think that 
one challenge that we will have in the District of Columbia, 
and quite frankly, I think across the country, is that we 
certainly do appreciate that money. And I think that everyone 
will say that the money is greatly needed.
    Our challenge is not to put it in the base so that by 2005 
we then have a problem because we have built up our base on 
those dollars, and then in 2005 we may not have those dollars.

                            PUBLIC EDUCATION

    Mr. Culberson. Thank you. I also hope that you will do 
everything in your power to improve the of the public schools. 
It seems to be public safety, public education particulars, are 
our most important obligation as public officials. And I am 
just profoundly disturbed to see the report of Undersecretary 
Hickock that 76 percent of fourth graders in DC scored below 
basic level and that there was a lower percentage of students 
in DC demonstrating proficiency than in the case for any other 
state.
    It is profoundly disturbing, and I am grateful for the 
progress you have made in other areas. But it seems to me that 
is an absolute emergency. Because those--you never get another 
chance at those kids. Having a 6-year-old myself, the time goes 
so quickly and it is so precious.

                         REPRESENTATION OPTION

    Finally, I wanted to ask in the time that I have remaining, 
is to--I have discovered--I come from 14 years in the Texas 
legislature and am new to the committee and am in my second 
term in Congress and am a devout believer in the core 
principles Thomas Jefferson pursued. As a Jeffersonian, I have 
discovered that much of the problems that I have encountered in 
the state legislature and here are typically you can trace them 
to some problem in governance and the way the institution 
itself operates.
    And you mentioned, Chairman Cropp, in your testimony, and I 
have heard it from the others as well, the limited tax base and 
a lot of other restraints and restrictions that you are forced 
to deal with as a result of the unique circumstances of the 
District of Columbia.
    Why should not Congress simply pass legislation to allow 
the District of Columbia, other than the Capitol and the 
federal buildings, to become a part of the state of Maryland, 
so that you do indeed have representation and you are indeed a 
city and can draw on revenues from the state of Maryland as a 
whole and operate therefore, as a part of our republican system 
of government, where you truly have representation and can draw 
on the revenue base outside of the city?
    Should you not become a part of the state of Maryland?
    Ms. Cropp. Well, that is a debate----
    [Laughter.]
    Ms. Cropp [continuing]. That is a debate that has been 
going on for a long time, but the Congress did create the 
District of Columbia. And we have since become somewhat of an 
independent jurisdiction that has our own culture.
    And one of the better approaches, we would hope, is that we 
would be able to get voting representation in Congress from the 
District of Columbia. There have been many options that people 
have looked at. That is one. I do not think that is the option 
of choice for the District of Columbia, however.
    And I also--let me just say, Thomas Jefferson was the first 
president of the board of education for the District of 
Columbia, by the way.
    Mr. Culberson. Well, certainly, it does make more sense 
though for you if you are going to be represented, you would 
have, obviously, a greater revenue base. A lot of the 
restrictions you are talking about would disappear if you 
became a part or a state governance structure.
    You know, I could also ask the Mayor, if I could, to also 
comment on that and give us your thoughts on why not become a 
part of the state of Maryland and therefore have a real voice 
and real representation?
    Mayor Williams. Well, you know, I mean if you look at the 
original confines of the District, 10 by 10, 100 square miles, 
part of the District was originally in Virginia. So you could 
make the point that maybe we ought to become part of Virginia.
    Mr. Culberson. Sure, absolutely.
    Mayor Williams. Right. And I think that the District has a 
unique--as the Chairman was saying, I want to just basically 
embrace her comments that the District has a unique history and 
a unique culture. And I think it is the general consensus among 
our citizens that we retain that unique history and retain that 
unique identity and culture. And that yes, we achieve full 
representation, but we do it on our own standing with our own 
identify as opposed to becoming part of another state.
    Mr. Culberson. Certainly, but----
    Mayor Williams. The District has been treated for all of 
these years under Article I, with all of the burdens of 
statehood but without any of the real benefits. And that we 
accept those burdens as a unique identity. We ought to have the 
burdens as with our unique identity that we ought to have the 
benefits with our unique identity as well.
    Mr. Culberson. Of the very small size of the District 
compared to other states, I think personally it does not make 
sense. It seems to me he ought to become a part of either 
Virginia or Maryland.
    Mayor Williams. With all respect, Congressman, I mean, I 
think certainly geographically maybe you could argue that we 
are of small size, but even geographically if you compare us to 
other states, we are not that much smaller.
    But certainly population-wise, we are actually larger than 
a couple states in terms of population.
    Ms. Cropp. And if you look beyond that, when you look at 
the number of citizens that the District has sent to our wars 
in the past, we have sent more citizens to fight for this 
country than several other states.
    We pay more federal taxes than several other states. So 
when, if you are going to compare us with other states, I think 
in some instances, we are larger than other states.
    And those other states do not have the burdens that we have 
in the District of Colombia.
    I would humbly suggest that if you restricted many other 
states or cities with the type of restrictions that we have in 
the District of Colombia, they would have gone, and I think 
this is a Texas term, belly up a long time ago. [Laughter.]
    We have done exceptionally well, considering the 
restrictions that we have. So I appreciate the direction, I 
appreciate that its on your plate and on your radar screen.
    Mr. Culberson. I want to see you represented, and the best 
way I think to do it is to become a part of either the state of 
Virginia or Maryland. Thank you.
    Ms. Cropp. Thank you.
    Mr. Frelinghuysen. He is not going to give up. [Laughter.]
    And it is good to know that the Council Chair and the Mayor 
are in lockstep in terms of their response on this issue.
    I just have a few--Mr. Fattah, get your oar in the water 
here.
    Mr. Fattah. Not to speak for Jefferson, but I think that it 
would be much more connected to American ideals for the people 
of the District to decide whether or not they wanted to have 
homerule and a vote in the national legislature or become a 
part of some other state, than for the gentleman from Texas or 
Pennsylvania or New Jersey or for any of us to decide for the 
people of the District. I think that it is the basis of our 
democracy that people have a right to self-determination.
    So, with all due respect, I think, for us to want that for 
the people of Iraq, and not be prepared to allow the people of 
the District to decide, versus those of us who come from some 
other place, because I am sure that in Texas they would not 
want people making determinations for the state of Texas, in 
terms of what their future may be.
    So I would like the record to reflect that, at least in my 
opinion, we should go in the direction of allowing the 
residents of the District, who pay their taxes and who fight in 
the wars to be able to speak for themselves and to govern 
themselves.
    In that regard, there were some comments about vouchers 
earlier. I am an opponent of vouchers. I think what we should 
do in public schools is to provide for in our low performance 
districts the same thing that we provide in our high 
performance districts. That is quality teachers and the 
reasonable class sizes and access to technologies. But I am a 
believer in home rule.
    And so, whatever the position of the elected officials of 
the city are, I think that the Congress should really stay in 
its own lane and allow the people to be governed by the Mayor 
and the City Council in efforts to desire the elected officials 
to proceed with vouchers or needle exchanges or whatever these 
matters are.
    I think that we have done a great job in getting rid of 
these riders. And we should continue in the path of being 
respectful to fellow citizens of this great nation of ours and 
their right to govern themselves.
    Mr. Frelinghuysen. Thank you very much for your comments, 
Mr. Fattah.
    Just a few questions relating back to the budget.
    Yes, you want equal time, Mayor?

                             CONTRACT AWARD

    Mayor Williams. No, could I just answer Congressman 
Cunningham? I got information for you.
    Mr. Frelinghuysen. Boy, is that a prompt response. 
[Laughter.]
    Mayor Williams. I am sure it was not in direct response to 
your question, but we have just awarded a contract. Isn't that 
quick? [Laughter.]
    Mr. Frelinghuysen. How shameless. [Laughter.]
    While we were deliberating the Mayor has awarded a 
contract. [Laughter.]
    That is the fastest action the city has ever taken.
    Mayor Williams. But a $2.7 million contract, Congressman--
--
    [Laughter.]
    Mr. Frelinghuysen. This hearing is not generating that much 
yet.
    Mayor Williams. But we have awarded a contract, 
Congressman, of $2.7 million. Work is scheduled to begin this 
month.
    The work should be completed by the end of this calendar 
year, and everything fully operational at that point.
    Mr. Frelinghuysen. Thank you, sir.
    Two other areas I would like to focus on for a few minutes, 
and then we will sort of maybe some closing remarks from each 
of the Members. I know Mr. Cunningham has another question.

                             ADULT LITERACY

    We both mentioned in our opening remarks the issue of adult 
literacy. We certainly know that there is a relationship 
between schools and the very high percentage of the rate adults 
in the city.
    Congress provided $4 million last year, and you are asking 
for another $4 million. What is the city bringing to the table 
relative to the federal commitment?
    Mayor Williams. Well, what we have done, Congressman, is 
$1.5 million has been granted to a number of organizations to 
provide direct services, and they range from, for example, a 
Latin American youth center, Covenant House in Washington, very 
well-known organization, Academy of Hope, Greater Washington 
Urban League. Nearly 5,000 other adults will benefit from 
professional development capacity building and the like.
    Approximately $1.3 million has been re-granted to DC agenda 
to recruit, hire, place and train the first 20 literacy 
leaders, $150,000 paid to National Institute for Literacy's 
Equipt for the Future program, $100,000 to fund a citywide 
online clearing house.
    And to answer your question specifically, Mr. Chair, in 
terms of the city's commitment, and just one example of this--
--
    Mr. Frelinghuysen. Just tell me that some of those 
organizations you listed are actually using the federal 
dollars.
    Mayor Williams. Right, I am getting to the local match, for 
local dollars. Just one example of the local commitment is we 
work with the CFO and work with the council, recognizing that 
these are not ongoing commitments, but are one-time 
commitments, at least on a one-time basis use some part of the 
dollars that we discussed earlier for literacy, for a 
commitment to literacy.
    I am not sure of the exact amount, but there would be a 
commitment there.
    Mr. Frelinghuysen. So we provided funding in 2003. What 
specifically is the city bringing to the table? How much money 
itself?
    Mayor Williams. Well, there certainly, the city is bringing 
an amount to the table in terms of dollars, and these local 
organizations. Specific dollars from the city we have not been 
able to provide because of the budget constraints we are 
facing. Although as they are ameliorated and as we see the 
funding relief that we have talked about earlier for fiscal 
year 2003-2004, part of that would be used for our literacy 
commitment.

                          MEDICAID COLLECTIONS

    Mr. Frelinghuysen. Okay. Relative to Medicaid collections, 
one of the issues that has been a major problem for the 
District over the years and has caused budget shortfalls is the 
inability of agencies to collect on Medicaid receivables.
    Dr. Gandhi, could you focus for a few minutes on where we 
stand relative to collection forecasts, billings, and actual 
collections from each of the agencies with large claims?
    Dr. Gandhi. Yes, sir, Mr. Chairman. In 2003, we have a 
expectation that about $47 million less will be collected than 
what was originally estimated at the beginning of the year.
    However, realizing that we do have a Medicaid collection 
problem, that we need to build our financial infrastructure to 
make sure that every dollar is collected, we already have 
provided reserves in the budget of about $74 million.
    So whatever Medicaid losses that we may suffer in 2003 are 
properly provided for. But more important, though, is that 
Mayor and the Council have put together a Medicaid task force, 
and the Mayor has appointed a Medicaid czar, whose primary 
function is to be very aggressive about collecting the dollars 
that are due to the city.
    We realize that that is an ongoing effort. By 2005 that 
effort will be complete and that will be----
    Mr. Frelinghuysen. So have collections actually improved 
since the task force was formed?
    Dr. Gandhi. The task force has begun and has already 
improved. For example, in Child and Family Services we are 
likely to collect everything that was expected. In the case of 
schools we will collect everything that was expected.
    There are still some agencies where we do have problems, 
but we have provided the reserves for that in 2003 budget. And 
my expectation is that within a year we will have corrected our 
Medicaid problem.

                           SPECIAL EDUCATION

    Mr. Frelinghuysen. Another task force that has been formed, 
Mr. Mayor, deals with the whole issue surrounding special 
education. I just wondered where we stand. There was task force 
that was set up to deal with the complex issues relating to 
transportation and the costs associated with serving these 
special children in the District, as opposed to out-of-city 
placements.
    I know some improvements are being made, and I salute you 
for those improvements, but if you could just talk about some 
of the work that has been done by that task force? Just for a 
moment.
    Mayor Williams. Yes, so, you know, special education 
brought to everyone's attention a number of roadblocks to the 
delivery of special education, and working with council chair, 
working with the chair of the committee, Kevin Chavez, working 
across agencies.
    Once these roadblocks were brought to light, we believe 
that we have begun to put the partnerships together to address 
the problem.
    In December, the CFO for the city, and subsequently the 
joint task force unanimously certified the DCPS cost-saving 
plan. The plan is designed to generate cost avoidance, cost 
saving, and generate increased revenue so that the fiscal year 
2005 DCPS will not need the $27 million tobacco fund subsidy.
    So that is a long way of saying, Mr. Chair, that we made a 
commitment to saving annually $27 million by 2005, and we are 
on track for meeting that commitment.
    We have established a parent service center that is 
operating 99 hours per week to address all parent concerns as 
they navigate through the special education process.
    We formed public-private partnership with Alternatives 
Unlimited to create DC Alternative Learning Academy. This 
public school offers an alternative placement for students with 
special needs closer to home in a cost-effective manner. And 
you know that is a big issue.
    We have created 200 new seats for students with 
disabilities, so they can be served within DCPS, again, long 
and short, to bring more of these services within the 
jurisdiction and wherever possible within DCPS itself. Our 
initiative, for example, on Reservation 13, so-called, with St. 
Colletta's is, in this regard, to bring more services within 
the jurisdiction. If they can be done through the charter 
school process, so be it. If they can be done through private 
providers, that is one way. And also within the public schools.
    So I am the first to say, Mr. Chair, there is a long, long 
way to go, but I believe that we have turned the corner and we 
are beginning to see some real progress now, specifically the 
saving of $30 million by 2004.
    Mr. Frelinghuysen. Yes, the Committee provided $3 million 
in the way of resources and we think it is a good----
    Mayor Williams. Right.
    Mr. Frelinghuysen [continuing]. Good investment, you are 
proceeding down the right path.
    A few additional questions. Mr. Pastor and then Mr. 
Cunningham.
    Did you want to make a comment?

                       LATINO COMMUNITY OUTREACH

    Mr. Pastor. It is not a question, but I think the Council, 
in September, received a report on the status of Latinos in the 
District of Columbia, and it showed that there were great needs 
and still barriers in that community. And so I would just 
encourage you to continue to reach out to the community, and 
let us know if we can be of assistance on this committee. That 
it is a growing community, and a community that if well served 
in terms of education, health, literacy, will make this capital 
even greater. And so I encourage you to reach out to that 
community.
    Mayor Williams. Congressman, I, as Mayor, my key leaders in 
my Cabinet in relevant agencies and our councilman from Ward 1, 
with our highest Latino population, have personally met with 
the task force now, I think, two or three times and are working 
jointly with them on an action plan to address many of the 
concerns that were raised so that 10 years from now, on the 
20th anniversary of the disturbance of the uprising, we can see 
some marked real progress on the education front, housing 
front, youth investment front.
    Ms. Cropp. And also, the council has created a subcommittee 
that deals with Latino affairs specifically, and that is the 
council member from Ward 1, who chairs that subcommittee that 
is working on the task force and has held several hearings with 
the Latino community with a translator there so that we can 
look at the report and come out with recommendations that could 
be implemented.
    Mr. Frelinghuysen. Thank you, Mr. Pastor.
    Mr. Cunningham, you had a question?

                  TOWN HALL MEETING ON PROSTATE CANCER

    Mr. Cunningham. Yes. Thank you.
    Very seldom are public officials able to contribute 
something directly without the bureaucracy. The town hall 
meeting that you set up, Mr. Mayor, was on a terrible night--it 
was raining, it was sleeting, it was snowing, it was cold. But 
we packed the place. And I think you saw the interest from the 
community on the desire to get information about cancer.
    Dr. Von Eschenbach said he would come back and speak to the 
community and I would like you to work with the staff on doing 
another town hall because you can see the community's concern. 
It does not take that much to set up another town hall, but I 
think it directly is responsive to the concerns of DC citizens. 
This town hall was particularly beneficial for people who have 
never attended something like that, dealing with prostate 
cancer, which is highest among African-Americans in the United 
States.

                              TRAFFIC FLOW

    The second thing that I ask is that you look at parents 
picking up their children at a school because we want it to be 
safe. On 7th Avenue, people double park in front of Jefferson 
School. But there is only one lane of traffic, so quite often 
it is gridlocked and no one can get through. Quite often it 
backs up I-395. Also, the southwest Waterfront has been 
designed in our Homeland Security plans as a potential escape 
route, and the double parking would gridlock that.
    Because my wife is a teacher, I know that all schools have 
problems with traffic but they assign a teacher to be out there 
each day to make sure the traffic keeps moving. The problem is, 
if the parent gets there early, they will wait for their child. 
There needs to be some place, and I do not know where it would 
be, but maybe you can take a look at it, where parents can wait 
for their children. In a time of an emergency there cannot be 
gridlocking on 7th Avenue because of the access to I-395.
    I would also like to associate myself with Mr. Cramer. I 
used to live on Third Avenue, up by the train station. There 
was a little grocery store that was robbed six times in one 
year, and two of the girls that lived in my apartment complex 
were mugged going into a locked gate. Further, there was a man 
shot and killed right out in my driveway. I used to walk in the 
neighborhood, puff up as much as I could and say, ``Yes, I am 
bad, I am bad,'' and walk down the street in an effort to deter 
criminals. My wife and I still go over to that market and when 
we walk down the street, we have noticed police stopping us and 
I think that is a very positive thing for the community.
    Thank you.
    Mr. Frelinghuysen. Nobody fools around with the Duke. We 
take our hats off to him in terms of the work he has been 
doing, in terms of a role model relative to prostate cancer. I 
think it is super, and we admire you and your personal courage. 
I know I share the feeling of all the Members.
    For closing remarks, Mr. Fattah.

                            CLOSING REMARKS

    Mr. Fattah. Let me just thank the Chairman. This is, I 
believe, the conclusion of a series of hearings that are going 
to set the foundation for us to do the work that we are 
required to do this year on this committee. I want to thank the 
Chairman for the conduct and the substance of these hearings 
for both Rob Nabors and particularly for the lead staff person, 
Carol Murphy.
    And I want to thank the Mayor and his team for their 
assistance, particularly Sabrina McNeal, who is very apt in 
keeping those of us here well informed on matters of importance 
to the city. And hopefully, we can meet the needs of the 
District to the degree that this committee is capable of.
    Thank you.
    Mr. Frelinghuysen. Thank you, Mr. Fattah.
    Let me act on those sentiments and recognize the fact that 
we are only as good as the people who sit next to us and behind 
us, in terms of minority and majority staff, and we appreciate 
the cooperation of you, Mayor Williams, Chairman Cropp, Dr. 
Gandhi, and your respective staffs in providing information.
    There will be plenty of questions we will be submitting for 
the record and we would appreciate a timely response.
    Let me say that I believe that this Committee and Congress, 
in particular, needs to do a much better job of getting the 
District's budget to them at the start of the fiscal year, and 
I will be working as best as I can to expedite the process. 
What happened, as you so politely described, made life 
extremely difficult, but it is not this Committee's intention 
to do that, but certainly we are going to pitch in.
    Let me also say it has been a pleasure to work with Mr. 
Fattah, who has a deep knowledge and appreciation of the 
District. He has provided me with a lot of lessons and 
knowledge that I was unaware of. I am most appreciative of his 
cooperation.
    We are going to try and get this thing together as soon as 
we get our allocation, and we hope that it will provide the 
city with a much needed boost.
    On behalf of the Committee and all of us here, we thank you 
for being here, Mayor and Chairman Cropp.
    Mayor Williams. Thank you.
    Ms. Cropp. Thank you.
    
GRAPHIC(S) NOT AVAILABLE IN TIFF FORMATT
</pre></body></html>
